<html>
<title> - A REVIEW OF THE FISCAL YEAR 2017 STATE AND USAID BUDGET REQUEST</title>
<body><pre>[Senate Hearing 114-789]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-789

                    A REVIEW OF THE FISCAL YEAR 2017 
                     STATE AND USAID BUDGET REQUEST

=======================================================================

                                HEARING


                               BEFORE THE


                    SUBCOMMITTEE ON STATE DEPARTMENT
                         AND USAID MANAGEMENT,
                     INTERNATIONAL OPERATIONS, AND
                  BILATERAL INTERNATIONAL DEVELOPMENT


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                              MARCH 1, 2016

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web:
                         http://www.govinfo.gov


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-664 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a3b4ab84a7b1b7b0aca1a8b4eaa7aba9ea">[email&#160;protected]</a> 
            


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Perdue, Hon. David, U.S. Senator from Georgia....................     1


Kaine, Hon. Tim, U.S. Senator from Virginia......................     2


Pitkin, Douglas A., Director, Office of U.S. Budget and Planning, 
  U.S. Department of State, Washington, DC.......................     3

    Prepared statement...........................................     5

    Responses to Questions for the Record Submitted to Douglas 
      Pitkin by Senator David Perdue.............................    38


Sastry, Hari, Director, Office of U.S. Foreign Assistance 
  Resources, U.S. Department of State, Washington, DC............     7

    Prepared statement...........................................     8

    Responses to Questions for the Record Submitted to Hari 
      Sastry by Senator David Perdue.............................    61


Napoli, Roman, Acting Director, Office of Budget and Resource 
  Management, U.S. Agency for International Development, 
  Washington, DC.................................................    10

    Prepared statement...........................................    12

    Responses to Questions for the Record Submitted to Roman 
      Napoli by Senator David Perdue.............................    80




                               (iii)    

  

 
                   A REVIEW OF THE FISCAL YEAR 2017 
                     STATE AND USAID BUDGET REQUEST

                              ----------                              


                         TUESDAY, MARCH 1, 2016

                               U.S. Senate,
        Subcommittee on State Department and USAID 
Management, International Operations, and Bilateral 
                         International Development,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. David Perdue, 
chairman of the subcommittee, presiding.
    Present: Senators Perdue [presiding], Isakson, Kaine, and 
Markey.

            OPENING STATEMENT OF HON. DAVID PERDUE, 
                   U.S. SENATOR FROM GEORGIA

    Senator Perdue. Good afternoon. The committee will now come 
to order. This hearing of the Subcommittee of State Department 
and USAID Management, International Operations, and Bilateral 
International Development--only in Washington can you have a 
title that long--is entitled ``A Review of the Fiscal Year 2017 
State Department and USAID Budget Request.''
    I would like to begin by welcoming our witnesses, Mr. 
Pitkin, Mr. Sastry, and Mr. Napoli. Thank you, guys, for being 
here. We appreciate it. I talked to your leadership at the 
State Department yesterday. I am anxious to get a lot of your 
testimony on the record before--I think Deputy Secretary 
Higginbotham is to be before the full committee next week, so 
we will try not to be redundant. We have looked at some of the 
questions. The ranking member and I have looked at these to 
make sure that we are--we will try not to do that for the sake 
of your time and hers as well.
    We are here to discuss the international affairs budget--
State Department, that is--request for Fiscal Year 2017, which 
includes our State Department, USAID, and other funding for 
diplomatic engagement and foreign assistance. Today is intended 
to be a deep dive into the budget request for those who have 
come up with the budget at State and USAID.
    I personally serve on both the Foreign Relations Committee 
and the Budget Committee, which I believe gives me a unique 
understanding--as does the ranking member, Senator Kaine. I 
believe that gives us a unique understanding of how our global 
security crisis and the fiscal crisis are actually intertwined. 
Given our current fiscal situation, every dollar we spend on 
State and USAID, if you look at it that way, is basically 
borrowed, which makes it even more important that we understand 
the request.
    With that said, the United States is and should continue to 
be the most philanthropic Nation in the history of the world. 
We have no shortage of problems in the world that require 
American leadership. As this Administration plans to draw down 
American forces in Afghanistan, as we continue to have lower 
troop levels in Iraq, the cost of the State Department 
maintaining a presence in these difficult, high-threat 
environments increase.
    Today I would like to cover a number of issues, including 
long-term budget trends, the issue of OCO funding, the State 
Department and USAID's plans to combat the Zika virus, how 
monitoring and evaluation results are integrated into budget 
decisions, and how this budget would address the growing 
migration crisis in Europe, to name just a few. Also, as 
follow-up questions on how some of the USAID money has been 
used in the past in places like Haiti, for example. We 
certainly have a lot of ground to cover.
    So with that let me turn it to our ranking member, Senator 
Tim Kaine.

                  STATEMENT OF HON. TIM KAINE,
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Mr. Chairman. Thanks to the 
witnesses. We are looking forward to this hearing today. As 
Chairman Perdue mentioned, I also serve with him on the Budget 
Committee, and I am on the Armed Services Committee as well. 
And I feel like a lot of this hearing is really about, you 
know, an important part of American power, very connected to 
our military mission, but on the diplomacy side. And I will 
make the point, and this is not to chide anybody within the 
State Department, but as you guys often are professional men 
and women in advocating for your budget, the DOD is often even 
better at advocating for your budget.
    General Mattis testified at a SASC hearing in 2013, ``If 
you do not fund the State Department fully, then I need to buy 
more ammunition.'' That is a direct quote. Secretary Gates is 
known for saying the same thing. And one of the things that has 
interested me as an Armed Services Committee member is hearing 
how strongly they support a full budget for the State 
Department. Secretary Kerry reminded us last week during the 
full committee hearing that this total budget is less than one 
percent of the Federal budget, and it is a statement of our 
priorities and the degree to which--with which we prioritize 
diplomacy abroad.
    I am a big believer in this budget. You have got 
organizations like U.S. Global Leadership Coalition that make 
the case for the importance of it because we do so much good in 
this--in this area, but we have so many concerns as well. So we 
are going to be digging a lot into it. The chair mentioned 
Zika, for example. We want to understand the President's 
proposal to spend money to battle Zika, but we also want to 
understand how the State Department is prioritizing keeping our 
own personnel safe, which is I know got to be something that is 
of significant concern to all of you.
    We have got military conflicts around the world that we 
know will not end without some political resolution--Yemen, 
Libya, Afghanistan, Syria. State and USAID play an important 
role as those conflicts are hopefully moving toward an end, but 
then even after. We have--we are entering a new chapter in the 
relationship with Colombia after three Presidents, three 
Administrations have been consistent in Plan Colombia. We are 
moving to Pas Colombia and trying to play an important role in 
that--in that strong ally's continuing progress, which is good 
for the people of Colombia, but also good for the people of the 
region and of the world.
    And I also have a particular interest, having followed the 
Plan Colombia to Pas Colombia. Particularly interested in how 
the State Department would intend to use the $750 million 
appropriation that we just put into the budget for the Central 
America prosperity process, and the President has an additional 
billion-dollar request this year, so kind of how you intend to 
use those funds. What would be the metrics under which we would 
analyze whether we were being successful, we would have reason 
to believe because of Plan Colombia's success that we could be 
successful. We will only be successful if we spend the dollars 
the right way.
    So there are many, many issues in this budget, State and 
USAID, and we will dig into them with other colleagues who are 
here, both now and when we have our full committee meeting next 
week. But we appreciate your service and look forward to your 
testimony.
    And thank you, Mr. Chair.
    Senator Perdue. Thank you. And now, we will hear from our 
witnesses. I will introduce individually prior to your 
testimony.
    First we have Mr. Douglas Pitkin, the director of the 
Bureau of Budget and Planning of the State Department. Mr. 
Pitkin is responsible for developing the diplomatic engagement 
budget, overseeing strategic planning and performance 
management of those resources as well as control of all 
departmental resources. He has served in this position since 
June 2015.
    Prior to coming to the Office of Budget and Planning, Mr. 
Pitkin served in the Iraq Transition Assistance Office in 
Baghdad and in the Office of Management and Budget.
    Mr. Pitkin, thank you for your service. We are anxious to 
hear your testimony.

STATEMENT OF DOUGLAS A. PITKIN, DIRECTOR, OFFICE OF U.S. BUDGET 
    AND PLANNING, U.S. DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Pitkin. Thank you, Senator. Thank you, Mr. Chairman, 
Ranking Member Kaine, and distinguished members of the 
subcommittee for inviting my colleagues and me to discuss the 
Fiscal Year 2017 Department of State and USAID budget request. 
At a time when the demand for U.S. leadership and engagement 
has never been greater, this budget provides America's 
diplomats and development professionals with the tools they 
need to advance our national security interests and build a 
safe and prosperous world.
    The total request for the Department of State and USAID for 
Fiscal Year 2017 is $50.1 billion, of which $35.2 billion is in 
our base enduring budget, and $14.9 billion is requested in 
overseas contingency operations. This combined funding, as you 
said, still constitutes just one percent of total Federal 
spending.
    As the director of the State Department's Bureau of Budget 
and Planning, I will focus on our diplomatic engagement 
request, which comprises our people, our diplomatic and embassy 
security programs, public diplomacy initiatives, our treaty-
based commitments to the United Nations and other international 
organizations, and our global management platform.
    This portion of the budget in terms of appropriations 
totals over $16.1 billion, which for Fiscal Year 2017 
constitutes a $560 million increase over the 2016 omnibus 
level. This portion of the budget constitutes 32 percent of the 
total State/USAID request with the foreign assistance and USAID 
budget making up the remaining 68 percent. We are submitting 
the details of our overall budget request and many of the 
numbers as part of the USAID/State fact sheet for the record, 
but I will highlight a few of the specifics that drive the 
majority of our request.
    A large portion of our request is for our operating 
platform of security programs and diplomatic facility 
construction for which we are requesting a total of $6.1 
billion. $3.7 billion of that supports our Diplomatic Security 
Bureau operations and other worldwide security protection 
programs, which actively secure our personnel, our facilities, 
and our information.
    $2.4 billion of that request is for our diplomatic facility 
construction and maintenance, which provides the Department's 
share of the Capital Security Cost-Sharing Program, which 
builds safe, secure, and functional diplomatic facilities 
overseas. Both components of that security request sustain our 
Department's commitment to implementing the Benghazi 
Accountability Review Board Recommendation of several years 
ago. As these programs do help us manage risk and mitigate 
overseas threats, they are major recipients of OCO funding, 
both in this budget and in the last--over the last few years.
    As you know, the 2015 bipartisan budget agreement yielded a 
significant increase for OCO resources for the Department and 
USAID for Fiscal Year 2016 and 2017. Since 2012, OCO has been 
instrumental to achieving many of our national security 
objectives, especially on the diplomatic engagement side for 
managing the transitions to a largely civilian presence in Iraq 
and Afghanistan, which previously had been funded by periodic 
and sometimes unpredictable supplementals.
    For Iraq, the diplomatic engagement request includes $1.3 
billion for our embassy and consulate operations as well as 
diplomatic security funding for guard facilities in Embassy 
Baghdad, increased contract costs and security equipment. In 
collaboration with the Department of Defense, the U.S. embassy 
in Iraq continues to support the diplomatic engagement critical 
to strengthening the Iraqi government and supporting Operation 
Inherent Resolve's counter-ISIL's efforts.
    In Afghanistan, our mission focuses on our engagement and 
outreach and part of the military transition, and our total 
request for Afghanistan is $1.2 billion, which also includes 
significant increases for the Bureau of Diplomatic Security. We 
are also leveraging OCO to expand the Global Engagement Center, 
which is a high priority for the Department and another example 
of our close collaboration with the Department of Defense. The 
Global Engagement Center will continue countering violent 
extremist messaging and communications by empowering our 
partners' efforts to undermine disinformation espoused by 
extremists and terrorist groups, including ISIL and al Qaeda.
    The Department has brought in a senior counterterrorism 
leader, Michael Lumpkin, over from DOD to synchronize efforts 
across the national security spectrum and with our 
international partners in both the governmental and non-
governmental community. To sustain these efforts over the long 
term, the 2017 President's budget once again proposes to end 
sequestration for Function 150 and other discretionary spending 
for Fiscal Year 2018. We anticipate that the future of OCO will 
play heavily into that for Fiscal Year 2018 as well.
    Other priorities in our budget continue to strengthen 
United States' relations with the international community. We 
have $1.2 billion for our public diplomacy and global 
engagement goals, to expand our outreach and engagement 
programs. We also have requested funding to support our 
contributions to international organizations, $1.4 billion for 
the U.N. and other international bodies, $2.4 billion for U.N. 
peacekeeping to address conflict-related crises.
    In addition to our appropriated funding, we do retain 
significant fee revenues for our consular and border security 
programs. That portion of our budget provides services to 
Americans who travel as well as foreign visitors. These 
programs facilitate legitimate travel which is vital to our 
economy, while denying entry to individuals who threaten our 
Nation's people.
    Last summer, the QDDR office came out with the Department's 
second Quadrennial Diplomacy and Development Review. While not 
specifically a budget document, the QDDR does guide our 
management efforts, and our request does include funds, 
particularly for our Bureau of Human Resources, to increase our 
workforce diversity with almost a two-thirds increase over 
prior funding for outreach to new Foreign Service leaders.
    This is just a brief summary of our request. I want to 
assure you that we are committed to being good stewards of 
taxpayer dollars. With continued congressional support, I am 
sure we can have a positive impact in promoting our foreign 
policy priorities at home and abroad. And I look forward to 
answering your questions.
    [Mr. Pitkin's prepared statement follows:]


                  Prepared Statement of Douglas Pitkin

    Thank you Mr. Chairman, Ranking Member Kaine, and distinguished 
members of the subcommittee for inviting me to discuss the FY 2017 
State Department Diplomatic Engagement budget request. At a time when 
the demand for U.S. leadership and engagement has never been greater, 
the FY 2017 request provides America's diplomats and development 
professionals with the tools they need to advance the Nation's 
interests and build a safer and more prosperous world. As a component 
of the National Security budget, we take our national security role 
seriously. The FY 2017 budget request for the State Department and 
USAID together is $50.1 billion, $35.2 billion of which is Enduring, 
and $14.9 billion of which is Overseas Contingency Operations (OCO) 
funding. This funding constitutes just one percent of total federal 
spending
    As the Director of the State Department Bureau for Budget and 
Planning, I am here today to discuss our request for our people; 
diplomatic and embassy security programs; public diplomacy efforts; 
treaty based contributions to United Nations peacekeeping efforts and 
international organizations, and our global management platform, 
otherwise known as the Diplomatic Engagement portion of the 
Department's budget. The Diplomatic Engagement budget is about 32 
percent of the total State/USAID request, with foreign assistance 
rounding out the remaining 68 percent. The FY 2017 request for this 
portion of the budget totals $16.1 billion, an increase of $560 million 
over the FY 2016 level.
    We are submitting the Department of State and USAID Fiscal Year 
2017 Fact Sheet for the record, so many of the specific numbers related 
to our request are included in the attached document, and I will speak 
to a few major priorities here. A large portion of the Department's 
operating platform consists of security programs and overseas 
facilities, for which we are requesting $6.1 billion. This includes 
$3.7 billion for Diplomatic Security (DS) operations and other 
Worldwide Security Protection programs. The request for diplomatic 
facility construction and maintenance sustains the Department's 
commitment to implementing the security recommendations of the Benghazi 
Accountability Review Board. This also includes Department's share of 
the Capital Security Cost Sharing Program, which constructs secure, 
safe, and functional diplomatic facilities, as well as ongoing lease, 
repair and maintenance for our overseas real property assets.
    The 2015 Bipartisan Budget Act (BBA) provided a significant OCO 
increase for the Department for FY 2016 and FY 2017 relative to FY 
2015. We have been able to achieve many of our national security 
objectives using OCO. OCO has been instrumental for the transitions to 
largely civilian presence in Iraq and Afghanistan.
    The Diplomatic Engagement request includes $1.26billion for Iraq, 
which includes embassy and consulate operations, as well as Diplomatic 
Security funding for Embassy Baghdad's guard camp, contract costs and 
equipment. In collaboration with DOD, the U.S. Embassy in Iraq 
continues to support diplomatic engagement critical to Operation 
Inherent Resolve.
    In Afghanistan, our mission continues to focus on engagement and 
public outreach as the military transitions. The total request for 
Afghanistan is $1.2 billion, which includes an increase for Diplomatic 
Security aviation, contracts & equipment and to complete security 
upgrades to our facilities in Kabul.
    The request includes $21.5 million for the Global Engagement Center 
(GEC), which is a high priority for the Department and another example 
of our strong collaboration with DOD. The Center will continue 
countering violent extremist communication by more effectively 
synchronizing messaging to foreign audiences through empowering 
governmental and nongovernmental partners in their efforts to undermine 
disinformation espoused by extremist and terrorist groups, including 
ISIL and al-Qaeda. We brought Michael Lumpkin over from DOD to fully 
synchronize all of our efforts across the national security spectrum 
and with our international partners.
    To sustain these efforts over the long term, the FY 2017 
President's Budget once again proposes to end sequestration for 
function 150 and other discretionary spending in FY 2018.
    Other priorities in our budget serve to strengthen U.S. relations 
with the international community. Our request includes $1.2 billion to 
support our global engagement goals by building up our public diplomacy 
and exchange programs. The request also includes funding to meet our 
commitments for international organizations and peacekeeping, including 
$1.4 billion for our annual assessments for the U.N. and other bodies 
and $2.4 billion to address conflict-related crisis through our 
assessed share of United Nations peacekeeping operations.
    In addition to our request for direct appropriations, this budget 
expands consular services to Americans, while providing immigrant and 
non-immigrant visa services to prospective foreign visitors. The 
Department's proposed Consular and Border Security Programs account 
will enable transparency in our efforts to provide protection to U.S. 
citizens overseas and contributes to national security and economic 
growth. It is a core element of national security to assist and 
facilitate the entry of legitimate travelers and promote tourism while 
denying entry to individuals who threaten the safety and security of 
our nation and its people.
    While not a specific budget tool, we use the QDDR to guide a modern 
State Department and USAID and empower our professionals to get the job 
done. This includes targeted efforts to increase the diversity of our 
workforce by expanding recruitment and fellowship opportunities for 
America's future foreign policy experts; this is a two thirds increase 
over existing funding resources.
    This is just a brief summary of our overall request. I want to 
assure you that we are committed to being good stewards of taxpayer 
dollars. With continued Congressional support, we can have a positive 
impact in promoting our foreign policy priorities at home and abroad. I 
look forward to answering your questions.


    Senator Perdue. Thank you, Mr. Pitkin.
    We now turn to Mr. Hari Sastry, the director of U.S. 
Foreign Assistance Resources. Mr. Sastry is a career member of 
the Senior Executive Service, and in his current role manages 
the Department of State and USAID foreign assistance budget. He 
has previously served in the Department of Commerce as well as 
the White House Office of Management and Budget.
    Mr. Sastry.

  STATEMENT OF HARI SASTRY, DIRECTOR, OFFICE OF U.S. FOREIGN 
  ASSISTANCE RESOURCES, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                              D.C.

    Mr. Sastry. Thank you, Mr. Chairman, Ranking Member Kaine, 
and distinguished members of the subcommittee. Thank you for 
inviting us to speak with you today about the Fiscal Year State 
Department and USAID foreign assistance budget request.
    As Secretary Kerry noted and as you noted in a recent 
hearing before the committee, while the foreign affairs request 
makes up just one percent of the total Federal budget, it may 
very well impact much of history that will be written about 
this era. I am here to discuss our Fiscal Year 2017 foreign 
assistance priorities, out-year challenges, and long-term 
spending trends, our efforts to enhance foreign assistance 
management, and aid transparency and interagency coordination.
    The Fiscal Year 2017 State Department and USAID request of 
$50.1 billion includes $34 billion for foreign assistance 
programs and activities. The budget request directly supports 
our national security strategy and our foreign policy 
priorities. Our foreign assistance continues to provide strong, 
sustainable leadership in the face of unprecedented challenges.
    The Secretary spoke to the committee at length about the 
Department's Fiscal Year 2017 request and our priorities, and I 
am not going to go through all of them today. Some of the 
critical priorities that he highlighted include our efforts to 
counter violence extremism, Daesh, and Russian aggression, to 
support climate change, democracy in governance, and global 
health programs, and to address other critical regional 
challenges and opportunities. We have provided a fact sheet 
summarizing the main points of our request for the record.
    A core component of the Fiscal Year 2017 foreign assistance 
request includes $9.6 billion in overseas contingency 
operations funding, a level which is aligned with the cap set 
in the 2015 bipartisan Budget Act and equal to the amount 
provided to us by Congress in Fiscal Year 2016. The OCO request 
will enable us to prevent, address, and help countries to 
recover from human-caused crises and natural disasters.
    While the bipartisan Budget Act effectively increased the 
amount of OCO appropriated for foreign assistance by 59 percent 
above the Fiscal Year 2015 level, our Fiscal Year 2016 base 
appropriation was reduced by eight percent below the Fiscal 
Year 2015 level. The future of base versus OCO is not clearly 
defined, and as we look toward planning our 2018 budget, we 
look forward to working with you to effectively tackle this 
issue.
    In addition to the OCO base issue, the broader out-year 
challenge for foreign assistance is that we recognize that the 
various crises around the world are producing more refugees and 
more disasters, and we are asked to take the lead in responding 
to more global health pandemics. We are constantly asked to 
address new challenges that land on the front pages of the 
Washington Post today while simultaneously providing continued 
support to countries that focus on longer term needs as we aim 
to ensure those countries do not end up on the front page 
tomorrow.
    The demands on our limited foreign assistance resources 
show no signs of abating, so we ask ourselves how do we do more 
with less. First, we look to strengthening our internal systems 
and processes. Informed data driven decisions drive our 
strategy to address these increasing global challenges, and are 
a critical component of the Department's commitment to 
achieving the most effective U.S. foreign policy outcomes and 
greater accountability.
    Last year, the Department updated and expanded its 
evaluation policy. We have also expanded the quantity and 
quality of data available on foreignassistance.gov, a web site 
we manage on behalf of the U.S. government, to publish the aid 
data of the 22 agencies that implement foreign assistance 
activities for the American public. These critical monitoring 
evaluation and transparency efforts make us a government better 
able to serve the American people and more effective in our use 
of U.S. dollars abroad.
    Second, we look at how we can best leverage these 
resources. We are able to tackle many global issues through 
close coordination with our Agency partners. We work directly 
with the Departments of Defense, Treasury, Agriculture, 
Homeland Security, the Centers for Disease Control, and many 
others to address these complex challenges. We are doing 
everything we can to ensure U.S. taxpayer dollars are used as 
efficiently and effectively as possible within the top line 
provided by Congress.
    Today's global challenges make clear that what may appear 
to be a distant concern has the power to impact Americans right 
here on our home soil. Our leadership role in addressing these 
issues is important now more than ever. It is essential to 
promoting our goals and objectives abroad, stimulating the 
economy, and creating jobs, and protecting the American people 
and our values here at home.
    To adapt to this ever-evolving global landscape, foreign 
assistance must be, as the President said in his recent State 
of the Union address, a part of our national security, not 
something separate, not charity. Foreign assistance is and must 
be seen as a powerful tool that enables our Nation to continue 
to lead the world in effective solutions to global challenges.
    Thank you for your continued support, and I look forward to 
answering any questions you might have.
    [Mr. Sastry's prepared statement follows:]


                   Prepared Statement of Hari Sastry

    Chairman Perdue, Ranking Member Kaine, and distinguished members of 
the subcommittee, good afternoon. Thank you for inviting me to speak 
with you today about the Fiscal Year (FY) 2017 State Department and 
United States Agency for International Development (USAID) foreign 
assistance budget request.
    As Secretary Kerry noted in his recent hearing before the 
committee, while the foreign affairs request makes up just one percent 
of the total federal budget, it may very well impact much of the 
history that will be written about this era. I am here today to discuss 
our FY 2017 foreign assistance priorities, out-year challenges and 
long-term spending trends, our efforts to enhance foreign assistance 
management and aid transparency, and interagency coordination.
    The FY 2017 State Department and USAID Request of $50.1 billion 
includes $34.0 billion for foreign assistance programs and activities. 
The budget request directly supports our national security strategy and 
foreign policy priorities. Our foreign assistance continues to provide 
strong and sustainable leadership in the face of unprecedented 
challenges.
    Secretary Kerry spoke to the committee at length about the 
Department's FY 2017 request and our priorities. I am not going to go 
through them all again today--instead, we have provided a Fact Sheet 
summarizing the main points of our request for the record. He spoke of 
our efforts to counter violent extremism, to counter Daesh and Russian 
aggression; to support climate change, democracy and governance, and 
global health programs; and to address other critical regional 
challenges and opportunities, such as the conflict in Syria, the 
migrant crisis in Central America, a potential peace plan in Colombia, 
our continued efforts to advance our rebalance in the Asia-Pacific 
region, and of course the many programs we have in Africa. I look 
forward to answering any questions you have on these topics.
    The Department and USAID undertake a rigorous strategic planning 
and budget formulation process prior to sending up our budget requests 
each February. During the FY 2017 formulation process, we had the 
benefit of rolling in our 2015 Quadrennial Diplomacy and Development 
Review (QDDR). The QDDR outlines four of our major priorities--
countering violent extremism, open democratic societies, inclusive 
economic growth, and climate change.
    A core component of the FY 2017 foreign assistance request includes 
$9.6 billion in Overseas Contingency Operations (OCO) funding, a level 
which is aligned with the caps set in the 2015 Bipartisan Budget Act 
and equal to the amount provided to us by Congress in FY 2016. The OCO 
request will enable us to prevent, address, and help countries to 
recover from human-caused crises and natural disasters.
    While the Bipartisan Budget Act effectively increased the amount of 
OCO appropriated for foreign assistance by 59 percent above the FY 2015 
level, our FY 2016 base appropriations were reduced by 8 percent below 
FY 2015. The future of base versus OCO funding is not clearly defined, 
and as we look toward planning the FY 2018 budget, we look forward to 
working with you to effectively tackle this issue.
    There are, of course, many foreign assistance funding trends that 
we used to help guide us in our budget formulation process. Since 2001, 
foreign assistance funding has nearly tripled, correlating to the 
increase of complex global challenges. Over the past several years, 
foreign assistance funding has remained relatively stable, ranging 
between $32 billion and $35 billion, including all sources of funding 
(base, OCO and supplemental). This is obviously not an insignificant 
amount of money. When we talk about out-year trends though, we 
recognize that we are increasingly asked to provide assistance in 
insecure areas--including in Afghanistan, Central African Republic, and 
Iraq. The various crises around the world are producing more refugees, 
and more disasters, and we are asked to take the lead in responding to 
more global health pandemics. We are constantly asked to address new 
challenges that land on the front page of the Washington Post today, 
while simultaneously providing continued support to countries with 
programs that focus on longer-term needs, as we aim to ensure those 
countries do not end up on the front page tomorrow. We must be able to 
address immediate challenges without losing sight of the vital, ongoing 
support for core development and democracy programs--the foundation of 
Department of State and USAID efforts worldwide. The demands on our 
limited foreign assistance resources show no signs of abating.
    So we ask ourselves: how do we do more with less? First, we look to 
strengthening our internal systems and processes. Informed, data-driven 
decisions drive our strategy to address these increasing global 
challenges, and are a critical component of the Department's commitment 
to achieving the most effective U.S. foreign policy outcomes and 
greater accountability. Last year, the Department updated and expanded 
its evaluation policy, requiring each bureau to conduct evaluations 
every year and for foreign assistance programs, publicly post 
evaluations within 90 days of completion. We have also expanded the 
quantity and quality of data available on ForeignAssistance.gov, a 
website we manage on behalf of the U.S. government, to publish the aid 
data of the 22 agencies that implement foreign assistance activities 
for the American public. These critical monitoring, evaluation, and 
transparency efforts make us a government better able to serve the 
American people, and more effective in our use of U.S. dollars abroad.
    Second, we look at how we can best leverage the resources. We are 
able to tackle many global issues through close coordination with our 
agency partners. We work directly with the Departments of Defense, 
Treasury, Agriculture, Homeland Security, the Centers for Disease 
Control, and many others to address complex challenges. Over the past 
few years we have worked hand-in-hand with our U.S. government partners 
on many issues, whether countering Daesh, addressing the underlying 
factors of migration in Central America, or combatting global health 
crises such as Zika and Ebola. We also leverage our resources by 
teaming up with the private sector and other bilateral and multilateral 
partners, which I know Roman will address shortly in more detail. The 
bottom line is this: we are doing everything we can to ensure U.S. 
taxpayer dollars are used as efficiently and effectively as possible 
within the topline we are provided by Congress.
    In closing, I would like to reiterate something you have all 
already heard from Secretary Kerry and many others from the Department 
and USAID: this request makes up just one percent of the total federal 
budget. Just one percent: that is the levy of our leadership role in 
global affairs, and it provides a tremendous return on investment. This 
return on investment is palpable. The advancements the Department and 
USAID have been able to achieve would not have been possible without 
the support of the American people, so I thank you for your continued 
support.
    Today's global challenges make clear that what may appear to be a 
distant concern has the power to impact Americans right here on our 
home soil. Our leadership role in addressing these issues is important 
now more than ever--it is essential to promoting our goals and 
objectives abroad, to stimulating the economy and creating jobs, and 
protecting the American people and our values here at home. To adapt to 
this ever-evolving global landscape, foreign assistance must be, as the 
President said in his recent State of the Union address, ``a part of 
our national security, not something separate, not charity.'' Foreign 
assistance is and must be seen as a powerful tool that enables our 
nation to continue to lead the world in effective solutions to global 
challenges.
    Thank you for your continued support. I look forward to answering 
any questions you might have.


    Senator Perdue. Thank you.
    Finally, we will hear from Mr. Roman Napoli, the acting 
director of the Office of Budget and Resource Management at 
USAID. In this role, he provides advice to Agency leadership on 
a range of budget issues, including performance, management, 
budget planning, and financial management.
    He has previously served as the head of the Budget 
Formulation and Execution for USAID's program budget, as well 
as the head of the Strategic Planning and Resources for the 
Middle East Partnership Initiative.
    Mr. Napoli.

 STATEMENT OF ROMAN NAPOLI, ACTING DIRECTOR, OFFICE OF BUDGET 
    AND RESOURCE MANAGEMENT, U.S. AGENCY FOR INTERNATIONAL 
                 DEVELOPMENT, WASHINGTON, D.C.

    Mr. Napoli. Thank you, Chairman Perdue, Ranking Member 
Kaine, and members of the subcommittee. I am very pleased to 
join you to discuss the U.S. Agency for International 
Development's Fiscal Year 2017 budget request.
    Our request totals $22.7 billion and reflects the critical 
role that development plays in advancing U.S. interests and 
values abroad. As the lead on development in the U.S. 
government, USAID is now better positioned and more capable of 
making a sizable impact around the world, leading not just with 
our dollars, but with leadership that the international 
community and the American people expect.
    We do this in four ways. First, this request helps USAID 
foster and sustain development progress all over the world. 
USAID will institutionalize proven investments by fostering 
inclusive economic growth and strengthening democratic 
governance through tested and proven interventions. This work 
is lifting millions out of extreme poverty, and helping 
countries become open, peaceful, and flourishing partners for 
the United States.
    The request will enable USAID to double down on efforts 
that are delivering results, and continue to build the 
conditions that make progress possible. With this budget, we 
will continue to save lives and improve health worldwide by 
contributing to global efforts to end preventable child and 
maternal death, creating an AIDS-free generation, and 
protecting communities from infectious diseases. PEPFAR is well 
on track to reach bold HIV and AIDS prevention and treatment 
targets, and we see the same opportunity with malaria. Ninety 
percent of all malaria deaths occur in Sub-Saharan Africa, most 
of which are among children under five. But we have already 
seen significant declines in child mortality due to our work 
with reductions up to 55 percent. This budget includes a total 
increase of $200 million to expand and broaden our malaria 
work.
    Second, the request enables USAID to prevent, mitigate, and 
respond to manmade and natural humanitarian crises that are 
occurring at unprecedented scale and frequency. USAID's 
response to crises around the globe is intricately linked to 
our development mission. This request will enable USAID to 
provide lifesaving responses to areas with the most vulnerable 
populations. We will provide emergency food supplies, address 
the underlying causes of food security, and assist victims of 
conflict and natural disaster.
    Third, this budget supports our critical work to confront 
threats to national security and global stability. USAID is 
providing critical support to Central America where we are 
building on our current investments by providing expertise to 
host governments as they make necessary reforms, scaling up 
proven community-based interventions, and training youth for a 
21st century workforce, while helping businesses have the 
financial and market access to invest and generate jobs.
    Finally, this budget will position USAID to continue to 
lead and meet the needs of a changing world by investing in 
approaches that work. We will emphasize knowledge and evidence-
based learning, and we will support the men and women of USAID 
as they proudly serve the American people in increasingly 
challenging environments.
    With this request we will enhance science, evaluation, and 
learning with $196 million in funding for the Global 
Development Lab and the Policy, Planning, and Learning Bureau. 
Investments in the Lab will enable USAID to develop and scale 
breakthrough solutions, leverage more out of our funding, and 
improve the sustainability of our development investments by 
attracting private sector resources. The request also includes 
necessary support for USAID's staff capacity with a requested 
$1.7 billion across USAID administrative expense accounts to 
sustain ongoing operations and build on the institutional 
reforms we have undertaken with USAID Forward.
    While there is tremendous ambition in this request, we 
acknowledge that the expectations for USAID are as diverse and 
as multifaceted as the problems we address. While these issues 
are complex, USAID is evolving and fundamentally changing the 
way we do business, integrating innovation into all our work, 
leveraging our resources for greater impact, and focusing like 
never before on measuring and delivering results.
    We envision a world where the most vulnerable are emerging 
from extreme poverty and contributing to stable democratic 
societies, building a safer world that promotes the dignity and 
freedom of people everywhere, and advances our security and 
prosperity.
    And with that, we look forward to your questions.
    [Mr. Napoli's prepared statement follows:]


                   Prepared Statement of Roman Napoli

    Thank you, Chairman Perdue, Ranking Member Kaine, and members of 
the subcommittee. I am very pleased to join you to discuss President 
Obama's Fiscal Year 2017 budget request for the United States Agency 
for International Development (USAID).
    As the committee is well aware, the world around us is increasingly 
complex, challenging and dangerous. It is also ripe with opportunities 
for development progress. Thanks to bipartisan support from Congress, 
including members of this committee, and consistent with the 2015 
Quadrennial Diplomacy and Development Review (QDDR) and the 
Presidential Policy Directive on Global Development, USAID is now 
better positioned and more capable of fulfilling our mandate of 
partnering to end extreme poverty and promote resilient, democratic 
societies while advancing our nation's security and prosperity.
    As a core pillar of American leadership and power, global 
development works together with defense and diplomacy to advance our 
interests and values abroad, and to protect the American people at 
home. With less than one percent of the federal budget, USAID supports 
critical development activities and the courageous development 
professionals who carry them out in challenging, often dangerous, 
conditions every day.
    In total, the President's funding request for accounts from which 
USAID administers assistance is $22.7 billion. $11.0 billion of this 
total is in core USAID-managed accounts: 1) Development Assistance; 2) 
Global Health Programs-USAID; 3) International Disaster Assistance; 4) 
Food for Peace Title II; 5) Transition Initiatives; 6) Complex Crises 
Fund and 7) USAID Administrative Expense accounts.
    The President's budget request reinforces and expands U.S. global 
development leadership in several distinct, but interrelated ways. 
First, the budget request will help USAID foster and sustain 
development progress all over the world. Second, the request enables 
USAID to prevent, mitigate and respond to the man-made and natural 
humanitarian crises that are occurring at unprecedented scale and 
frequency. Third, the request supports our critical work to confront 
threats to national security and global stability, from countering 
Russian aggression to strengthening reforms in Afghanistan and 
addressing the underlying conditions driving migration from Central 
America. And, finally, this request represents an investment in the 
development professionals, technical expertise, institutional 
infrastructure, and monitoring and evaluation needed to position USAID 
to continue to lead as the world's premiere global development agency, 
making us more transparent, accountable and agile.
Foster and sustain development progress
    All over the world, USAID advances broad-scale human progress by 
fostering sustained and inclusive economic growth and strengthening 
democratic governance. This work is lifting millions out of extreme 
poverty and helping countries become open, peaceful and flourishing 
partners for the United States, and its success burnishes the image of 
our country globally.
    The President's budget request will enable USAID to expand 
successful programs and continue to build the conditions that make 
progress possible.
    With this budget request, we will continue to save lives and 
improve health worldwide. The request includes $8.6 billion for life-
saving global health programs--including $2.9 billion requested for 
USAID specifically--which will contribute to global efforts to support 
three critical goals: 1) ending preventable child and maternal deaths; 
2) creating an AIDS-free generation; and 3) protecting communities from 
infectious diseases.
    USAID child survival and maternal health programs have already 
helped save the lives of 2.4 million children and almost 200,000 
mothers, and forged partnerships with the twenty-four priority 
countries for Ending Preventable Child and Maternal Deaths. This budget 
includes robust support for these efforts, including $275 million for 
Gavi, the Vaccine Alliance, which is a $40 million increase over the FY 
2016 enacted level, as part of the four-year, $1 billion pledge 
announced last year to immunize 300 million additional children and 
save at least five million lives by 2020.
    Additionally, PEPFAR is well on track to reach the bold HIV 
prevention and treatment targets set by President Obama last September. 
As the President stated in this year's State of the Union Address, 
additional opportunities exist with malaria. Ninety percent of all 
malaria deaths occur in sub-Saharan Africa, most of which are among 
children under five. In 17 of the 19 President's Malaria Initiative 
(PMI) countries, significant declines in mortality rates among children 
under five have been observed--ranging from 18 percent (in both Liberia 
and Nigeria) to 55 percent (in Zambia). The budget includes a total 
increase of $200 million (30 percent) for PMI above the FY 2016 enacted 
level, of which $71 million is requested as additional resources and 
$129 million is requested to be made available from remaining Ebola 
emergency funds.
    This budget request also continues our important work to foster 
sustainable development that reflects the realities of a changing 
climate. By furthering our work overseas to promote low-emissions 
development, we're helping our partner nations to lighten their carbon 
footprint, adapt to climate-driven risks, and promote public health. It 
also means doing the footwork to make sure that all USAID partnerships 
recognize the challenges posed by climate change. Ensuring that our 
investments account for the risks posed by climate change is not only 
good policy, its prudent policy as well. Failing to account for growing 
storm surges, or shifting precipitation patterns, can mean that years 
of work on an USAID project can be wiped away in a matter of hours.
    Our work is also ensuring food security and progress toward ending 
hunger, with $978 million requested for USAID for the Feed the Future 
(FtF) initiative. Feed the Future is a whole-of-U.S. government 
initiative that focuses on increasing food security and economic 
growth--with an emphasis on empowering women--by promoting growth in 
the agriculture sector and reducing hunger, poverty and malnutrition. 
The request will also help vulnerable populations become more resilient 
to shocks that can limit access to food.
    FtF is working. FtF has helped reduce stunting by 14.4 percent in 
areas of Bangladesh from 2011-2014; by 21 percent in areas of Cambodia 
from 2010-2014; by 25 percent in areas of Kenya from 2008-2014; and by 
33 percent in Ghana from 2008-2014. In Honduras, average incomes of FtF 
beneficiaries increased 55 percent between 2012 and 2014, helping 
nearly 36,450 beneficiaries rise out of extreme poverty and reducing 
one of the underlying factors of outbound migration. United States 
support for FtF has helped leverage an additional $18.5 billion in 
support from G-8 members and other donors. We are pleased that Members 
of this committee, including Senator Isakson, are sponsoring 
legislation to institutionalize this innovative, effective approach to 
reducing hunger, childhood malnutrition, and poverty.
    Through Power Africa, a whole-of-government initiative, the U.S. is 
increasing access to reliable, cleaner power to drive economic growth 
across the continent. Power Africa's recently released Roadmap outlines 
a concrete plan to achieve the ambitious goal of adding 30,000 
megawatts (MW) of electricity generation and 60 million connections by 
2030, thereby doubling access to electricity across the continent. 
Power Africa has already helped transactions expected to generate 4,300 
MWs reach financial close. The FY 2017 USAID request for $291.3 million 
for Power Africa is part of President Obama's $300 million annual 
commitment. Power Africa will continue to build on our ongoing work to 
strengthen the investment climate across sub-Saharan Africa and to 
increase the capacity of African governments and utilities to develop 
and manage their domestic energy sectors, and in doing so, help to 
catalyze private sector investment to sustain Africa's impressive 
economic growth rates where political will exists. Due to U.S. 
leadership to garner support for Power Africa goals, we now have over 
120 private and public sector partners that have committed over $43 
billion to date.
    The budget request also includes $75 million for Trade Investment 
Capacity Building, which will align, focus and expand current U.S. 
Government bilateral and regional trade programs in sub-Saharan Africa. 
An additional $10 million is requested for the Young African Leaders 
Initiative to support young African leaders returning to Africa 
following their fellowship training and professional development 
activities in the United States.
    The budget requests $2.3 billion to strengthen democracy and 
governance around the world. This support is essential at a time when 
we're seeing troubling trends like democratic backsliding and closing 
space for civil society, independent voices and aid workers alike. 
Particular focus regions include Africa, Asia, Eurasia, and Central 
America.
    This assistance will help USAID support and strengthen inclusive 
and accountable democracies to advance freedom, dignity and 
development. And, these advances will help ensure sustainable, 
transparent, and effective development investments in areas such as 
health, agriculture and power. Vibrant democracies foster stable 
societies, advancing the U.S. interest in a peaceful and democratic 
world.
    This budget request also continues support for the rebalance in the 
Asia-Pacific region, with a particular emphasis on development 
objectives. The $694.4 million requested will strengthen democratic 
governance and processes, foster engagement with civil society, and 
promote rule of law and respect for human rights in this region. Other 
activities will support economic growth by improving the conditions for 
competition in the private sector; improve health through an emphasis 
on preventing and containing pandemic threats; and enhance critical 
trade efforts through increased investment, economic inclusion and 
innovation, including activities related to the Trans-Pacific 
Partnership trade agreement.
Prevent, mitigate and respond to global and humanitarian crises
    USAID's response to crises around the globe is intrinsically linked 
to our development mission. This request will help the United States 
maintain the agility and flexibility that is so desperately needed in 
preventing, mitigating, and responding to global and humanitarian 
crises.
    All over the world, countries are dealing with crises that are more 
complex and lasting longer than ever before. And, as we have seen with 
Ebola, and now the Zika outbreak, new urgent challenges can emerge at 
any time. This budget enables USAID to assist the people facing these 
challenges while helping countries prepare for and withstand future 
disasters.
    On Zika, last week the President asked Congress for approximately 
$1.9 billion in FY 2016 emergency supplemental funding to enhance our 
ongoing efforts to prepare for and respond to the Zika virus. The 
supplemental request includes $335 million for USAID, which will be 
used to help affected countries through health programming, public 
education, and efforts to control mosquitoes and combat transmission of 
the virus. We will also work with our partners at the Centers for 
Disease Control and Prevention (CDC) and National Institutes of Health 
(NIH) to accelerate vaccine research and diagnostic development.
    We are also showing humanitarian leadership in response to the 
crisis in Syria. The United States is the single largest donor of 
humanitarian aid to the Syrian people, having contributed more than 
$5.1 billion since the crisis began. USAID is providing emergency 
assistance to 5 million Syrians every month, including 4 million people 
inside Syria and Syrian refugees in neighboring countries.
    Although the United States leads the world in international 
disaster assistance, responding to crises after the fact is not enough, 
and taxes U.S. resources. USAID also works to build the capacity of 
countries to withstand future crises and meet humanitarian needs on 
their own through enhanced service delivery, public administration, and 
governance.
    This budget will enable USAID to provide life-saving responses to 
areas with the most vulnerable populations, with $3.3 billion in USAID-
managed humanitarian assistance to provide emergency food supplies and 
address the underlying causes of food insecurity, and to assist 
internally displaced persons and the victims of conflict and natural 
disasters.
    An additional $107.6 million is requested to prevent conflict and 
stabilize emerging democratic processes in critical transition 
environments, and for quick response to urgent, unanticipated civilian 
contingencies.
    Through the Global Climate Change Initiative, USAID will invest 
$352.2 million to work with countries that are particularly well-suited 
to transition to climate-resilient, low-emission economic growth, 
including the development and implementation of 25 countries' low-
emissions development strategies.
    In 2015, partner countries achieved 30 major milestones as a result 
of U.S. assistance, each reflecting measurable improvement in national 
frameworks for low emission development. Climate adaptation programs--
for which the United States broadly pledged to double grant-based 
public financing by 2020--help countries become more resilient and 
contribute to stability and economic growth. Through these types of 
initiatives, we also help build our partner countries' resilience to 
recurrent crises related to climate change.
Confront threats to national security and global stability
    Complementary to the development and humanitarian missions, USAID 
plays a key role in addressing threats to our nation's security.
    In regions of strategic national security importance, USAID works 
side-by-side with our counterparts in the U.S. Military and Department 
of State to confront emerging threats and other global security 
challenges. On the ground in strategic countries, here in Washington, 
and in key commands, USAID leaders engage side-by-side with our 
colleagues in the military to ensure the proper balance between 
military and civilian efforts.
    Our efforts to achieve development progress in countries facing 
conflict and crisis helps enhance global stability and fosters good 
will toward the United States.
    One example of our close, collaborative work with the Department of 
Defense and other U.S. Government Agencies is the Sahel Development 
Initiative. The initiative addresses new challenges presented by 
extremists and was developed as part of a joint interagency planning 
effort. USAID's unique expertise in addressing governance challenges, 
corruption, and impediments to economic growth are being leveraged to 
limit the space for extremists whose use of violence impede and set 
back development gains.
    In Europe, Eurasia, and Central Asia, as part of the broader effort 
to counter Russian aggression, we are requesting $698.1 million through 
the Economic Support Fund (ESF) and Global Health Programs (GHP) 
accounts to strengthen market economies and trade opportunities; 
bolster independent media and democratic institutions; empower anti-
corruption efforts; increase energy independence in Eastern Europe and 
Central Asia, and sustain enduring commitments including in core 
development sectors such as health. These efforts, complemented by 
robust funding requested by the State Department under the security and 
law enforcement accounts, will help Ukraine, Georgia, Moldova and their 
neighbors stand strong against debilitating Russian pressure.
    We are requesting $77.6 million to seize emerging opportunities to 
promote lasting stability, peace and democracy through Transition 
Initiatives in countries plagued by conflict and crisis. The budget 
will provide flexible funding to catalyze positive change in countries 
all over the world, from Nigeria to Syria to Colombia.
    Finally, closer to home, the request will continue to address the 
underlying conditions driving migration from Central America, with 
$470.3 million to improve prosperity, governance, and economic growth, 
and regional economic integration. This bilateral and regional 
assistance for Central America is part of the Administration's $1 
billion whole-of-government request for appropriations and financing 
assistance to support the U.S. Strategy for Engagement in Central 
America. Building upon prior appropriations, funding will provide 
expertise to host governments as they make necessary reforms, scale up 
proven community-based interventions, and train youth for a 21st 
century workforce while helping businesses gain the financial and 
market access to invest and generate economic growth and jobs.
Position USAID as a leader in development
    USAID is modernizing development and driving smart policy 
approaches by promoting new partnerships; science, technology and 
innovation; evidence-based decision making and host country ownership 
with a relentless focus on measuring and delivering results. As a 
global leader in development, USAID is mobilizing the rest of the world 
around shared challenges, and leveraging investments through 
partnerships with other donors, country governments, the private sector 
and local organizations. USAID's successes are U.S. successes, and show 
the world the United States' continuing commitment to a more peaceful, 
prosperous future.
    USAID leverages other resources to use development assistance more 
efficiently. Since FY 2010, the global average of Mission funds 
programmed through local systems increased from 9.6 percent to 16.9 
percent in FY 2014. In addition to the billions of dollars we are 
leveraging on specific efforts to galvanize the world on energy, food 
security, global health and humanitarian emergencies, we work to 
leverage the private sector across all of our work. USAID has also 
shifted towards a broader range of private sector engagement approaches 
including large multi-stakeholder alliances such as Power Africa and 
the New Alliance for Food Security and Nutrition, for which USAID 
serves as a catalyst and convener for private sector investment.
    This budget request will position USAID to continue to lead and 
meet the needs of a changing world by investing in approaches that 
work, emphasizing knowledge and evidence-based learning, supporting the 
men and women of USAID as they bravely serve the American people in 
increasingly challenging environments, and strengthening USAID as an 
institution.
    The President's budget will enhance science, technology, 
innovation, evaluation and learning, and partnerships with $195.5 
million in funding for the Global Development Lab and the Policy, 
Planning, and Learning (PPL) Bureau. Funding for PPL will enhance 
USAID's evaluation programs and policy development. Lab resources will 
also enable USAID to source, develop, and scale breakthrough solutions; 
accelerate the transformation of the U.S. development enterprise by 
leveraging additional outside funding; and improve the sustainability 
of development interventions by attracting private-sector, market-
driven resources.
    The request continues the required investment in USAID by seeking 
$1.7 billion across multiple USAID Administrative Expense accounts to 
sustain ongoing operations and build on recent reforms, including 
through continued improvements in procurement, local-capacity building, 
innovation, and accountability.
    This budget also reflects the most recent QDDR through this 
sustained investment in our workforce and building USAID as a dynamic 
organization. The budget also directly responds to the QDDR's strategic 
priorities, including preventing and combating violent extremism; 
promoting open and democratic societies through democracy, rights and 
governance programming; advancing economic growth through initiatives 
like Power Africa, Feed the Future, and others; and mitigating and 
adapting to climate change.
Conclusion
    USAID is fundamentally changing the way we do business: integrating 
innovation into all of our work; leveraging our resources for greater 
impact through partnership; and focusing like never before on measuring 
and delivering results. We envision a world where the most vulnerable 
are emerging from extreme poverty and contributing to stable, 
democratic societies. Building a better, safer world promotes the 
dignity and freedom of people everywhere and advances our security and 
prosperity.


    Senator Perdue. Well, thank you all. I look forward to your 
answers here. And, again, let me just for the record remind us 
all that we will have Deputy Secretary Higginbotham here next 
week to answer questions about the budget as well and other 
issues. So today we are going to--I am going to dial into some 
of these detailed questions that we hopefully will not get into 
next week.
    I want to put this in perspective, if I could. First of 
all, in the spirit of really nonpartisanship, which is what I 
think Senator Kaine and I on this subcommittee and then Senator 
Corker and Cardin have done in the full committee, is that this 
is one of those committees that really does have a record of 
bipartisanship, and really nonpartisanship. We look at State 
Department that way.
    Senator Kaine's comments are exactly correct. You know, as 
we pull out of these areas, we know the pressure is increasing 
on State. And honestly, I want to give some perspective to this 
with that comment in mind, and that is that, you know, if you 
look at since 2009, the costs in the State Department have been 
fairly flat. As a matter of fact, this is a budget request that 
actually is lower than last year's budget request, and I do not 
want to gloss over that. As a business guy, I appreciate that.
    So having said that, I want to talk to you a little bit 
about some history just so we have perspective when we talk 
about this particular budget. If we go back a few years--let us 
go back and look at it two different ways--the State Department 
was spending on average somewhere between $25 and $30 billion a 
year for quite a long period of time. Now, as a percentage of 
GDP, it actually--since 2009 it has actually declined from 
about .4 percent of GDP to about .3 percent of GDP. So let us 
put that in perspective. And I think you are to be 
congratulated on that from that perspective.
    I kind of look at it the other way in looking at hard 
dollars, though, and say, okay, here is the mission. I know it 
is changing this dynamic, and here is how we spend money 
against that. So the percentage of GDP is one benchmark that I 
think we use. It is not the end-all.
    Having said that, can you help me with the perspective of 
what we are doing in and say--I know we had the surge in Iraq 
and so forth. Mr. Pitkin, can you address that to start with, 
and anybody else that has a comment on that I appreciate it. 
But can you speak to sort of what we have seen, and is this a 
new norm, or is there some anticipation that somehow the world 
is going to get safer and we can go back to where it was maybe 
in 2001 or 2000 to 2008, for example.
    The question is, with all the dynamic threats around the 
world and the pressures--I am not trying to lead you into an 
answer, but I really am trying to figure out what that $20 
billion is going for in this new world.
    Mr. Pitkin. Thank you. Thank you, Mr. Chairman. Well, I 
certainly hope, of course, that the world does get safer and 
that our budget can help move us in that direction. But 
certainly as part of the Department's management team, I 
frequently hear the reports from our Assistant Secretary for 
Diplomatic Security, Greg Starr, who is very candid about the 
threats that we face overseas, and their evolving nature, that 
they are unpredictable, and that they can emerge even in 
countries like France, as we saw earlier or last year that are 
unexpected. And so, we have to be able to be mindful of those 
threats, not just in what we currently call the frontline 
states or the high-threat posts, but other posts where our 
adversaries have the capacity to strike unexpectedly.
    So, but going back to the original question, I have been 
with the Bureau of Budget and Planning since 2007, and 
certainly the main driver that I have seen for our operating 
costs has been our presence in Iraq and Afghanistan. And as you 
noted, I actually came from the Iraq office, have been working 
in the Embassy Baghdad primarily actually on the foreign 
assistance side.
    And one of the challenges that certainly the Department 
faced was as the military was drawing down, there was a 
transition plan of which the Department of State has or was and 
has taken over the lion's share of responsibility for the 
operating platform from DOD, and that comes with a cost. It 
comes with a cost for operating in an environment where we 
cannot rely on the local economy. We have to bring in employees 
from outside. We have very unique and challenging security 
conditions.
    And so, since that time and particularly since the creation 
of OCO, we have made significant investments, both one-time 
investments in facilities and recurring investments in people 
and programs to help protect our staff and our other 
interagency partners in Embassy Baghdad.
    The same trend we are seeing in Embassy Afghanistan. Now, 
in Afghanistan we have drawn down more. Now we just are focused 
on Embassy Kabul, but we are seeing the threat evolve, as the 
DOD forces and international partners draw down, more of that 
security platform falls upon the Department of State.
    And we take--we try to be appropriate and take appropriate 
measures. I think last year in the Fiscal Year 2016 omnibus and 
2016 budget, we tried to contain some of those costs. But now 
for 2017, just the way that the contract cycles move, we are 
seeing increasing costs that we are trying to address in this 
budget request.
    Senator Perdue. Is it safe to say that during--I hate to 
look at it this simplistically. I know it is not. But if you 
look at the war period, say between 2002 and 2009, while we 
have fighting forces in a country, the need for State expense 
is not as great as it is as we see after the departure of those 
defense forces. Is that--is that a correct, simplistic way to 
look at, because I am looking at is that part of the run-up in 
that $30 billion?
    It is a 76 percent increase. It is not on this watch, I 
understand that. But I am trying to look historically to say is 
this a new norm, or do we have potential to eventually bring 
that back down?
    Mr. Pitkin. I certainly hope we can bring it down over 
time, but that would definitely depend on security conditions 
on the ground. And we did make decisions several years ago 
under previous leadership to try to constrain some of our Iraq 
presence to just the two consulates and Embassy Baghdad, one 
partly for security reasons because the more sites, the more 
acreage we had to protect, the more movements we had, the more 
we exposed our people to risk. It also did have expensive 
costs, but primarily security, and getting the job done, and 
achieving our mission, and working with the Iraqi government 
was the key priority.
    It has declined somewhat, but actually we are getting a lot 
of support, and from DOD previously. DOD helped provide our 
security. It was not free, but as DOD has drawn down, that 
entire cost falls upon the Department of State. So I would say 
it is, one, a fairly stable presence, but as DOD withdraws its 
forces, we have to pick up the slack to help protect the 
personnel who remain.
    Senator Perdue. My time is going to run out. But, Mr. 
Napoli, I would like to address the follow-up. You mentioned in 
your testimony that one of the issues is trying to make sure 
that the money that is invested has a good result. And so, I 
would like to talk about Haiti for a minute.
    I was elected in November of 2014, and between then and the 
time I was sworn in as a private citizen, I went on a mission 
trip to Haiti to try to rebuild some housing and an orphanage 
for 275 kids down there. And it really touched us that in five 
years after the earthquake, not a lot had changed frankly. I 
understand that the Navy was down there early, USAID was there 
early, and we did a lot of good. However, I was really troubled 
by the state of the situation, particularly, if I am correct, 
that we have spent some $4 billion in Haiti.
    And I have a particular question, you know, as to the 
effectiveness of money spent there. We know that historically 
Haiti has always been the poorest country in the Western 
Hemisphere. We know there were allegations of corruption there 
for decades. None of this is new. But in February and March of 
2015, USAID itself suspended two contractors that had been 
working a flagship $30 million housing project--I think it was 
called Caracol-EKAM, if I am correct--due to faulty home 
construction, poor drainage, the list goes on.
    There was also a question about where it was put. There was 
a lot of housing that was built in and around Port-au-Prince 
that was not where the people were living. They were in other 
areas where they could clear ground, and so I am not sure how 
effective that was.
    Can you speak to the follow-up that USAID has in a country 
like Haiti to be sure that the money goes to the people that it 
needs to help, that we are not just using U.S. resources, that 
we are using local resources when we can, and that the results 
are, after a five-year period of time effectively what we 
wanted out of a $4 billion investment.
    Mr. Napoli. Senator, thank you for that and thank you for 
sharing your personal experience. As you know, Haiti is one of 
the poorest countries in our hemisphere, and so it has a 
particular amount of attention, especially after the earthquake 
there.
    I think when we talk about Haiti and how we follow up and 
how we make good, there are a number of things that we think 
about. But really it is our work in the political space, 
righting the governance of the country, helping them to govern 
themselves, put things in place that are going to lead that 
government down a road to full rehabilitation.
    But for USAID's investments there are a couple of things 
that I think we really want to talk about, bringing in capital 
and other things through our Development Credit Authority where 
we have the Haitian diaspora, and Haitian business leaders 
coming, finding ways to work with USAID, and leveraging that 
money in the country. That is the kinds of thing that I think 
really helps, one, lower the U.S. government's risk, but also 
allow us to do things that are sustainable and locally owned.
    So I think there are a lot of challenges in Haiti, and that 
is something we can talk more about following the hearing. But 
my perspective is we have done a lot. We have gotten 98-plus 
percent people out of temporary housing. There has been a lot 
of progress, but there are going to continue to be a lot of 
things we need to do in Haiti going forward, and this budget 
does include a healthy request for continuing some of that 
work.
    Senator Perdue. I am out of time. I will come back to one 
follow-up question on that in a minute. But for the sake of 
time, we will go to the ranking member. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, and I appreciate 
the testimony, and I will probably have multiple chunks of 
questions, too. But, Mr. Pitkin, I am going to start with you, 
just sort of a budget philosophy question because you have been 
doing this at State since, did you say 2006?
    Mr. Pitkin. 2007.
    Senator Kaine. 2007.
    Mr. Pitkin. 2007, yes.
    Senator Kaine. And then you were at OMB prior.
    Mr. Pitkin. That is correct.
    Senator Kaine. We have now done two two-year budgets in a 
row. It was not easy getting there. We got to the first one 
after a shutdown. We got to the second one in a middle of a 
speaker retiring, so I am not sure we can always count on 
something like that. But I really like two-year budgets. I am a 
former governor. We always did two-year budgets. Senator 
Isakson has had a two-year budget bill for years. I am a co-
sponsor of it.
    We have kind of gotten into this bit where we do a two-year 
budget deal and single-year appropriations. But once we do the 
first appropriations bill, it gives people at least kind of a 
range of reason if they know the top line for year two sort of 
what to expect. I really feel like the economy outside, but 
also our inside operation, does a lot better the more certainty 
we can provide it. And congressional activity around the budget 
has been a big uncertainty generator rather than a certainty 
generator.
    We are having a little bit of a debate potentially right 
now in the Budget Committee, and a number of us are on that 
committee, about whether we stick with the two-year budget deal 
and then just work on appropriations this year in response to 
the President's submitted budget, or whether we actually go 
back in and alter year two of the two-year budget deal that we 
struck in October.
    Do you agree with me that certainty is generally a good 
thing and that, you know, the two-year budget concept, if we 
can normalize it and try to honor it going forward would 
provide some benefit in terms of the fiscal planning for an 
agency like State?
    Mr. Pitkin. Thank you, Senator. Well, it is difficult for 
me to speak to the broader budget process because certainly 
there are a number of equities. And as evidenced in the Fiscal 
Year 2017 request, even our request for State had to take into 
consideration the range of challenges the Administration tried 
to cope with on both the discretionary and mandatory side of 
the budget. So I recognize that even in negotiating a single-
year budget within a two-year budget deal, there are going to 
be different puts and takes in order to achieve the right 
balance for the American people that is fiscally responsible.
    But in terms of planning, yes, to a certain degree working 
within a planning ceiling helps us set expectations. It helps 
us try to know what the external stakeholders would consider 
fiscally responsible. That is why the request that sent forward 
stuck to the OCO ceiling that was negotiated last fall, even as 
we made different tradeoffs within the OCO level. And in part 
of the ESCM 4 request is some programs that we tried to shift 
into the base to get it out of OCO because we thought it was 
more of a base program to make room for other OCO-related 
priorities, such as the security efforts I referenced earlier.
    So a certain degree of certainty or planning agreement 
helps us, but we recognize it is part of a broader political 
dynamic, and that we have to be able to explain the tradeoffs 
of what happens if we have to work with less resources or 
address new challenges.
    Senator Kaine. Thank you for that. Now, a question about 
OCO for all of you, again kind of a broader question. You know, 
there is a legitimate use of an OCO account because there are 
true contingencies. There is also a degree to which OCO can be 
used just to kind of skate around budget caps.
    I think what we have done in the two two-year deals that we 
have done, the Murray-Ryan deal in December 2013 and the deal 
we got in October of 2015, is basically not only have we done 
two-year budgets, but we have decided we will treat the budget 
caps as a discipline, but not a straitjacket, as a starting 
point and a default, but not just an ironclad and impermeable 
straitjacket. And so, we have adjusted off the budget caps in 
both the first two-year deal and the second one.
    Share a little bit about from each of your perspective as 
we are thinking about our budget and appropriations work, the 
way we ought to look at OCO. Obviously it is more predictable 
if it is in the base. You know, what is a base expenditure? 
What is an OCO expenditure? I mean, you kind of hinted at it, 
the idea is do we think it is going to be regular and 
continuing versus truly episodic. But if of your agencies would 
offer us advice as we are grappling with this OCO question, 
that could be helpful.
    Mr. Sastry. Thank you, Mr. Senator. I think what the 
chairman said earlier when he asked the question is it too 
simplistic, I think that is a part of the answer really. As we 
look into the out-years and as DOD, for example, clears space 
in certain areas, it is State Department and certainly on the 
assistance side that we are--that we are going in, and we often 
have programs that are going to last longer than a short-term 
surge. Building governance takes time.
    So the budget deal certainly provided welcome relief from 
sequestration. It provided some planning certainty. Both of 
those things were very good. But our reliance on OCO increased, 
and as the Secretary said last week, that is something we need 
to tackle going forward.
    And so, what we did really was we shifted a lot of programs 
that we had traditionally funded through the base appropriation 
that do have a little bit of a longer term look to them, and we 
funded them through OCO because that is the tool that we had.
    So going forward, we certainly have this challenge of how 
do we respond in many more parts of the world than we were 
responding to in 2004, 2005, or 2006, and how do we maintain 
that because we do not see the pressures on the assistance side 
abating much at all in the short term.
    Of course we hope that will come down in the long term, but 
in the near future we just--we do not see that. And the real 
drivers have been, you know, the conflicts have driven 
humanitarian costs up, et cetera.
    Senator Kaine. Mr. Napoli.
    Mr. Napoli. I will not add too much more to what was said, 
but I think from our perspective at USAID, one of the things we 
look at is--over 90 percent of our international disaster 
assistance account is now in OCO. And while we can see a way in 
which that makes--that framing works in the short term, in the 
long term we know very well that part of what we do in the 
International Disaster Assistance account is also make 
investments in disaster readiness, working to make communities 
more resilient to future external shocks.
    So there is a little bit of conflict there that I think 
over the longer term will have to be resolved.
    Senator Kaine. I do not want OCO to end up being like the 
Willie Sutton line, ``Why do you rob banks? That is where the 
money is.'' We are not going to vary the budget caps, but if we 
could just put it in the OCO account, then everybody will be 
going there. So some rational understanding of what is an OCO 
expenditure and what is a base budget expenditure is something 
that members of this committee and the Budget Committee, too, 
are going to grapple with.
    I am going to save my questions about individual items for 
our next round for Senator Isakson's sake.
    Senator Perdue. Thank you. Senator Isakson?
    Senator Isakson. Thank you, Senator Perdue. Let me ask--Mr. 
Pitkin, help me here. Your first page of your printed 
testimony, you said the President's budget is $50.1 billion, 
$35.2 of which is enduring. I think that is the wording. Then, 
Mr. Sastry, your first line says the he Fiscal Year 2017 budget 
is $50.1 billion, which is the same number. Then it says $34 
billion of which is foreign assistance. Is ``foreign 
assistance'' and ``enduring'' the same thing?
    Mr. Sastry. No, Mr. Senator. On each--of the $50.1 billion, 
$34 billion is foreign assistance. That is split between our 
base piece and our OCO piece. So our base piece is 
approximately $25 billion, and our OCO piece is about $9 
billion.
    Senator Isakson. So $25 billion is foreign assistance?
    Mr. Sastry. $34 billion is the total.
    Senator Isakson. Out of two separate accounts?
    Mr. Sastry. Correct.
    Senator Isakson. How much of that goes to Israel?
    Mr. Sastry. $3.1 billion.
    Senator Isakson. Okay. So about 10 percent of all foreign 
assistance goes to Israel.
    Mr. Sastry. Correct.
    Senator Isakson. The point I want to make on that is I have 
been caught, as has every senator, with people who think, well, 
if you just repeal for the foreign assistance budget, you can 
balance the budget, and you never have any problems as a 
country, and our debt goes away. It is probably the best buy we 
have got in the entire budget for peace and security. And I 
think ``enduring'' is an intriguing and accurate word, but I 
think to know that 10 percent foreign assistance goes to 
Israel.
    And I always ask the question of my constituents who 
complain about foreign assistance, how much do you think it 
would cost us to build and maintain a military base in the 
Middle East? It would be a heck of a lot more than $3 billion a 
year, so it is a great return on the dollar. Tremendous return 
on the dollar. ``Roman Napoli,'' by the way, is a great name. 
You ought to have been at the Oscars the other night. 
[Laughter.]
    Senator Isakson. You would have won one. I thought I saw 
Roman Patoli there, but I guess I did not. Anyway, never mind. 
[Laughter.]
    Senator Isakson. In your testimony, you said the accounts--
you said the President's funding request for accounts from 
which USAID administers assistance is $22.7 billion. Is that 
out of the $50.1 billion total, or is that another pot?
    Mr. Napoli. No, sir, that is inclusive of the number, and 
it is inclusive of the $30 billion number that Mr. Sastry used.
    Senator Isakson. So foreign assistance, USAID, et cetera, 
et cetera, et cetera, all comes under the umbrella of $50.1 
billion.
    Mr. Napoli. Yes, sir.
    Senator Isakson. Just out of different component accounts. 
Is that right?
    Mr. Napoli. Yes, sir, that is right.
    Senator Isakson. What about embassy security and embassy 
improvements around the world? Is that in this $50.1 billion as 
well?
    Mr. Pitkin. Yes, senator, it is, $6.1 billion in total.
    Senator Isakson. Is there any new embassy or replacement 
embassy we are building in this budget?
    Mr. Pitkin. Yes, we have funding in our Capital Security 
Cost Sharing Program to build four new embassy facilities, and 
we can get the details. But I believe they are in Guatemala 
City, Kenya, and two others, and I can get back to you on 
those, but, yes. We have four new embassies in this budget.


    [See Responses to Questions for the Record Submitted to 
Deputy Director Douglas Pitkin by Senator David Perdue, 
Questions 8 and 9.]


    Senator Isakson. Given what happened in Benghazi and the 
tragedy, which all of us felt for Ambassador Stevens and the 
others who lost their lives, have we done a thorough job of 
reviewing country by country, embassy by embassy, our security 
and our contingency?
    Mr. Pitkin. Yes. Certainly, Senator, after Benghazi and the 
Benghazi Accountability Review Board, the Bureau of Diplomatic 
Security, as well as the Undersecretary for Management, the 
Deputy Secretary of State, led a very detailed review of our 
embassy security posture, particularly in several dozen of the 
facilities that were deemed the highest risk. And DS has a 
number of ways of measuring risk. It is more of an art than a 
science. But they looked at a number of factors, and they 
designated several dozen of our overseas posts as high-risk, 
high threat posts.
    And first off, they did create a special directorate within 
the Bureau of Diplomatic Security called the High Threat 
Directorate which focuses on these highest-risk posts. It 
created new programs. They hired new people. They put in place 
new controls to ensure that those posts were prioritized for 
resources and received extra attention in terms of having the 
right security capacity on the ground.
    We reprogrammed at that time about a billion dollars of 
savings that we had gleaned from Iraq and reprogrammed that to 
both facilities and personnel to basically bolster our security 
posture at those and other posts. And then we have sustained 
those investments as part of our ongoing budget request.
    And we are still in the process of standing up some 
increased marine security guard presences at, I believe, 34 
total posts. In many cases we still have to work with the local 
governments, and get permissions, and find the right housing, 
but we have that funding both in our--part of our base budget 
to sustain those efforts. And I believe we have implemented all 
but I think--fully implemented all but two of the Benghazi ARB 
recommendations, and the last two, I believe, are really 
because of policy, local host-nation issues, and not because of 
funding.
    Senator Isakson. Once you get outside the high premium 
appointments like ambassador to France, and Australia, and a 
few places like that, the rank and file diplomat is on the 
front line of the United States of America, are in embassies 
around the world that people have never heard of. And they risk 
their lives to do so, or they put their life certainly at risk.
    And I think it is very important that we make sure they 
know that we care about their security, that we are planning 
every day to see to it every person deployed overseas on behalf 
of the United States of America is as secure as they possibly 
can be and we can make them.
    I am a big believer in soft power. It works best when your 
heavy power is already working and enhanced. But soft power 
only works if you have the type of volunteers and the type of 
people willing to commit their life to represent the United 
States of America. So I--there is no dollar we should spare 
whatsoever in securing the security of our embassies around the 
world and the people we recruit for them, and I just wanted to 
put that in the record because I think it is critical for what 
you do.
    Mr. Pitkin. Thank you, Senator.
    And just to complete the thought on the four facilities 
that we are requesting in 2017: Guatemala City; New Delhi, 
India; Kampala, Uganda; and Nairobi, Kenya. And we also have 
other programs that provide compound security upgrades and 
other safety upgrades to facilities that are not in the near-
term schedule for a new compound.
    Senator Isakson. Well, I have been to two of the four, and 
they are good choices.
    Mr. Pitkin. Thank you, sir.
    Senator Isakson. One last thing, I guess, while I have got 
50 seconds. On Zika, do you all have any input on addressing 
Zika?
    Mr. Pitkin. Yes, we did have input on the request for Zika, 
although most of that funding was on the foreign assistance and 
AID side.
    Senator Isakson. And I think the budget was completed 
before Zika became an issue, was it not?
    Mr. Napoli. I think CDC and others have been tracking Zika 
for some time. The disease is much older, although it had not 
become as acute as it is now. But we have been trying to work 
as fast as possible to get where we have gotten.
    Senator Isakson. One last thing, Mr. Chairman. Let me put a 
bug in your ear about Zika. In Kansas, in Georgia, in 
California, and in New York--I think those are the right four 
States--private hospitals and facilities entered the Ebola 
battle and caused us to be able to cure some people with Ebola 
and quarantine them with Ebola, and they spent a lot of their 
money.
    And I think the reimbursement still has not come in some of 
those cases from Ebola, and there are a lot of people talking 
about funding Zika out of the leftover money from Ebola. We 
have got to make sure that it is left over after we have paid 
every obligation we have to those hospitals that volunteered 
their time and their services in the Ebola outbreak.
    Thank you very much. Thank you, Mr. Chairman.
    Senator Perdue. Thank you.
    Let us move over to Europe for a minute. I had a chance a 
couple of weeks ago to go to Serbia and actually met the 
president of Macedonia and a few other leaders over there of 
other countries, talking about the refugee pipeline from Greece 
all the way up into Austria, Germany, Norway, and Sweden.
    And talked to several families who had been on the road for 
35 days. I have to report they seemed to be well fed, clean. 
They were being taken care of. Nobody was on the road walking. 
These people were on the train and bus.
    But there is an ongoing tragedy over there that is not 
complete at all. I mean, this thing is really in its early 
stages, in my humble estimate. But I think one of the 
questions, June 2015, the U.N. High Commissioner for Refugees 
reported that worldwide nearly 60 million people have been 
displaced. You know, 11 million in Syria alone is one estimate 
I have seen.
    Despite these highs, the total U.S. humanitarian assistance 
request of $6.2 billion, I think that is 20 percent less than 
2016. And further, the amount in the Migration and Refugee 
Assistance Account in this year's request decreased by about 
$250 million, $260 million.
    What accounts for those decreases in the time when you hear 
and see this growing demand for assistance with migrants and 
refugees? Mr. Sastry?
    Mr. Sastry. Thank you, Mr. Chairman.
    So, first, you are right. The situation around the world, 
especially with Syria, is something that has certainly seized 
everyone's attention, and there is quite a few requirements 
being driven from--from that crisis.
    Our 2016 appropriation gave us $7.6 billion in humanitarian 
assistance. We thank Congress for the support. It was a nearly 
25 percent increase from what we had in 2015.
    So when we were building the 2017 budget, what we really 
did was look at what our needs were across 2 years, across 2016 
and 2017, and to see what we could--what was the right amount 
that would be able to meet the needs while also making sure we 
balance some of our development funding at the same time 
because we want to ensure that we are preventing crises in 
other places of the world as well.
    So if you look at it across 2 years, it is nearly $14 
billion in humanitarian over 2 years. So that is $7 billion a 
year. That is still a very strong footprint for humanitarian 
assistance.
    And the other priority we had going forward, and the 
Secretary mentioned this at the conference in London a couple 
weeks ago, is as the U.S. continues to be the number-one donor 
for humanitarian assistance, the other issue that we need to 
tackle is bringing other donors to the table.
    So I think it was a combination of making sure that we have 
a strong humanitarian funding level over the 2-year period, but 
also making sure that we are engaging other countries to come 
to the table.
    Senator Perdue. I noticed Senator Markey has arrived. But 
before I move to him, there is a follow-up question.
    Mr. Sastry. Sure.
    Senator Perdue. Is State Department having any 
conversations specifically with any of the Arab countries that 
are not now participating in this humanitarian aid?
    Mr. Sastry. So I will take that question back. There have 
been discussions, but I do not have the details and will get 
back to you.
    Senator Perdue. Well, I am happy to table that until next 
week. Would you let Under Secretary Higginbottom see if she 
wants to respond for the record?
    Mr. Sastry. Sure.
    Senator Perdue. Thank you.
    Senator Markey, if you are ready, I will yield to you if 
you are ready?
    Thank you.
    Senator Markey. Thank you, Mr. Chairman. Thank you for 
having this very, very important hearing.
    I would like to go to Ethiopia, if I could, talk about El 
Nino, talk about this historic impact it is having in Ethiopia. 
The impact it is having that could lead to malnutrition for 
millions of kids in Ethiopia, and what we are doing or what can 
we do to help.
    This is clearly an exacerbated form of the climate change 
impacts that we are seeing, and that part of the world is 
particularly vulnerable. So could you talk a little bit about 
that?
    Mr. Sastry. Sure. Thank you, Mr. Senator.
    And I actually was recently in Ethiopia a few months ago 
and was able to see some of the preparations as they were 
bracing for El Nino.
    Our total request in this budget is $513 million for 
Ethiopia, and that includes a lot of our work in the resilience 
of communities that are susceptible to the shocks that you see 
when there is a drought in the drylands.
    That also includes a lot of our work with them on 
governance, on health, and on some of the healthcare--some of 
the health infrastructure that we help them with.
    Senator Markey. So how are you coordinating, you know, Feed 
the Future in your work on this issue? Can you talk about that?
    Mr. Napoli. We are right now actively looking at what kind 
of posture we need to have on the response side, and so we have 
put additional food resources and food aid into Ethiopia since 
this crisis has become more acute. I want to make sure that we 
say that first.
    Concurrent to that, though, we see the ability for 
agriculture to make a difference. In a country like Ethiopia, 
it is a lot about land management, water management, teaching 
people how to use crops that are drought resistant and really 
helping them. And I think that we see a lot of that.
    You know, Ethiopia is one of the countries that was part of 
the African Food Alliance, and so those are the kinds of things 
where they have a direction they want to go. We want to help 
them get there. But right now, we are really focused on the 
acute needs that are so evident.
    Senator Markey. Okay. So how is AID incorporating climate 
change into the developmental risk assessment, which you are 
making as you look at the different regions of the world?
    Mr. Napoli. So I think there is a policy issue at play, and 
then there is a pragmatic issue. So there is an executive order 
that the President signed, which requires USAID and other 
Federal agencies to include climate considerations in all of 
their programming. USAID has taken that to heart, and so all of 
our strategies and all of our work and all of our projects now 
include a climate component, ensuring that we take those things 
into consideration so that we do not build schools in potential 
flood zones, so that we consider the availability of water on 
our agricultural projects.
    And I think that is step one in that space.
    Senator Markey. Okay. So why is that important in terms of 
using U.S. tax dollars wisely, that we have thought through the 
climate change impacts on these different regions?
    Mr. Napoli. There is a project that I was recently briefed 
on what USAID is doing with NASA, where we are using satellite 
data to help watershed managers in Pakistan. And the idea is 
that when we have data about how much water should be flowing, 
when it should be flowing, looking at that data over the course 
of a year, multiple years, it helps us to understand how much 
can be diverted for agriculture. How much needs to remain to 
keep the aquaculture? Those are the kinds of questions we can 
begin to answer because we have done the right work, and we 
have the right technology to do it.
    Senator Markey. Yes, the problems in Sub-Saharan Africa 
were actually the first problems, first areas kind of 
identified as the problem area for climate change. This goes 
back to 1976, when it was actually on the first day I came to 
Congress, the story on the front page of the Washington Star, 
which was the other paper in town at the time, was on climate 
change and its impacts on Sub-Saharan Africa.
    The article talked about how it was going to intensify 
regional conflicts as they fought over limited resources, that 
the impacts on water, et cetera, would lead to gangs fighting 
over what was left over. And so all of that has now been borne 
out.
    And I would just like, if I could, then to move over to 
Power Africa for a second because two out of three people in 
Sub-Saharan Africa still do not have electricity, and you are 
making a request here for additional money for Power Africa. 
Can you talk a little bit about that and what progress we have 
made and what you hope to do perhaps over the next 5 years?
    Mr. Napoli. This request includes $291 million for Power 
Africa, and I think the ambitious goals that we have set around 
electrifying Africa reinforces the message that we think these 
are valuable things.
    We have made a tremendous amount of progress. We have 
already got 4,300 megawatts that have been brought to bear. 
That is very good for a project that is in its first few years. 
But what is most important to a lot of us at AID is the fact 
that we have brought $43 billion of private and public sector 
investment into the space.
    So in an area where USAID is contributing a small amount of 
funding, all that funding is being matched, doubled, tripled, 
and quadrupled with private sector funding that is really 
something that we think is very valuable for an effort that is 
so broad and such a big policy statement.
    Senator Markey. Yes. I went with the President to Africa 
last July, and in Ethiopia, we had a signing of an agreement. 
And so can you talk a little bit about the geothermal potential 
in Ethiopia and these other surrounding countries and what we 
are doing in order to telescope the timeframe it will take to 
extract those energy resources for the people of those 
countries?
    Mr. Napoli. Well, I want to thank you, and thank you for 
taking the time to make the visit. As a budget person, I think 
you have tapped my knowledge of geothermal energy. I am sorry. 
[Laughter.]
    Mr. Napoli. But I will bring that question back, and we 
would love to make sure we talk more about it with you and your 
team.
    Senator Markey. By the way, I will say that the utility 
executives and regulators in those countries reminded me a lot 
of the same executives in America in terms of their ``Do we 
really have to do this? Do we really have to move to 
geothermal? Do we really have to move to solar? Yes, it is 
sunny every day here. You know, maybe we could do that.''
    They had to show up at the ribbon cutting. They had to 
smile. But you could see they were doing it through gritted 
teeth.
    It is a challenge, but it is a good thing USAID is there. 
It is a good thing these other agencies are there because they 
have the credibility to help them to kind of almost double 
their electricity generation in just 2 or 3 years for the 
entire country, you know?
    It is just amazing, and it is working. And we thank you for 
your great work.
    Senator Perdue. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And just going to hop through some issues now. I am real 
interested in this planned Central America investment. We would 
have reason that if we did it right to be hopeful because the 
Colombian example of failed narco-state to really progressing 
economy and democracy and security assistant around the world. 
I was with Colombian forces in the Sinai as part of the 
multinational force of observers, watching them do that. I 
mean, it has been a remarkable transition.
    So that should give us some hope that if we make the 
investments right in Central America, we could see a similar 
path if we are consistent with it. I hope we might have a 
hearing about this in the Western Hemisphere Subcommittee to 
kind of get into the programmatic side. But the key is how do 
you spend the money? Do you spend it right?
    So we just did $750 million in the appropriations bill, and 
this request is for $1 billion. I think $360 million of it is 
on the USAID side, and the remainder is through the State 
budget.
    But could you just talk a little bit about how you see us 
starting down this path? If we help those economies be 
stronger, we can slow the unaccompanied minors. If we help 
those economies be stronger, they can become, you know, 
valuable security partners.
    Talk a little bit about there is a lot of ways you can 
spend that money--infrastructure, education, economic 
development, security. How do you approach a task like that in 
terms of how the money should be spent?
    Mr. Sastry. Sure. Thank you, Mr. Senator.
    And I will answer a little bit, and I will turn it over to 
Mr. Napoli, who can certainly speak on some of the AID 
equities.
    As you said, our request in the 2017 budget is $1 billion, 
of which $750 million is here in the State and AID budget. The 
other $250 million is with OPIC and DoD, et cetera.
    Senator Kaine. I see. Okay.
    Mr. Sastry. The Central American strategy has three 
pillars, and the administration has set forth a path: one 
pillar being governance, one being prosperity, and one being 
security. On the security side, for example, there is a little 
over $300 million, largely working with the communities to 
increase rule of law, working with training of police, et 
cetera.
    On the development side, we have obviously the three 
countries that we are targeting is El Salvador, Honduras, and 
Guatemala. And each of those have a slightly different bent to 
how we are tackling the problems, depending on the issues with 
that country.
    Mr. Napoli. So I think from USAID's perspective, we always 
think about what is the cause? Why are we here? What is the 
issue? And we assess that, and we begin to look at those 
underlying factors.
    For Honduras, clearly, it is economic opportunity. And in 
El Salvador and Guatemala, clearly, violence is also one of the 
drivers of migration. In Honduras we have really made 
significant investments in agriculture, and we have increased 
farmers' incomes for the areas we have worked by 55 percent. So 
giving people an incentive to stay, generating those jobs and 
creating those opportunities. And in El Salvador something that 
is really interesting is when we get into some of these 
communities where violence is the most acute, USAID's 
programming has a very strong effect, and it has--it is 
mutually reinforcing with what the central governments are 
trying to do.
    So in the 70-plus communities where we were promoting 
nonviolent programming, we actually saw 60-plus percent 
reductions in homicide. So we think that there are tremendous 
investments that we can make and that there is actually numbers 
to back up those investments.
    Senator Kaine. Talk about governance. That is the third 
pillar. We talked about security. We talked about prosperity.
    Mr. Sastry. Sure.
    Senator Kaine. And then governance was the third pillar.
    Mr. Sastry. Right. So in governance, I think one of the 
areas of focus is really the anti-corruption in a couple of the 
countries and how are we tackling--how are we helping those 
countries tackle the issue? So I know there have been, and as 
you said, if you have a WHA hearing, they can certainly get 
into the details of how they are exactly doing this. But we 
have nearly, I believe, a third of that--of our request is for 
that pillar.
    Senator Kaine. Jumping over to Russia, so $1 billion in the 
request for the Americas, the northern triangle. There is a 
$4.3 billion request for countering Russian aggression, and I 
am assuming that is across, you know, the broad area of Europe, 
Eastern Europe. But talk a little bit about, again, 
programmatically on that, what are the pillars of that 
investment? That is a sizable investment. What are the pillars? 
What are the metrics that we would use?
    Mr. Sastry. Sure.
    Senator Kaine. I guess we cannot affect, you know, the 
inside Russia dynamic, but we can affect the degree to which 
surrounding, neighboring countries are more resilient to that 
aggression.
    Mr. Sastry. Sure. So our countering Russian aggression 
total is $951 million.
    Senator Kaine. Okay.
    Mr. Sastry. The higher number you may be referencing 
includes the DoD European Reassurance Initiative potentially. 
But the State/AID portion is $951 million.
    Senator Kaine. Okay.
    Mr. Sastry. The big difference I think you will see from 
previous years and what we hope is we will see an improvement 
in the macro economic conditions in Ukraine is we do not have a 
loan guaranty in this request. We have done two. We are in the 
process of completing the third, and we are hoping that we will 
see a little bit of progress.
    But you know, we are working in the countering Russian 
space not just in Ukraine, Moldova, and Georgia, but also in 
the Balkans, also in Central Asia, kind of that whole region. 
And our focus in that area runs the gamut.
    A lot having to do with training police and working with 
law enforcement, rule of law. There is also a lot of 
governance, especially energy security area, within Ukraine. It 
is a rather comprehensive approach in the area, but it is not 
just that. As you said, not just that focus on Ukraine, 
Moldova, and Georgia, but the broader EUR area.
    Senator Kaine. Let me ask about this, and I am surprised I 
have not asked this question before. I have been going to so 
many Armed Services hearings the last few years, where we have 
been talking about the pivot or the rebalance to Asia, as if it 
is purely a DoD pivot.
    Within State and USAID, have you guys made a similar kind 
of deflection in the direction to, you know, play a larger role 
in that theater?
    Mr. Sastry. Yes, and thank you for the question.
    So our total in Fiscal Year 2017 is $824 million, which is 
almost a $100 million increase from the previous year. That 
sustains a strong maritime security presence, which is 
something that 2 or 3 years ago was at a much lower level than 
what you are seeing now. And it responds to some of the events 
in that region.
    We also have funding to take advantage of some political 
transitions. For example, in Burma, there is some additional 
funding going in there, as well as a strong funding level by 
almost $300 million in the health area.
    Mr. Pitkin. I would just like to add to that briefly.
    Senator Kaine. Please.
    Mr. Pitkin. I think it is important to note that part of 
the platform supporting all those programs is the funding for 
our regional bureaus. Particularly first for the EUR bureau, as 
well as the EAP bureau, we do have some very targeted increases 
for increased public diplomacy programming in Russia's 
neighbors, about $1.5 million.
    Also targeted funding for the EAP regional bureau for about 
$1 million, as well as some of the new embassies are opening 
up. So while the increase is not dramatic, one of the things we 
are trying to do in this budget is sustain and restore some of 
the funding that we, frankly, had to sort of trim or constrain 
over the last 2 years for the platform for the regional bureaus 
that are funded under the diplomatic State Department budget as 
well.
    Senator Kaine. Two areas where I think I have seen 
reductions in funding in this budget request that kind of 
surprised me, although maybe I am not reading the line items 
right. Under the International Narcotics Control and Law 
Enforcement funding, we have traditionally had funding for 
Palestinian Authority security sector to work on security 
cooperation with Israel.
    And that has strong benefit for Israel. Israel has been 
supportive of it. If I read it right, the INCLE funding for the 
security initiative has been about $70 million a year, but the 
Fiscal Year 2017 request cut it in half to $35 million. Am I 
reading that right? And if that is the case, why?
    Mr. Sastry. Yes. You are reading that correctly. That is 
not a cut to our activities in the program. It is the natural 
progression of that program. It was very resource intensive. 
There was a lot of training, a lot of infrastructure, and now 
we are ramping that down to the size that it should be.
    This is not a cut to the current level of effort.
    Senator Kaine. You are saying some of the spending in early 
years might have been one time, such as equipment that you do 
not have to buy again.
    Mr. Sastry. Correct. And the intensive training early on 
for some of these policias.
    Senator Kaine. Right. You do not have to repeat the 
training again. I see.
    Mr. Sastry. Yes.
    Senator Kaine. Okay. And then there is a second one--and 
this, Mr. Napoli, is probably for you--on humanitarian 
assistance. The omnibus we did included a significant increase 
for humanitarian assistance. But it looks like the Fiscal Year 
2017 budget request proposes about a 20 percent cut in that 
program.
    And I wondered, again, do I read that right, and if that is 
so, why is that the case?
    Mr. Napoli. When we look at the International Disaster 
Assistance Account, which is our primary humanitarian account, 
we take a 2-year view. We look at the generous amount of 
funding that the Congress appropriated in Fiscal Year 2016, and 
we compare that and looked across FY 2016 and FY 2017. So FY 
2017 was clearly impacted by the Fiscal Year 2016 levels.
    For USAID, what is important is we are going to continue to 
make commitments in places that we have significant 
humanitarian needs in, and we think we can do that in this 
budget. We will be responsive in Yemen. We will be responsive 
in Syria.
    So that does not propose any change in our posture. It is 
just really looking at the fiscal years, looking at the 
generous allocation that Congress provided and how we would 
balance that over 2 years.
    Senator Kaine. Last question. Mr. Chair, I wanted to just 
ask--and this may be less budgetary than programmatic. And 
maybe I could direct it to Heather Higginbottom if it is less 
pure budget. But that is Zika and our personnel.
    So you have put out travel advisories about a whole series, 
probably 15, Latin American and Caribbean countries where you 
have, you know, warned Americans, especially if they might be 
vulnerable because they are pregnant or they could, you know, 
be in the kind of pregnancy window. You have warned people not 
to travel.
    What are we doing with our embassy personnel or USAID 
personnel, Federal employees generally. They could with the 
DEA; they could be with any agency serving in these countries. 
What are we doing to try to make sure that we are protecting 
them as best we can?
    Mr. Pitkin. Our medical office, part of the Department of 
State, has issued guidance, a number of guidance circulars, for 
both Department of State and other agency personnel working in 
those embassies. And it contains a number of sort of the same 
type of guidance that we provide to American travelers, 
American visitors, and one of the things we are doing is 
essentially increasing the time in which people, particularly 
women who are pregnant, with their families can medevac, which 
is our term of art for when we basically have someone come home 
for an overseas post, particularly an overseas post with 
perhaps not the level of healthcare that you would get in the 
States.
    So we are increasing that now, letting people come home 
basically 6 months earlier than they normally would. Normally, 
I think the time to come home for is in the last few weeks of 
pregnancy, and now we are essentially saying that a pregnant 
woman or employee or family member can come home about 6 months 
sooner.
    And so part of our request in the supplemental is the 
increased costs that will accrue not just the Department of 
State, but also some of our interagency partners for that 
increased cost for coming back to the States sooner.
    Senator Kaine. Great. Thank you very much.
    Senator Perdue. Thank you, guys. I just have a few closing 
questions, and we will try to get you out of here momentarily. 
Thank you for your forbearance.
    The U.N. estimates there are about 13.5 million people in 
Syria who need help, and I know we are not the only ones 
providing that help. But how much aid are we providing to 
Syria?
    How do we get it through the restriction that Bashar al-
Assad has in place through--how do we get it through our 
networks of volunteers? How do we defend against fraud? How are 
we assured that what we are giving is actually getting to the 
people that we are trying to help?
    Mr. Napoli. Thank you for the question, Mr. Chairman.
    So our assistance total that we are requesting for Syria is 
$239 million, and that does not include the humanitarian 
assistance that we will end up giving once we determine it.
    Senator Perdue. Can I put that in perspective? What is the 
portion we give to Jordan right now?
    Mr. Napoli. One billion dollars.
    Senator Perdue. Okay. And is all that $1 billion for Jordan 
refugees.
    Mr. Napoli. No, not necessarily. No, not necessarily.
    Senator Perdue. Okay.
    Mr. Napoli. Actually, that $1 billion does not include any 
humanitarian funding.
    Senator Perdue. I did not think so. Okay. So the $239 
million is against zero for somebody like Jordan, for example, 
on the refugee issue?
    Mr. Sastry. Right. So the $239 million in Syria is not 
related to the humanitarian. In addition to the $239 million, 
we do give money to Syria on humanitarian, but that 
traditionally we determine in the year of execution.
    Senator Perdue. Who are the recipients of the $239 million? 
I am sorry.
    Mr. Sastry. The $239 million is largely given to support 
the armed opposition with nonlethal support.
    Senator Perdue. Okay.
    Mr. Sastry. So this is equipment, supplies, food, et 
cetera.
    Senator Perdue. Is that part of the OCO?
    Mr. Sastry. It is part of OCO. That is correct.
    Senator Perdue. So in terms of humanitarian aid, we are not 
providing any aid into Syria directly today?
    Mr. Sastry. We are. So we are projecting that we will have 
to spend about $1.7 billion in Syria in humanitarian aid, but 
that is an estimate for 2017, depending on the situation, there 
obviously could be a lot that changes between now and then.
    In addition to that $1.7 billion, we are spending $239 
million in the country to aid the armed opposition with 
nonlethal equipment and supplies.
    Senator Perdue. I understand that, but I am really trying 
to get at are we trying to get money through that very confused 
battle space to these 13.5 million that we are trying to help? 
And to put that in perspective, does that come out of the 
bilateral aid bucket in terms of the budget?
    Mr. Sastry. No.
    Senator Perdue. Where does that $1.7 billion come from?
    Mr. Sastry. It comes from the two main humanitarian 
accounts, which is the Migration and Refugee Assistance and the 
International Disaster Assistance.
    Senator Perdue. Okay. What I am trying to determine is, of 
the $1.7 billion, how big is that relative to the $22.5 billion 
for bilateral aid or the multilateral assistance, which is only 
$2.6 billion. I'm trying to put the $1.7 billion in 
perspective. We heard $3 billion for Israel earlier.
    Mr. Sastry. Right. So I think the $3 billion for Israel 
obviously does not include any humanitarian aid.
    Senator Perdue. Right.
    Mr. Sastry. If you want to compare----
    Senator Perdue. One way to look at it is that it is part of 
the $34 billion foreign assistance?
    Mr. Sastry. Yes. Yes. Yes.
    Senator Perdue. Okay. All right. That is all I need.
    Mr. Sastry. Yes.
    Senator Perdue. All right. But what are we putting in place 
to make sure that money gets through to the people that really 
need it?
    Mr. Sastry. I do not know if you want to take that?
    Mr. Napoli. I would be happy to say a few words about that. 
Thank you, Senator, for asking. Making sure that people get the 
aid that we are trying to provide is critical to how we think 
about this, that they are the beneficiaries. The end game is to 
provide that assistance to them. So we are doing a number of 
different things, and I know it sounds kind of bureaucratic, 
but it is really overlaying a couple of different approaches. 
It is making sure that, before assistance leaves Turkey or 
before it leaves Jordan we have inspected, that we have made 
sure the food is what it says it is. We have third-party 
monitors that are actually in country that are using 
technology, cell phones, photographs, other kinds of things to 
make sure did the truck arrive? Did people receive the 
assistance?
    Senator Perdue. But in country, is it volunteers that are 
delivering that assistance?
    Mr. Napoli. We have a number of organizations that we work 
with that, yes, they are.
    Senator Perdue. And so what I am trying to get at is what 
type of oversight structure do we have with them to assure that 
this is not being absconded to, you know, government forces or 
whatever that we would not want this aid getting to?
    Mr. Sastry. So I think that is something we can certainly 
bring back and talk to you about.
    Senator Perdue. Would you?
    Mr. Sastry. Yes.
    Senator Perdue. Okay. Just a little more specificity.
    Mr. Sastry. Yes.
    Senator Perdue. Talk to me just a little bit about the 
administrative overhead. One of the things, being involved in 
various philanthropies during my career, you always look at the 
overhead, right, and how much money is really being spent. If I 
look at this right, of the $34 billion in foreign assistance, 
the USAID administration costs are $1.7 billion, round numbers.
    Is that the only overhead that we have in the State 
Department, besides the State operations-related agencies group 
there? That was some $17 billion. But I am just looking at 
foreign assistance. Is that the administrative overhead for 
foreign assistance, the $1.7 billion?
    Mr. Sastry. So our foreign assistance is both State and 
USAID, have both State and USAID components. So when we talk 
about our people and platforms that are required, that is the 
overhead that you talk about, we talk about both on the 
diplomatic engagement side, that Mr. Pitkin talked about, and 
the USAID administrative overhead that you just mentioned.
    So it is a combination of the two that is required for us 
to deliver our assistance.
    Senator Perdue. Okay. And then talk to me about, last 
question I have is, embassy security. One of the 
responsibilities of this job is traveling out to meet our men 
and women in uniform and then people on State assignments and 
so forth, and it really is a great pleasure to meet these 
people dedicated their lives to serving our country and making 
lives better for people around the world.
    And their security is paramount, as Senator Isakson said, 
Senator Kaine has said. My question is I know that we have got 
new embassies around. I was in the Singapore embassy. I know we 
got a new one in London coming up. There is one under 
construction in Islamabad, for example.
    Can you talk through the expense of these after the 
Benghazi Review Board? And what are we looking at? Are these 
billion-dollar, you know, embassies, as we go forward? And I 
also saw some numbers. I am not prepared today to get into it, 
but we saw some overrun numbers that were fairly shocking on a 
few of these.
    So can you talk, maybe Mr. Pitkin, if you are the one to 
address that, and we can bring this up next week as well, but I 
thought we could get into that today a little bit, if you do 
not mind?
    Mr. Pitkin. Absolutely, Senator. Well, again, it is a 
twofold issue. One is that, to a certain extent, costs are 
increasing. The Capital Security Cost Sharing Program was 
initially authorized I believe about 10 years ago at about $1.4 
billion and certainly something that we have seen was that the 
average cost, just based on the cost of construction, the 
dollar going up and down overseas, inflation, and particularly 
in developing economies, costs go up faster than here in the 
States, that it basically was costing more to deliver the same 
essentially embassy platform.
    Senator Perdue. Could you provide for us a record, just 
some of the recent construction projects, what their forecast 
costs were and then what the ending costs might have actually 
been? We do not have to do it today, but I think for the 
record, that would be instructive.
    Mr. Pitkin. Right. We can absolutely do that.
    Senator Perdue. Thank you.
    Mr. Pitkin. So in addition to the costs going up, we also 
have to make sure that they are the safest and secure 
facilities as possible. And so many cases, we are putting in 
the latest technology, the latest high-volume air conditioning 
and air flow to provide chemical/biological warfare protection 
agents. So we are basically having to make sure that these 
facilities can face and protect against a range of threats, 
whether it is forced entry, ballistic threats, other types of 
kinetic threats.
    And as we have seen, we cannot just assume that those 
threats are only limited to the what we would call the high-
threat posts or posts like Iraq and Afghanistan. Now certainly 
embassies and facilities there need extra protection, perhaps 
overhead cover. If you have been to some of those posts, you 
have seen the extra steps that we have to take there.
    Senator Perdue. The buffer zones are much larger.
    Mr. Pitkin. The buffer zones, yes.
    Senator Perdue. At the London office, that was the reason 
that was given as to why that had to be relocated.
    Mr. Pitkin. Right. The setbacks. And some of those 
requirements were emphasized in the Benghazi ARB report, and so 
many times that constrains the number of places that we can 
find to negotiate with the local government to put those 
facilities in place.
    So it is something we track. OBO, the Office of Overseas 
Building Operations bureau does its best to maintain within 
certainly the budget amount for these various embassies. We 
occasionally do have to come before the committees and make 
sure that we realign some money if we have an overrun. But 
usually those are offset by savings that have been identified 
in other embassies.
    So you are right. Overruns sometimes do occur, but we have 
managed to keep the overall program within the topline level 
set by Congress.
    I actually do want to correct something I said earlier. We 
actually do have three outstanding ARB recommendations that we 
are following up on. Two are on the public record, and one can 
be dealt with in a separate session.
    Senator Perdue. How much prior year embassy construction 
budget is still unallocated?
    Mr. Pitkin. All of their funds have been allocated. They do 
have a significant unobligated balance, I believe over $4 
billion. It is part of what we do report to the Congress. But 
that is because these projects can take up to 5 years or longer 
to complete.
    Senator Perdue. So they are already committed. They just 
have not been spent?
    Mr. Pitkin. Right. The projects have been committed, and we 
essentially have the money there so as the construction 
proceeds, we fit it out, the money has been allocated and is 
available.
    Senator Perdue. Thank you.
    Senator Kaine.
    Senator Kaine. Mr. Pitkin, on the ARB, the unaddressed 
three, I think I will ask the classified question as a question 
for the record that can obviously be submitted back classified. 
But what are the two that are unaddressed? And I think you 
indicated that they were maybe policy, not funding. But if 
there are policies that we ought to help with, you know, I 
would not want to leave this opportunity without it.
    Mr. Pitkin. One was Number 7, which dealt with collocation, 
which is a theme of actually some of the previous embassy 
security acts, which was to emphasize the need to collocate, to 
the greatest extent practicable and possible, all chief of 
mission or U.S. personnel on these secure facilities.
    And in many cases, either because of the number and the 
size of the U.S. Government presence, that is not always 
feasible, and there are various type of waivers or arrangements 
that DS and the Department has to reach with other agencies on 
collocation.
    And so that is an area where we are still working through 
exactly how the process of collocation works.
    Senator Kaine. And so I am sure there is a lot of 
collocation and as you are building new facilities, you do it 
whenever you can. But that is just going to take some time to 
get that done?
    Mr. Pitkin. Yes, Senator. That does drive some of the cost. 
In many cases, we are replacing distributed multiple buildings, 
multiple locations, some leased, some owned, and trying to 
bring it onto one centralized compound with a setback and all 
the security enhancements.
    The other is camera upgrades. One of the recommendations, 
Number 20, I believe, was on installing the latest generation 
of cameras to provide 24-7 coverage. In many cases, we are 
still, in some cases, still working through some issues of 
visas and getting access to the specific sites.
    And that is really an issue of dealing with the host 
government of getting the technical experts there onsite to do 
the installation, and these, of course, have to be cleared 
American contractors. And so there are some facilities where we 
are still working through the issues with the local government.
    Senator Kaine. So that is not something where, you know, we 
need to provide policy alteration in order to enable it, but 
this is just a matter of something that is going to take a 
while to get fully implemented?
    Mr. Pitkin. Yes, sir. That is right.
    Senator Kaine. And I will ask the classified question for 
the record. Thank you, Mr. Chair.


    [The question referred to and the Department of State's 
response follow:]


    Question.  During his testimony, Douglas Pitkin stated that three 
recommendations from the Accountability Review Board report have not 
yet been implemented--recommendations Number 7 and Number 20, regarding 
the collocation--to the extent possible--of overseas government 
facilities and upgrading security cameras, respectively. However, he 
was unable to discuss the third recommendation at the hearing because 
it is classified. Please provide a classified response to detail this 
outstanding recommendation and explain in detail why it has not yet 
been implemented.

    Answer. Due to the classification of this subject matter, the 
Department is submitting a response to the committee under separate 
cover.


    Senator Perdue. I do have one last question. Going back to 
Haiti, I did not get to follow up on that.
    The GAO issued a report in 2015 on part of what we spent, 
about $1.7 billion, and it came with two observations, that 
they found a lack of planning for sustainability of non-
infrastructure projects, non-infrastructure. And then also a 
lack of USAID-wide guidance on how missions should plan for the 
sustainability for their infrastructure projects.
    So two observations. My question is, is what has USAID done 
to follow up on that report and use Haiti as a learning 
experience for future investments like that?
    Mr. Napoli. I am not as familiar with the exact way that we 
responded to the GAO. We can bring that back to you, but thank 
you for asking.


    [See Responses to Questions for the Record Submitted to 
Roman Napoli by Senator David Perdue, Question 2.]


    Senator Perdue. No, that is fine.
    Mr. Napoli. I think in terms of lessons learned, there are 
two things that really stand out to me. There were a number of 
investments. The port is one of the issues. I mean, we were 
really trying to support economic recovery in Haiti after the 
earthquake, and you know, we had an option of building a new 
port in the northern part of the country or refurbishing the 
existing port.
    And we were able to use cost-benefit analysis, use market 
research, use a number of tools at our disposal, and we were 
able to pick an option that actually was more cost effective. 
So before the first taxpayer dollar went into that project, we 
knew we had kind of made the best choice with the information 
we had.
    Something else that I would allude to is our ability to 
bring in the diaspora, and how valuable they can be. The 
Haitian community is so strong and had such a strong response 
to the events. And that is something we really want to keep 
building on, and that is something we have learned.
    When we had the earthquake in Nepal and other places, we 
continue to learn. It is a lesson that is refreshed to us all 
the time, where we remember and those communities bond together 
in a time and a place around a certain kind of crisis. And we 
can work with them to leverage a lot of that and really do 
something very special in the aftermath.
    Senator Perdue. Well, thank you all. We obviously want to 
be good stewards of taxpayer money, and that is why we had this 
hearing. I appreciate your preparation and your testimony 
today.
    But I also want to talk to you and thank you for your 
career of service. I mean, we can never do this enough. The 
most humbling thing I have had is to meet men and women in 
uniform. Senator Kaine has a son that is in Africa now, I 
believe?
    Senator Kaine. Back home now.
    Senator Perdue. Back home now, but has been serving over 
there. And then you see people in the State Department that 
every 2 years, they are moving their family and so forth, 
putting themselves in harm's way. And I just want this for the 
record to go back that this is a nonpartisan observation, but 
how much we appreciate that.
    We are trying to make sure they are safe. We are trying to 
make sure this is a career they can continue to build, and they 
are going to continue to get support from the United States 
Senate.
    So thank you guys for being here. We really appreciate your 
testimony.
    Thank you.
    [Whereupon, at 3:59 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

            Responses to Questions for the Record Submitted
               to Douglas Pitkin by Senator David Perdue


    Questions 1 and 2. Based on our discussion, I would like to ask a 
few more questions on recent broader trends in the State Department's 
budget. Looking at your overall budget request for the International 
Affairs budget for FY 17, it represents a 25 percent increase since FY 
2008 in constant dollars.
    What accounts for this increase in the budget since FY 2008? What 
accounts caused this increase? What were your biggest driver of 
increased spending?
    Overall, this budget request appears to have some shifting 
priorities since FY 16. While the overall request has gone down by 
about one percent, the request for diplomatic engagement has gone up 4 
percent. However, the overall the overall foreign assistance request 
has decreased by 3 percent.
    Is that the right direction we should be going in? How do you 
account for spending more here in Washington, D.C. and less on foreign 
assistance?

    Answer. Increases in spending by the Department of State and USAID 
since 2008 are primarily due to a greater investments in humanitarian 
aid and the rising costs of maintaining the safety of our employees 
stationed overseas.
    The Department and USAID have expanded foreign assistance programs 
in recent years to address increasing global challenges, including 
addressing conflict and insecurity in Syria, Iraq, South Sudan, the 
Central African Republic, the Democratic Republic of the Congo, and 
elsewhere. As part of this effort, humanitarian assistance needs have 
greatly increased, and we have responded robustly. In recent years, we 
have also expanded resources to address global health needs, the 
underlying causes of the migration crisis in Central America and to 
invest in Asia, as part of the administration's Asia Rebalance effort.
    The increase in the Diplomatic Engagement portion of the Department 
of State budget from FY 2008 to the FY 2017 request is largely 
attributable to an increase in funding for security projects over this 
timeframe. Authority for non-security spending has remained essentially 
flat, while security related spending has more than doubled.
    There are three major factors which have contributed to the 
increase in security related authority:


   The Department of State's priority on maintaining a presence in 
        conflict areas has required funding to protect our persons and 
        assets in those areas. The Department sees great value in 
        having Americans observing at the ground level in conflict 
        areas worldwide. This is true of our missions in Iraq, 
        Afghanistan, and Pakistan. It is also true of missions that the 
        United States maintained in conflict areas such as Libya and 
        Yemen. America needs a diplomatic presence in conflict areas to 
        counter terrorism, sectarian violence, and the spread of 
        conflicts beyond borders.

   The military draw-down in Iraq and Afghanistan has required that 
        security of American persons and assets be provided by State 
        resources. As the military presence has been reduced in these 
        two vital missions, the Department of State has taken on the 
        role of maintaining a secure environment from which United 
        States government personnel can operate. The security situation 
        in these two countries is not only very different now than it 
        was in 2008, but the number of military personnel is far 
        smaller than in 2008.

   Internal reorganizations have moved security related spending to a 
        handful of accounts, increasing these security accounts and 
        reducing the administrative accounts from which the funds were 
        moved. In FY 2008 much of the funding for Diplomatic Security 
        was in the Diplomatic and Consular Programs (D&CP) ongoing 
        operations account. Over time this funding has been moved to 
        the Worldwide Security Protection (WSP) account. Similarly, 
        security related funds in the Embassy Security, Construction, 
        and Maintenance (ESCM) account have moved into the Worldwide 
        Security Upgrades (WSU) account.


    The table below groups Diplomatic Engagement budget authority into 
four categories:

        FOUR CATEGORIES OF DIPLOMATIC ENGAGEMENT BUDGET AUTHORITY
D&CP Ongoing Operations           The non-security portions of the D&CP
                                   (19-0113) account
------------------------------------------------------------------------
Other Diplomatic Engagement       All other non-fee, non-security
                                   appropriated accounts except
                                   International Organizations (IO)
------------------------------------------------------------------------
Security Programs                 WSP, WSU, Protection of Foreign
                                   Missions and Officials
------------------------------------------------------------------------
International Organizations       Contributions to International
                                   Organizations (CIO), Contributions to
                                   International Peacekeeping Activities
                                   (CIPA)
------------------------------------------------------------------------


                      COMPARISON OF APPROPRIATED BUDGET AUTHORITY FOR DIPLOMATIC ENGAGEMENT
                    FY 2008 Actual Versus FY 2017 Request (Non-Adjusted Dollars in Millions)
----------------------------------------------------------------------------------------------------------------
                                                                                                      percent
                                                      FY 2008         FY 2017         percent         Change
                                                      Actual          Request      Change  (Non-     (Constant
                                                                                     Adjusted)      Dollars)\1\
----------------------------------------------------------------------------------------------------------------
Diplomatic and Consular Programs................          5,639           4,957            -12             -21
Other Non-Security Diplomatic Engagement........          1,439           1,852              29              16
----------------------------------------------------------------------------------------------------------------
Security Related Programs.......................          1,949           5,332             174             146
----------------------------------------------------------------------------------------------------------------
  Worldwide Security Protection.................          1,179           3,715             215             183
  Worldwide Security Upgrades...................            747           1,587             112              91
  Protection of Foreign Missions and Officials..             23              30              30              17
----------------------------------------------------------------------------------------------------------------
International Organizations.....................          3,473           3,932              13               2
----------------------------------------------------------------------------------------------------------------
  Contributions to International Organizations..          1,409           1,387             -2             -12
  Contributions to International Peacekeeping             2,064           2,545              23              11
   Activities...................................
================================================================================================================
    Total Administration of Foreign Affairs.....         12,500          16,073              29              15
----------------------------------------------------------------------------------------------------------------
\1\ Dollars adjusted using CPI-U BLS full year average for CY 2008 and OMB President's Budget FY 2017
  Assumptions for FY 2017.



    Question 3. The growing dependence on OCO to fund America's 
development and diplomacy programs means that a broad range of programs 
and accounts that are designed to meet long-term commitments, and 
historically were funded in the base budget, now receive a significant 
share of their funding through a temporary funding mechanism. Given the 
strain on discretionary resources, this flexibility is important in the 
short-term but has led to a significant shift in funding from base to 
OCO for certain programs. For example, nearly 100 percent of U.S. 
assistance to Jordan is funded through the OCO account in this year's 
budget request. In another example, the line item for ``Contributions 
for International Peacekeeping'' went from being fully base-budget 
funded in FY 2015 to now 66 percent of the amount has been shifted to 
OCO in FY 2017.


   Could you expand on the administration's thinking behind these 
        major shifts in funding for long-term programs specifically?


    Answer. The Overseas Contingency Operations (OCO) portion of the FY 
2017 Request for the Department of State and USAID is $14.9 billion, 
consistent with the Bipartisan Budget Act of 2015. The Department is 
also concerned about the shift in balance between base and OCO funding, 
particularly the substantial increase in OCO funds as compared to base. 
The Department looks forward to working with Congress to restoring 
enduring funding levels as we move toward the FY 2018 budget. The 
President's Budget actually anticipates this by planning for the 
restoration of $8.7 billion to the International Affairs base budget in 
FY 2018.


    Question 4. The world is facing unprecedented humanitarian crises--
conflict and disaster have displaced millions of people. In June 2015, 
the U.N. High Commissioner for Refugees (UNHCR) reported that 
worldwide, nearly 60 million persons were forcibly displaced--the 
highest number on record. Despite these record highs, the total U.S. 
humanitarian assistance request is $6.156 billion--that's 20 percent 
less than FY 2016. Further, the amount in the Migration and Refugee 
Assistance account in this year's request decreased by $267 million.


   What accounts for this significant decrease? Particularly when the 
        causes of this mass migration have yet to be solved?

    Answer. Humanitarian assistance remains a top priority for the 
administration. The United States continues to be the largest bilateral 
contributor of humanitarian assistance funding. The FY 2017 Request 
includes $6.2 billion in humanitarian assistance, which is over $500 
million above the FY 2016 Request of $5.7 billion.
    In concert with the significant resources provided by Congress in 
FY 2016, the funding included in the FY 2017 Request will help to meet 
humanitarian assistance needs globally over the next two years.


    Question 5. State Department officials have also suggested that the 
proposed funding reduction assumes an increased share of the 
humanitarian assistance burden will be taken on by other donors.


   Is responding to humanitarian needs brought on by political crisis, 
        such as in Syria and Iraq, different from those brought on by a 
        natural disaster, such as the earthquake in Nepal or typhoon in 
        Micronesia?

   Does the cause of the suffering come into play when the United 
        States prioritizes recipients of humanitarian assistance?

   How do you respond to critics who argue that humanitarian 
        assistance may actually prolong political crisis?


    Answer. While there are some similarities in the response to 
natural disasters and complex emergencies--including addressing 
immediate humanitarian needs such as access to temporary shelter, food, 
clean water and sanitation--there are important differences in 
response. In a nation that generously welcomed international assistance 
to respond to a natural disaster, such as the Government of Nepal after 
the 2015 earthquake, the politics of humanitarian aid are starkly 
different from a case like Syria, where the government is a party to 
ongoing conflict that is displacing large numbers of people and is the 
primary cause of growing humanitarian needs.
    Despite differences in response, the United States prioritizes 
humanitarian assistance based on need, whether that need arises from a 
man-made or natural disaster. While natural disasters often lead to 
quick responses, complex disasters caused by conflict may continue for 
years. Long-term, unceasing violence or oppression may mean that 
uprooted people aren't able to go home. For example, some 45 percent of 
refugees today have been displaced for five years or more. A child born 
in a refugee camp at the start of a crisis will often spend his or her 
entire childhood away from home.
    In addition to the United States, other traditional humanitarian 
donors include Western European governments, Canada, Japan, Australia, 
New Zealand and, more recently, the Republic of Korea. At critical 
junctures in the past few years, the Saudi Arabia, Kuwait and the 
United Arab Emirates also have given hundreds of millions of dollars to 
help cope with the emergencies in Syria, Iraq, and Yemen. We are 
working to expand cooperation with India in this area and to encourage 
China to become more engaged on humanitarian issues.
    Our efforts to increase engagement on humanitarian issues include 
diplomacy in addition to assistance programs. The United States is a 
leader in diplomatic efforts to resolve the conflicts at the root of 
humanitarian suffering, and we pursue political solutions both 
bilaterally and multilaterally. Humanitarian assistance does not 
prolong conflict, although it can sometimes distract leaders from 
focusing on political engagement.
    Humanitarian programs save lives, reduce suffering, and work 
towards durable solutions for those displaced by conflict and natural 
disaster. U.S. humanitarian assistance strives to advance America's 
humanitarian values, maximizing diplomatic and programmatic efforts to 
provide effective protection and assistance worldwide. The FY 2017 
humanitarian assistance budget request seeks to balance rising 
humanitarian requirements and a difficult budget reality in order to 
meet basic needs and sustain ongoing programs.


    Question 6. How does the current allocation of foreign assistance, 
both regionally and by sector, reflect larger U.S. foreign policy 
priorities?


   How could aid, as a tool for foreign policy, be allocated to more 
        effectively address strategic priorities?

   How will you manage foreign assistance programs differently, if at 
        all, in the absence of congressional directives?


    Answer. The President's FY 2017 Request for the Department of State 
and USAID includes $34.0 billion for foreign assistance programs. This 
request supports key national security, foreign policy, and development 
mission objectives. Regionally, the request includes $4.0 billion to 
counter Da'esh, respond to the crisis in Syria, and support 
humanitarian needs in the region. It requests $750.6 million to bolster 
the U.S. Strategy for Engagement in Central America and $873 million to 
support economic development and security efforts as part of the Asia 
Rebalance effort. It also requests $7.1 billion to support our goals in 
Africa, including advancing democracy, health, education, economic 
growth and security throughout the region.
    As part of these regional efforts, the Department of State and 
USAID are also requesting funds to support important investments in 
critical sectors across the globe. The request includes $2.7 billion 
for Democracy, Human Rights and Governance programming, one of the core 
strategic goals of this administration. It also includes $983.9 million 
to support the Global Climate Change Initiative and $561.8 million for 
basic education. These are just examples of the important cross-cutting 
programs requested as part of the FY 2017 Request. All of these 
investments, plus many others, are critical to ensuring the success of 
our broader foreign policy and development goals.
    The Department of State and USAID always work to ensure the funds 
are allocated to address strategic priorities. The development of the 
President's annual budget request for the Department of State and USAID 
begins at embassies and USAID missions around the world. These requests 
are based on country-specific priorities and strategies and are 
organized by mission objectives when they are submitted to the 
Department of State and USAID in Washington, DC. Department and USAID 
leadership then review the submissions from the embassies and missions 
overseas, and make tough decisions to ensure the request supports the 
most critical regional and global strategic priorities. In coordination 
with the Office of Management and Budget this results in a final budget 
request that advances the U.S. government's most important foreign 
policy, national security, and development objectives. The President's 
request reflects these priorities when it is submitted to Congress each 
year.
    Once an appropriation bill is passed, the allocation of funds must 
abide by funding directives included in the bill as well as the 
Statement of Managers, as required. Within these guidelines, the 
Department and USAID work to ensure the best allocation of resources in 
support of strategic foreign policy priorities.
    The Department of State and USAID have many shared priorities with 
Congress. While many congressional funding directives support these 
shared goals, including advancing democracy or education across the 
globe, we must be able to respond to changing circumstances and adapt 
as needed. Often times the world looks different from the time we 
submit our request until the time we receive our final appropriation. 
We need to remain nimble.
    In the absence of congressional directives, we would allocate 
funding according to the President's request, which sustains projects, 
programs, and activities supported by Congress, taking into account 
changing circumstances, prior year funding availability, and any new 
needs that have emerged since the request was submitted. This would 
reduce our dependence on transfer authorities, which, while incredibly 
valuable, can be time consuming to execute and thus hinder our ability 
to move funds and respond quickly.


    Question 7. As we touched on during the subcommittee hearing, I am 
very interested in the Embassy, Security, Construction, and Maintenance 
(ESCM) account trends, and I appreciate your offer to relay more 
information on this topic. Currently, how much prior-year Embassy 
Construction money is still unobligated? Why has that money not been 
spent yet? Why is the State Department requesting a 6 percent increase 
in Embassy Construction funds, when you still have significant carry-
over from prior years?

    Answer. Due to the multi-year nature of the Department of State's 
overseas construction projects, the Embassy Security, Construction, and 
Maintenance (ESCM) account is a no-year appropriation that is available 
until expended. The Department, with congressional encouragement, 
budgets the full cost of each project up front, but those funds are 
obligated over several years through the life of the project. 
Typically, 60-70 percent of the budget is obligated in the first year 
with the award of the construction contract. The remaining 30-40 
percent is obligated in subsequent years for ongoing project costs such 
as the Department's on site project supervision and construction 
security, telephone systems and furniture, and construction 
contingency.
    There is currently $8.6 billion unobligated in the ESCM account, of 
which $8.0 billion, or 93 percent, is associated with over 80 major 
construction and renovation projects that are in various stages of 
design or construction. Nearly $3 billion of this is for projects under 
design for which construction contracts are planned for award by the 
end of 2016.
    All of the unobligated funding is associated with ongoing projects 
and will be obligated as those projects are completed. Therefore, it is 
not available for new projects to offset the amounts requested in the 
FY 2017 budget. In the event that projects have remaining balances upon 
completion, the Department will apply those funds to future projects 
via the congressional reprogramming process.
    The six percent increase requested in FY 2017 is associated with an 
increase in Overseas Contingency Operations (OCO) funding to support 
the final components of transition in Kabul. The FY 2017 ESCM request 
for Kabul is $282 million, which is an increase of $158 million over 
the FY 2016 appropriation. Excluding the increase for Kabul, the 
remainder of the ESCM request is actually a $23 million decrease from 
the FY 2016 level.


    Questions 8 and 9. How often are contractors' bids less than what 
you budgeted for the project? Please provide specific historical 
examples, if applicable.


   I understand the FY 2017 budget request includes plans for four new 
        embassy construction projects. Please supply any information 
        you have on these new projects, including location, projected 
        timeline, projected cost, and justification for each project.


    Answer. The FY 2017 request includes funding for the construction 
of several major projects that are currently under design. They include 
new embassy compounds in Guatemala City; new annexes and security 
upgrades in Kampala, Nairobi, and New Delhi; a Marine security guard 
residence and official parking structure in Paris; and the major 
rehabilitation of embassy facilities in Athens and Moscow. The request 
also includes construction funding for security and renovation projects 
in Kabul. These are the only construction projects for which funding is 
requested in FY 2017.
    In addition to the projects included in the FY 2017 request, the 
Department has 75 ongoing major projects that were funded in prior 
years. All of these projects are at locations that are among the 
Department's most vulnerable, with facilities that do not conform to 
security standards and do not meet co-location and operational 
requirements. The construction of new facilities is the only feasible 
option to provide a consolidated, secure, safe, and functional embassy 
or consulate. The complete list of projects in design or under 
construction, as of March 2016, is detailed below.


                  ONGOING EMBASSY CONSTRUCTION PROJECTS
------------------------------------------------------------------------
                                                  Total        Planned
            Post             Type of Project     Budget      Completion
                                                (1,000's)       Date
------------------------------------------------------------------------
Amman......................  NOX and               224,600       Oct-18
                              chancery rehab.
Ankara.....................  NEC............       528,100       Sep-19
Ashgabat...................  NEC............       271,670       Jul-18
Asuncion...................  NEC............       234,682       Aug-20
Athens.....................  Compound rehab.       317,000       Feb-21
Beijing....................  Annex..........       135,100       Mar-16
Beirut.....................  NEC............     1,167,100         2022
Belmopan...................  MSGR...........        21,700       Apr-17
Belo Horizonte.............  COB............        42,292       Oct-17
Berlin.....................  Annex rehab....        91,300       May-18
Bishkek....................  Annex..........       170,800       Oct-16
Brasilia...................  Housing rehab..         2,300       Jan-17
Brazzaville................  Warehouse/shops        21,900       Feb-17
Brussels...................  NATO HQ fitout.       132,508       Sep-16
Colombo....................  NEC............       342,100       Jan-20
Dhahran....................  NCC............       339,300       Sep-19
Dhaka......................  Housing                 9,460       Jul-17
                              redevelopment.
Dushanbe...................  Warehouse......        21,500       May-17
Erbil......................  NCC............       655,871          TBD
Georgetown.................  Chancery/              50,800       Oct-16
                              Warehouse
                              rehab.
Guatemala City.............  NEC............       499,500       Aug-21
Guayaquil..................  MSGR...........        30,600       May-17
Harare.....................  NEC............       293,485       Jun-18
Hong Kong..................  Housing rehab..        32,000          TBD
Hyderabad..................  NCC............       364,896       Nov-20
Islamabad..................  NEC............     1,088,840       Mar-18
Jakarta....................  NEC............       497,800       Jun-18
Jeddah.....................  NCC............       287,600       Sep-16
Kabul......................  Annex/Housing..       967,900       Nov-17
Kampala....................  Annex..........       488,700       Oct-21
Karachi....................  Housing........        67,100       May-17
London.....................  New Embassy....     1,030,000       Dec-16
Manila.....................  Chancery rehab.       173,366       Apr-20
Maputo.....................  NEC............       284,117          TBD
Matamoros..................  NCC............       192,500       May-19
Mbabane....................  NEC............       141,000       Apr-16
Mexico City................  NEC............       943,065       Oct-21
Montevideo.................  Chancery              112,800       Mar-20
                              renovation.
Montreal...................  COB............        44,343       Oct-16
Moscow.....................  Annex..........       280,700       Aug-17
Moscow.....................  Compound rehab.       231,676       Oct-21
Moscow.....................  Housing rehab..         4,800       Sep-16
Moscow.....................  Compound               76,255       Oct-21
                              housing rehab.
Nairobi....................  Annex (Phase I)       130,823       Nov-19
N'Djamena..................  NEC............       230,032       Oct-16
New Delhi..................  NEC............       841,000         2024
Niamey.....................  NEC............       287,811       Apr-20
Nouakchott.................  NEC............       213,892       Oct-16
Nuevo Laredo...............  NCC............       156,000       Sep-17
Oslo.......................  NEC............       243,500       May-16
Paramaribo.................  NEC............       165,900       Aug-16
Paris......................  MSGQ/parking           59,042       Oct-19
                              garage.
Port au Prince.............  Housing/support       123,631       Apr-16
                              facilities.
Port Moresby...............  NEC............       212,300          TBD
Porto Allegre..............  COB............        59,245       Sep-16
Pristina...................  NEC............       261,500       Oct-17
Rangoon....................  American Center        26,277       Mar-17
                              rehab.
Recife.....................  Consulate              52,513       Nov-18
                              Office
                              Building.
Reyjavik...................  NAB fitout.....        62,404       Jul-18
Sanaa......................  Annex/housing..       278,000          TBD
Sanaa......................  DTFS...........        86,900          TBD
Sarajevo...................  Warehouse/shops        12,100       Aug-16
Shanghai...................  Consular               19,500       Dec-17
                              expansion.
Shenyang...................  COB............        17,421       Jan-18
Taipei.....................  NOB............       236,468       Dec-16
Tel Aviv...................  Chancery rehab.        55,100       Aug-18
The Hague..................  NEC............       220,000       Jun-17
Tijuana....................  MSGR...........        19,000       Sep-17
Tokyo......................  CMR rehab......         7,500       Feb-17
Tokyo......................  Housing rehab..         3,000          TBD
Vienna.....................  OSCE lease             39,570       Mar-16
                              fitout.
Vilnius....................  Phase II.......        42,200       Jul-16
Wellington.................  Chancery rehab.        65,750       Feb-17
Wellington.................  CMR rehab......         4,500       Dec-17
Wuhan......................  COB............        26,636       Nov-17
------------------------------------------------------------------------



    It is not uncommon for contractors' bids to be less than the 
government estimate from which the project budget was based. Such 
``savings'' on an individual project would not be enough to add a new 
project that was not in the annual spend plan, but an accumulation of 
several of those lower-than-expected bids, combined with savings from 
completed projects (final cost of a project was below the budget), may 
allow the Department to advance a project that was planned for a later 
year. Any such realignment of savings from one project to another 
requires Congressional notification.


    Questions 10 and 11. Additionally, how many ongoing embassy 
construction projects are included in this year's request? Please 
specifically outline each continuing construction project, along with 
the projected timeline, cost, and justification for construction or 
upgrades.


   How often are you able to add a construction project that was not 
        in your annual spending plan?


    Answer. The FY 2017 request includes funding for the construction 
of several major projects that are currently under design. They include 
new embassy compounds in Guatemala City; new annexes and security 
upgrades in Kampala, Nairobi, and New Delhi; a Marine security guard 
residence and official parking structure in Paris; and the major 
rehabilitation of embassy facilities in Athens and Moscow. The request 
also includes construction funding for security and renovation projects 
in Kabul. These are the only construction projects for which funding is 
requested in FY 2017.
    In addition to the projects included in the FY 2017 request, the 
Department has 75 ongoing major projects that were funded in prior 
years. All of these projects are at locations that are among the 
Department's most vulnerable, with facilities that do not conform to 
security standards and do not meet co-location and operational 
requirements. The construction of new facilities is the only feasible 
option to provide a consolidated, secure, safe, and functional embassy 
or consulate. The complete list of projects in design or under 
construction, as of March 2016 is detailed in table above (Answer to 
Questions 8 and 9).
    It is not uncommon for contractors' bids to be less than the 
government estimate from which the project budget was based. Such 
``savings'' on an individual project would not be enough to add a new 
project that was not in the annual spend plan, but an accumulation of 
several of those lower-than-expected bids, combined with savings from 
completed projects (final cost of a project was below the budget), may 
allow the Department to advance a project that was planned for a later 
year. Any such realignment of savings from one project to another 
requires Congressional notification.


    Question 12. Within the Embassy Security, Construction, and 
Maintenance (ESCM) request is more than $1 billion to provide for the 
Department of State's share of the Capital Security Cost Sharing (CSCS) 
program, which is an interagency shared funding mechanism designed to 
ensure that each U.S. government agency represented abroad is paying 
its fair share of construction costs for new and more secure 
facilities.


   Are all agencies fulfilling their commitments under this program?

   Please provide details and discuss any obstacles that may exist to 
        meeting the full $2.2 billion CSCS level called for by the 
        post-Benghazi Accountability Review Board. Has a failure of 
        others to pay for this expense led to an increased cost to 
        State for maintenance?


    Answer. While the vast majority of agencies are fulfilling their 
commitments under the Capital Security Cost Sharing (CSCS)/Maintenance 
Cost Sharing (MCS) programs, a few agencies are not.
    Some agencies choose to fund improvements to their spaces in 
overseas facilities to meet their own unique requirements outside the 
CSCS/MCS program. As spelled out in the Bureau of Overseas Buildings 
Operations' (OBO) annual program guidance, these are treated as agency-
specific projects, and do not qualify as credits to MCS. Yet one agency 
unilaterally claimed $68 million of unauthorized ``maintenance 
credits'' against its FY 2014 and FY 2015 CSCS/MCS bills for work they 
performed in their spaces in a number of Department of State 
facilities.
    In addition to the unauthorized maintenance credits, the same 
agency's FY 2015 congressional budget request under-funded its FY 2015 
contribution by $62 million, and subsequent Congressional action 
reduced their FY 2015 funding by an additional $25 million. This 
resulted in a combined FY 2015 deficit of $87 million. Their FY 2016 
appropriation reduced the request by $50 million. As a result, that 
agency will have underfunded the program by $205 million over FY 2014-
2016.
    A second agency had its appropriations for CSCS/MCS reduced by $7.5 
million in both FY 2015 and FY 2016, for a total of $15 million over 
the two-year period.
    The FY 2014 shortfall did result in the Department of State paying 
$38 million more than its fair share of the costs for the MCS program. 
In FY 2015, the shortfall resulted in the deferral of a critical 
rehabilitation project in Manila, Philippines.
    The Department believes that the cost sharing program is effective 
as currently structured, as long as agencies pay their fair share as 
required by legislation. Since its inception in FY 2005, the program 
has allowed the Department to fund more projects and relocate many more 
people to safe, secure, and functional facilities than would have been 
otherwise possible; to date more than 35,000 people have been moved. In 
addition to delivering a robust funding source for embassy construction 
and maintenance, the cost sharing mechanism provides an incentive for 
agencies to rightsize their overseas presence.
    Fully achieving the goals of the program is impeded by the failure 
of some agencies to pay their fair share--due either to internal 
decisions by the agency to pay less than the amount due, or to Congress 
failing to appropriate the amount requested by the agency to pay their 
bill. Congress has provided a remedy for such actions in Section 
7004(a) of the Department of State, Foreign Operations, and Related 
Programs Appropriations Act, 2016 (Div. K, P.L. 114-113), which states 
that:


         . . .  a project to construct a diplomatic facility of the 
        United States may not include office space or other 
        accommodations for an employee of a Federal agency or 
        department if the Secretary of State determines that such 
        department or agency has not provided to the Department of 
        State the full amount of funding required . . . 


    To date, the Department of State has not taken such action, as we 
have been working with the tenants to resolve their delinquent 
balances. However, the Department is strongly considering invoking 
Section 7004(a) this fiscal year should tenant agencies fail to provide 
their full share of the program.


    Question 13. The Diplomatic & Consular Programs budget request for 
FY 2017 represents a 6 percent increase from last year. This includes 
pay for local, non-U.S. staff at diplomatic posts.


   Could you explain why the Department set a policy to pay local 
        staff at posts at the 60th percentile or more of their local 
        labor markets?

   What is the justification for the 60th percentile tie?Why wouldn't 
        pay be based on the recruiting and retention needs of each 
        post?


    Answer. The Department of State endeavors to compete with other 
progressive local, multi-national and international employers in each 
of the labor markets where we employ local staff in support of our 
Missions.
    After the three-year wage freeze, the Department developed a policy 
and strategy to adjust the compensation of local staff in their 
respective local labor markets. In an effort to recalibrate the market 
position of our employees in their local labor market, the Department 
began moving employees from the 50th percentile of their local labor 
market (an average position in the market) to the 60th percentile of 
their local labor market when setting salary rates. As we continue to 
calibrate labor market positions and consistent with the policy, the 
Department developed criteria to determine how competitive a Mission 
needs to be in the local labor market based on a set of factors applied 
globally. These factors are: A) attrition, B) recruitment, C) economic 
and political uncertainty, D) unemployment, and E) unique labor market 
conditions. A review of these factors at each Mission is used to 
determine if placement should be at the 60th percentile or higher in 
order to recruit and retain the caliber of local staff needed to ensure 
our Missions advance priority policy and programmatic objectives.
    Pay is based on the recruiting and retention needs of each post. 
Each post calculates salary levels based on the local labor market. 
This ensures that salary amounts are individualized to each post's 
recruiting and retention needs. While the percentile level may be 
globalized, as needed, the actual dollar amounts differ.


    Question 14. In order to support implementation of its new Cuba 
policy, $3.8 million is requested within the Diplomatic and Consular 
Programs account for infrastructure improvements to the U.S. embassy in 
Havana (converted from an interests section last year), and additional 
funds are requested for additional staffing at the embassy.


   Could you describe what impact, if any, that the conversion of the 
        Interests Section to an Embassy has had on our bilateral 
        relationship?

   What further steps, if any, are contemplated in the context of this 
        budget in support of the new administration's Cuba policy?


    Answer. U.S. Embassy officials are able to travel more freely in 
Cuba since the re-establishment of diplomatic relations. For the first 
time in decades, some embassy staff can travel throughout the island 
without providing advance notification to Cuban government officials. 
Free travel allows us to broaden our contacts with average Cubans and 
promote more diverse people-to-people engagement.
    U.S. officials at the U.S. Embassy in Havana are also able to more 
effectively engage with a broad range of Cuban government counterparts 
since the re-establishment of diplomatic relations. As a result, U.S. 
and Cuban officials, including U.S. Embassy officials, were able to 
negotiate an arrangement to restore scheduled air service between the 
United States and Cuba, sign a joint statement on environmental 
protection cooperation, and agree on a pilot program for the direct 
transportation of mail between the United States and Cuba. These 
instruments, as well as others we are negotiating related to 
counternarcotics cooperation, law enforcement cooperation, and oil 
spill prevention and response, put in place the mechanisms for 
bilateral cooperation on these issues going forward.
    Additionally, re-establishing diplomatic relations has facilitated 
bilateral dialogues with Cuban government officials regarding important 
areas in which we had previously limited engagement, such as U.S. 
claims against the Cuban government.
    The FY 2017 budget request for Diplomatic and Consular Programs 
would allow U.S. Embassy Havana to increase staff and improve the 
embassy's unsafe and aging facilities. At present, our diplomats work 
in poor and deteriorating conditions. The budget request would support 
basic repairs. The U.S. Embassy requires additional U.S. personnel to 
support an already overburdened platform. Since August 2015, the 
embassy has supported a range of high-level visitors, including a visit 
by the President and four Cabinet-level officials, four separate 
Cabinet-level visits, and visits by more than 50 members of Congress. 
This high-level focus will not subside any time soon.
    A mixture of reporting and support positons are required to deepen 
U.S. understanding of Cuba's political, social, and economic 
environment; oversee maintenance upgrades; conduct human rights 
monitoring and advocacy; and deepen law enforcement cooperation on 
issues such as fugitives and counternarcotics. Adding these positions 
is vital to protecting U.S. national security and advancing U.S. 
national interests, especially our economic and commercial interests.


    Question 15. The State Department, as requested, has been provided 
by the Congress with a substantial influx of additional resources since 
FY 2013 to address global diplomatic security needs.


   How are these resources contributing to the security of our 
        diplomats abroad?

   To what extent are the requests for higher levels of spending 
        likely to persist into future years?

   How are you balancing funding for and attention to securing high 
        threat posts against the possibility that less threatened posts 
        will be targeted--bearing in mind that Kenya and Tanzania were 
        not considered high threat when they were bombed in 1998?

    Answer. Diplomatic Security programs protect thousands of Chief of 
Mission (COM) personnel, and the facilities and data systems on which 
these personnel rely, at 275 overseas posts and 125 domestic offices. 
The Department's budget request reflects the administration's 
commitment to:


   Prepare U.S. government personnel posted overseas under COM 
        authority for assignments to critical and high threat posts;

   Manage a full spectrum of counterterrorism, criminal, and special 
        investigations to include violations of laws regarding U.S. 
        passports and visas, defensive counterintelligence programs, 
        and interagency liaison functions. Investigations include 
        analysis involving terrorist threats, incidents, and hostile 
        activities directed against U.S. government personnel, 
        facilities, and interests around the world;

   Provide robust and nimble information security protection that 
        keeps pace with changing technology;

   Leverage the latest physical and technical countermeasures for use 
        worldwide; and

   Conduct initial and periodic vetting of all employees and 
        contractors in positions that require security clearances, 
        access to sensitive intelligence, or public trust 
        certifications.


    The Bureau of Diplomatic Security conducts regular, integrated 
budget and performance reviews over the course of the fiscal year. 
These reviews inform resource requirements, and provide for the 
informed and accountable development of future budgets. Resources are 
finite. Therefore, the Department carefully manages its resources to 
ensure that emergent priorities are addressed as quickly as possible in 
order to keep our people safe at all of our posts worldwide. We apply 
the lessons learned from previous attacks to all of our facilities.
    Although the unique conditions at each post dictate a specific 
approach to providing security for facilities and personnel, such as a 
post-specific travel policy, there are a number of programmatic 
commonalities that apply worldwide, regardless of threat levels and 
local security environments, including:


   The need for construction of hardened, secure facilities with 
        setback where older facilities fall short;

   The use of appropriate technical and physical security technologies 
        and countermeasures;

   The development and maintenance of a well-trained, well-equipped 
        and flexible cadre of security professionals across a variety 
        of disciplines;

   Training to deal with enhanced-risk environments: the Foreign 
        Affairs Counter Threat (FACT) course will be required for all 
        Chief of Mission employees serving overseas by January 1, 2019;

   The deployment of a wide range of technical security equipment 
        needed to protect our facilities and people;

   Close cooperation with interagency partners and host country 
        security agencies to detect, deter and disrupt threats directed 
        against U.S. interests abroad; and

   Soft target funding for physical and technical security 
        improvements at international schools.


    While risk can never be completely eliminated from our diplomatic 
duties, we work to constantly mitigate it, regardless of the threat 
level. The Bureau of Diplomatic Security is also fortunate to retain 
no-year availability authority on Worldwide Security Protection 
funding. Continuation of this authority provides the Department 
essential flexibility to sustain complex, global security programs, and 
to adjust mitigation responses as security threats evolve, not only at 
high threat posts, but at all diplomatic locations.
    Additionally, the Department prioritizes the construction of safe 
and secure embassy and consulate facilities to replace those that are 
most vulnerable. Under the direction of the Bureau of Overseas Building 
Operations, 129 projects have been completed since the 1999 enactment 
of the Secure Embassy Construction and Counterterrorism Act--moving 
more than 35,000 people into safer and more secure facilities. Funding 
in FY 2013-2015 has allowed us to move forward with the following 
projects:


   FY 2013--New Embassy Compounds (NEC) in N'Djamena, Chad; 
        Nouakchott, Muaritania; Paramaribo, Suriname; and The Hague, 
        Netherlands; as well a new office annex in Amman, Jordan and 
        new housing in Karachi, Pakistan; and

   FY 2014--NECs in Ankara, Turkey; Ashgabat, Turkmenistan; Harare, 
        Zimbabwe; Maputo, Mozambique; and Pristina, Kosovo; as well as 
        New Consulate Compounds (NCC) in Erbil, Iraq and Nuevo Laredo, 
        Mexico. In addition, Marine Security Guard Residences were 
        funded in Belmopan, Belize; Guayaquil, Ecuador; and Tijuana, 
        Mexico.


    Question 16. The State Department requested more funds than were 
actually needed for Ebola response in FY 2015, and my understanding is 
that some of those funds are still floating around the State 
Department. Budget documents suggest that the proposed boost in malaria 
program funding would come in part from unobligated emergency funds to 
counter Ebola, if authorized by Congress.


   Could you discuss the $1.3 billion in unobligated Ebola funds?

   Why are these funds no longer needed to address Ebola?


    Answer. The Department of State and USAID were appropriated $2.5 
billion in Ebola emergency funds. As of January 1, $1.2 billion in 
foreign assistance funding and $34.3 million in diplomatic engagement 
funding has been obligated for the State-USAID Ebola emergency response 
and recovery efforts. $2.1 million in diplomatic engagement and nearly 
$1.3 billion in foreign assistance Ebola funding is unobligated. The 
bulk of this unobligated funding is, however, planned for critical 
ongoing Ebola response and recovery efforts in West Africa, including 
ensuring our ability to rapidly and effectively respond to new Ebola 
cases as well as addressing the needs of the survivor population, and 
activities to support the Global Health Security Agenda over the next 
five years.
    While the height of the Ebola epidemic is over, a majority of the 
unobligated Ebola funds are, in fact, still needed to sustain our 
ability to support Ebola recovery efforts and maintain our readiness to 
respond to flare-ups as they occur. While we do plan to maintain some 
resources to ensure we can meet ongoing Ebola needs, we anticipate some 
availability with remaining Ebola funds to address other critical 
health threats.
    Malaria remains a major cause of morbidity and mortality in sub-
Saharan Africa, with a number of high burden countries in West and 
Central Africa. Malaria globally infects over 200 million people and 
kills over 400,000 people annually. As such, the FY 2017 Budget 
proposes to allocate approximately $129 million from remaining USAID 
Ebola funds to fight malaria. The administration believes that this is 
an appropriate use of remaining Ebola emergency funds because malaria 
is a dangerous infectious disease that continues to kill many, 
particularly children under the age of five, including in the Ebola-
affected countries of West Africa.


    Question 17. Do you anticipate that the outbreak of the Zika virus 
in Latin America, which came to international attention after this 
budget request was formulated, will impact plans for global health 
assistance allocations in FY 2017?

    Answer. At this time, there are no changes to the FY 2017 Global 
Health request. The response to Zika requires immediate action. The FY 
2016 emergency supplemental appropriations request would be our primary 
response to Zika. We are also exploring additional authorities to use 
available funds, including remaining funds in the Ebola supplemental 
appropriations.
    We should not divert funding from other important Global Health 
challenges for Zika. This would undermine our ability to achieve 
important global goals--such as ending child and maternal deaths and 
protecting communities from infectious diseases, including completing 
the response to Ebola, building global health security capacity, and 
addressing tuberculosis. These issues currently claim millions of lives 
each year--and most of these deaths are preventable, and doing so has 
been a priority of the U.S. government for many years. The experience 
over the last several years with outbreaks of Ebola, SARS, MERS-CoV, 
avian influenza and Zika has underscored the point that infectious 
disease outbreaks will happen and they can have devastating impacts 
locally and globally if they are not prevented and mitigated.
    Ensuring effective prevention, detection and response of such 
outbreaks is at the heart of global health security. If Zika continues 
to spread around the world, and response needs exceed the emergency 
funding capacity we have requested, we will have to explore and review 
the options available to address the changing epidemic.


    Question 18. If unobligated funds are not necessary for Ebola 
programs, why did the Department choose not to apply them to addressing 
the Zika virus instead of seeking an emergency supplemental? Since the 
State Department has so much transfer authority, coupled with the 
unobligated funds, is a Zika supplemental really necessary?

    Answer. While we anticipate some availability with remaining Ebola 
funds to address other critical health threats, a majority of the funds 
are still needed to sustain our ability to support Ebola recovery 
efforts and maintain our readiness to respond to flare-ups as they 
occur. The FY 2016 Zika supplemental request of $376 million reflects 
our best estimate, given current information, of potential Department 
of State and USAID needs for the Zika response at this time; however, 
there remains significant uncertainty around the scope of the Zika 
challenges we will face. As such, the President's FY 2017 Budget and 
the FY 2016 Zika supplemental request authority to use unobligated 
Ebola funds for other infectious diseases, such as Zika, in addition to 
Ebola. This authority would allow us to consider the use of Ebola funds 
to address Zika and other future infectious disease outbreaks, if 
needed, beyond the currently identified needs. We should not short-
change our ability to address either of these important health 
challenges.
    We should not divert funding from other important challenges, 
particularly Global Health, for Zika. This would undermine our ability 
to achieve important global goals--such as ending child and maternal 
deaths and protecting communities from infectious diseases, including 
completing the response to Ebola, building global health security 
capacity, and addressing tuberculosis. These issues currently claim 
millions of lives each year--and most of these deaths are preventable, 
and doing so has been a priority of the U.S. government for many years. 
The experience over the last several years with outbreaks of Ebola, 
SARS, MERS-CoV, avian influenza and Zika has underscored the point that 
infectious disease outbreaks will happen and they can have devastating 
impacts locally and globally if they are not prevented and mitigated. 
Ensuring effective prevention, detection and response of such outbreaks 
is at the heart of global health security. If Zika continues to spread 
around the world, and response needs exceed the emergency funding 
capacity we have requested, we will have to explore and review the 
options available to address the changing epidemic.


    Question 19. Given the challenges the Ebola outbreak presented, how 
do you know that you've requested the right amount for the Zika virus 
response? Isn't this the type of contingency that State should normally 
be able to handle in your regular and OCO budgets?

    Answer. The Zika supplemental request reflects our best estimate 
given current information of potential needs to address Zika at this 
time, primarily in the Global Health Programs account. However, we 
continue to face significant uncertainty around the scope of the Zika 
challenges we will face.
    As such, the President's Budget and the Zika supplemental request 
expanded authority to use unplanned Ebola funds for ``other infectious 
diseases'' so we can consider the appropriateness of using Ebola 
contingency funds for Zika if needed beyond the needs identified.
    Similarly, Section 7058(c) of the Department of State, Foreign 
Operations, and Related Appropriations Act, 2015 (Div.J, P.L.113-235) 
potentially gives us another route to respond if Zika needs outpace 
what we have requested in the supplemental. But while we appreciate the 
flexible authority Congress provided to meet urgent health crises, we 
cannot keep diverting funds from other important health and development 
priorities to respond to outbreaks. We need to balance taking limited 
funds appropriated for other purposes with the needs of the current 
crisis.


    Question 20. The FY 2017 budget repeats the administration's FY 
2016 request for deep budgetary cuts to a number of State Department-
funded institutions. In your budget request, ``related programs'' 
decreases 35 percent from last year. This includes the Asia Foundation 
and the National Endowment for Democracy. According to the State Budget 
Justification, ``the mission entrusted to NED by Congress more than 30 
years ago remains as urgent and as important as it has ever been.'' If 
the NED's mission is as urgent and as important as it has ever been, 
please provide the department's rationale for requesting significantly 
lower funding for these organizations, as has been done in prior years.


   Is this a signal that these organizations are less important or 
        impactful than they historically have been?


    Answer. The Department of State recognizes the importance of both 
the National Endowment of Democracy (NED) and the Asia Foundation. 
However, given the Bipartisan Budget Agreement constraints on the 
enduring ``base'' funding for the Department of State and other 
agencies, the FY 2017 request required difficult tradeoffs among 
competing priorities, such as the normalization of Iraq, Afghanistan, 
and Pakistan ongoing operations into the base budget, and has 
necessitated constraints to other program and management priorities. 
The annual Department of State budget is spread across missions and 
programs worldwide, requiring trade-offs during the budgeting process. 
As a result, the FY 2017 request for both accounts was straight-lined 
from the President's FY 2016 request. While lower than FY 2016, the 
requested funding would be sufficient to maintain each organization's 
principal mission. Further both organizations have been successful in 
securing additional program funds income from other Federal and non-
Federal sources. In FY 2015, the Asia Foundation secured $68.7 million 
in other funding, and NED secured $1.8 million.


    Question 21. In the fiscal year 2014 omnibus appropriations bill, 
Congress told the administration that no less than $2.85 billion 
dollars should be spent on democracy programs, yet when the actual 
totals came in, only $1.9 billion had been spent.


   Can you please explain why democracy programs were underfunded by 
        nearly one billion dollars in FY 14?


    Answer. The U.S. government believes that Democracy, Human Rights 
and Governance (DRG) programs are essential to achieving and sustaining 
global development goals, as well as U.S. foreign policy objectives.
    As part of the annual budget process, and pursuant to Section 653a 
of the Foreign Assistance Act of 1961, USAID and the Department of 
State must provide a report to the Committees on Appropriations that 
details what our planning levels will be for all sectors and countries. 
Once there is agreement, the administration seeks to meet the 
Congressionally directed requirements, while supporting administration 
and Congressional priorities. In the end, in FY 2014, it was not 
possible to meet all Congressional directives and still fulfill these 
shared priorities.
    There are several reasons why we did not meet the suggested level 
for DRG in FY 2014. First, the amount of funding in a number of 
Congressionally directed sectors in the enacted bill were higher than 
requested, as such, tradeoffs were required to balance Congressional 
and administration priorities. Second, emerging opportunities or 
closing spaces required us to revise our planning and move some 
programming outside of where it was initially allocated or requested. 
Finally, there were account level reductions from the President's 
budget request and the FY 2013 enacted levels in FY 2014 that made it 
difficult to meet all of the shared priorities.
    The FY 2017 request for DRG programs for USAID is $2.3 billion, and 
we will continue to work towards meeting our highest priority goals in 
this sector, even when we face constraints.


    Question 22. Because democracy, human rights, and governance (DRG) 
funding was so hard hit in FY 2014 and again in FY 15, Congress for the 
first time included a hard protection for DRG funding in the FY 2016 
omnibus, stating that the administration ``shall'' spend no less than 
$2.308 billion on democracy programs. This was to prevent, for example, 
funds being diverted to clean water or climate programs that also 
happen to build good governance.


   How will the administration ensure that during the remainder of FY 
        2016 the full amount of this funding truly goes to DRG programs 
        and is not used for other programs that have merely a secondary 
        democracy or governance benefit?


    Answer. USAID appreciates Congress's support of Democracy, Human 
Rights and Governance (DRG) programs, which are an essential aspect of 
U.S. foreign policy and sustainable, global development.
    The $2.3 billion earmark in FY 2016 will be allocated to core 
democracy, human rights and governance programs. In addition, USAID and 
the Department of State will continue to measure and invest in the 
integration of DRG principles and practices into programming outside of 
the DRG sector. This responds to USAID's commitment to improve 
development outcomes through the integration of DRG principles in the 
2015 Cross-Sectoral DRG Integration Action Plan and is responsive to 
the 2015 Quadrennial Diplomacy and Development Review (QDDR), which 
contends that ``accountable, democratic governance is the surest way to 
expand social and economic opportunities'' and ``societies that allow 
citizens a say and a stake in their success are more stable, 
prosperous, and secure.''
    For example, an agriculture project that uses a community-based 
development approach to engage historically marginalized groups in the 
design and implementation of community development 
plansintegratesDRGprinciples, but would not fall within theDRG earmark 
set by the FY 2016 Appropriations bill.


    Question 23. In Africa, for example, DRG funding has decreased by 
almost 50 percent since FY 12, and between FY 12-FY 15, five countries 
(South Sudan, Liberia, DRC, Zimbabwe, and Kenya) received more than 60 
percent of the DRG funding for the entire region.During this same time 
frame, in Latin America and the Caribbean, four countries (Mexico, 
Colombia, Cuba, and Haiti) received 58 percent of the region's total 
DRG funding. In South and Central Asia, Afghanistan and Pakistan 
receive 98 percent of this funding.


   In the FY 2017 budget request, which countries receive democracy, 
        human rights, and governance funding and which do not?

   Why were the countries that are not receiving DRG funding under 
        this budget excluded?


    Answer. The 81 countries that would receive Democracy, Human 
Rights, and Governance (DRG) funding in the FY 2017 request, in 
addition to central and regional allocations, are noted in the summary 
tables of the of the Congressional Budget Justification. Several 
factors are used to determine the countries that will receive DRG 
funding:


   We consider the need for DRG assistance in a country based on the 
        specific country context.

   We assess whether DRG programs are likely to be effective, 
        including the willingness of the host government to permit such 
        programs to operate.

   We factor in U.S. government foreign policy and development 
        priorities, and prioritize countries based on the availability 
        of assistance resources after taking into account legislative 
        directives. In some cases, regional DRG funding is considered 
        to be a more effective approach than bilateral funding.

   In most cases, countries where we do not request DRG funding are 
        places where the need for DRG assistance is lower than 
        elsewhere, where it may be more difficult to conduct programs; 
        or where the likelihood of having an impact is very low.


    Question 24. How is the FY 2017 budget request reflective of the 
2015 Quadrennial Diplomacy and Development Review's (QDDR) conclusions?


   The QDDR is mentioned only in passing in the budget summary. How is 
        the budget investing in improving the Department's use of data 
        and diagnostics, a key theme of the QDDR?

    Answer. The FY 2017 budget request supports new initiatives in the 
2015 Quadrennial Diplomacy and Development Review's (QDDR) 
Implementation Plan with $6.4 million focused on the administration's 
diversity priority, cost saving opportunities pertaining to securing 
clearances for eligible family members as they move from post to post, 
our focus on countering violent extremism and data analytics and 
strategic planning efforts. Not all of the QDDR conclusions require 
additional FY 2017 resources to implement; rather, the Department is 
realigning resources to address these 2015 QDDR recommendations, 
specifically $4.7 million in FY 2016 resources are focused on QDDR 
initiatives.


   The over $12 million requested in the FY 2017 budget invests in 
        strengthening the Department's use of data analytics. This 
        funding supports: 1) the Global Engagement Center's efforts to 
        counter extremist groups' messaging; 2) the Department's focus 
        on rightsizing overseas staffing; 3) ensuring data is accurate 
        and up-to-date, particularly in Post Personnel, eCountry 
        Clearance (eCC), Active Directory, and the Real Property 
        applications; 4) analyzing public diplomacy data to advance our 
        U.S. foreign policy priorities and American interests, and; 5) 
        streamlining the budget and planning processes at the 
        Department.


    Question 25. The QDDR called for a broad discussion on physical 
risk with Congress and the American people, as well as adapting to a 
culture that supports programmatic risk to encourage innovation. Where 
do you believe we stand today in the discussion on these two sets of 
issues?

    Answer. Secretary Kerry has raised the issue of the risks and 
dangers inherent in conducting diplomacy in many parts of the world 
today. The Secretary has highlighted this issue in remarks to public 
audiences--including his October 2015 speech at Indiana University--and 
in conversations with Congress. In line with the Quadrennial Diplomacy 
and Development Review (QDDR) recommendation, we are currently planning 
to intensify our engagement with Congress, the private sector, NGOs 
partners and others about the realities of our work and the way we 
manage risk.
    In March of last year, the Department published a formal Risk 
Management Policy that emphasized that advancing U.S. foreign policy 
objectives involves diverse types of risk and requires employees to 
engage in risk management for the decisions and activities within the 
scope of their duties. A central goal of the new risk management policy 
is to guide employees as they identify, manage, and mitigate risks in 
developing policy and implementing programs. Since the guidance was 
published the Department has worked to institutionalize the new policy, 
and implement a standard approach for managing and mitigating risk 
across our work.


    Question 26. In the 2015 Quadrennial Diplomacy and Development 
Review (QDDR), the State Department pledged to enhance the use of data 
and diagnostics in decision-making. Can you tell us where these efforts 
stand, and what is included in the FY 2017 budget request to improve 
data collection and analysis?

    Answer. The Department remains committed to enhancing its data and 
its data analytics capacity. We recognize the importance that data and 
its analysis should play in policy and decision-making as well as in 
operations, planning, monitoring, and evaluation. The Department has 
recently chartered a small group of qualified data science officers and 
researchers, led by a senior Foreign Service Officer (FSO) who has been 
assigned as the Director of Data Analytics. This group aims to serve as 
a hub for data analytics by creating a community of practice dashboard 
that connects analytical offices. It is also performing limited data 
analytics functions for the Department and supporting other bureaus and 
offices that do not have analytical capability. Furthermore, per the 
2015 Quadrennial Diplomacy and Development Review (QDDR), the 
Department continues to expand on the foundation of its Enterprise Data 
Quality Initiative and build a common data platform for Department use.
    On a broader scale, over $12 million was requested in the FY 2017 
budget to further build the Department's broader data analytics 
capacity. This funding would support:


   The Global Engagement Center's efforts to counter extremist groups' 
        messaging;

   The Department's focus on rightsizing overseas staffing;

   Ensuring data is accurate and up-to-date, particularly in Post 
        Personnel, eCountry Clearance (eCC), Active Directory, and the 
        Real Property applications;

   Analyzing public diplomacy data to advance our U.S. foreign policy 
        priorities and American interests; and

   Streamlining the budget and planning processes at the Department.


    Question 27. Evaluation of progress and effectiveness should be 
driving the budget conversations in every federal agency.


   Can you provide any examples of how evidence and evaluation were 
        used to drive changes in programs, and ultimately, budget 
        decisions?


    Answer. In implementing the Department of State's evaluation 
policy, bureaus have launched a number of types of evaluations 
including program evaluations, process evaluations and organizational 
assessments. As seen in the examples below, these assessments and 
research have helped refine strategies and increase efficiencies.
    The Bureau of International Information Programs (IIP) conducted an 
evaluation of its American Centers that has provided senior staff with 
quantitative and qualitative information they can use to consider 
programmatic choices. A number of the evaluation recommendations--or 
key considerations--touch on the issue of strategy and focus. This 
material has supported or informed the IIP's current approach of 
focusing the majority of American Spaces funding on a smaller number of 
strategically important centers.
    The Bureau of African Affairs conducted an organizational 
assessment this past year examining how the bureau was organized, how 
workload compared to that of peer-bureaus, and how staff skillsets 
fulfilled requirements for their position. Findings indicated that the 
operational tempo of the bureau had increased relative to its staffing 
structure, and led to a reorganization of bureau structure and plans to 
augment certain skillsets in existing staff so that the bureau could 
fulfill mission requirements.
    The Bureau of Budget and Planning conducted an evaluation of its 
foreign currency exchange management in the past year. Benchmarking 
current processes helped identify options to better integrate post-
level exchange rate adjustments into budgeting, accounting, and 
reporting process. These recommendations provide guidance for designing 
a new foreign currency management system.
    The President's Emergency Plan for AIDS Relief (PEPFAR) in the 
Office of the Global AIDS Coordinator is an example of using multiple 
evaluations to shift the way a large program operates. As stated in the 
PEPFAR Blueprint for Creating an AIDS-free Generation, we must go where 
the virus is and put our resources where we can achieve the greatest 
impact. PEPFAR used data from evaluations to strategically target 
populations at greatest risk in geographic areas with the highest HIV-
burden. Expanding site-level data collection and analyses across the 
entire PEPFAR initiative permitted improved geographic mapping of the 
HIV epidemic and supported decision-making to strengthen programmatic 
impact and efficiency.
    A mid-term evaluation of a program by the Office of Global Women's 
Issues to provide new and expectant mothers with information, 
education, and support to improve maternal and child health found the 
implementer needed more empowered local staff, more local 
collaboration, and better ties to the Ministries of Health and 
Education in country. Lower literacy rates than the implementer had 
previously dealt with required a different design and approach to 
dissemination. Recommendations were used to correct the project course 
by providing solutions to meet the goal of a replicable, locally owned 
program. In addition, plans were made to use data from the mid-term 
evaluation to perform an end-of-project impact evaluation.
    In USAID's Mozambique mission, findings from an impact evaluation 
showed that pairing reading instruction interventions with school 
management support improved reading outcomes more than reading 
instruction alone. This shaped the implementation model and led to the 
government requesting that the activity be scaled up from 120 schools 
to 1,060 new schools, while expanding from grades two and three into 
grade one. The evaluation findings are also guiding the design of an 
early grade reading activity and recommendations on galvanizing 
community participation have been incorporated into the design of a new 
Mission-wide civil society advocacy activity. Other donors and the 
Ministry of Education have used the findings and recommendations to 
launch new early grade reading programs, community mobilization 
efforts, and applied research studies.
    In another example, USAID refocused health programming in the Latin 
America and Caribbean Region following baseline assessments and 
resulting criteria development. As part of strategic efforts to focus 
and concentrate on ending preventable child and maternal deaths, USAID 
reallocated resources from lower need, middle income countries to 
higher need, low income countries. Between FY 2008 and FY 2015, USAID 
graduated or phased out health programs in Honduras and El Salvador 
among other Latin American countries, following a family planning 
baseline assessment and established graduation criteria.


    Question 28. U.S. development assistance should foster long-term 
self-sufficiency and ultimately support partner countries transition 
from foreign aid. The FY 2016 Omnibus Appropriations bill included an 
important provision requiring all future country development strategies 
to include a plan for transitioning over time away from foreign 
assistance.


   How are you approaching these transition plans?
   Have you considered developing clear, measurable, and realistic 
        benchmarks for country transition, such as benchmarks for 
        social and economic progress across social groups, public 
        sector capacity, or the enabling environment for civil society 
        and the private sector?


    Answer. Transition planning is already being incorporated into 
USAID's Country Development Cooperation Strategies (CDCS). Decisions 
about the necessary scope of transition planning for a particular 
mission are made during the early stages of strategy development, 
including the type of transition a mission is planning and over what 
timeframe. For example, transition could include phasing out of a 
particular sector, planning to transition assistance from programmatic 
to advisory, or phasing out of a country entirely. Development 
strategies, including any transition planning, are cornerstones of our 
whole-of-government Integrated Country Strategies (ICS) and we will be 
requiring all of our missions to consider foreign assistance transition 
planning more broadly in ICS development going forward.
    As part of its efforts to transition away from historic levels of 
assistance, USAID recently has reduced its full mission presence to 
either a non-presence status or a smaller office in the following 
countries: Mongolia, Namibia, Benin, Albania, and Macedonia.
    Setting end goals for foreign assistance and benchmarks towards 
achievement of those goals is integral to our approach to transition 
planning for development. These goals and benchmarks will be dependent 
on particular country contexts, rather than set at a corporate level. 
Given the variety of contexts in which we work, and the range of U.S. 
government interests in those countries, our approach is to develop 
broad guidelines while preserving adaptability so that it may be 
responsive to local and U.S. government realities.


    Question 29. Some U.S. policymakers, including some members of 
Congress, have disagreed with the U.S. peacekeeping assessment level 
set by the U.N. General Assembly. Since FY 1992, with few exceptions, 
Congress has enacted a cap on U.S. payments to U.N. peacekeeping at 
levels below the established U.N. assessment. Your budget request this 
year is based on the U.N. peacekeeping assessment for the U.S. of 28.56 
percent, rather than the amount recognized by U.S. law, which is 27.14 
percent.


   What is the administration's position on this issue?

   How has the cap impacted recent budget requests and appropriations?

   More broadly, what impact, if any, has this issue had on U.N. 
        peacekeeping operations?


    Answer. The United States' role as a global leader demands that we 
continue to pay our U.N. peacekeeping assessments in full, at the rate 
assessed, so U.N. peacekeeping missions have appropriate resources 
available to carry out their life-saving mandates. While Congress 
passed legislation in 1994 (P.L. 103-236) capping our use of 
appropriated funds for peacekeeping assessments at a rate of 25 
percent, Congress also raised the cap for calendar years (CY) 2001 
through 2012 to authorize the use of appropriated funds to pay U.S. 
assessed peacekeeping expenses in full.
    The current U.S. peacekeeping assessment rate for CY2016 is 28.57 
percent. However, the Department only has the authority for FY 2016 to 
make payments from appropriated funds at the CY 2012 assessed rate of 
27.14 percent. Because of the administration's commitment to paying 
U.S. treaty obligations in full and on-time, the President's request is 
based on the current U.N. peacekeeping assessment rate, and accordingly 
requests raising the statutory cap so that the United States can pay 
our assessments in full.
    If the funds are appropriated without an associated cap lift, the 
United Nations may apply U.N. peacekeeping credits to pay the 
difference to the extent such credits are available. If there are not 
adequate credits to address the difference, the cap will cause the 
United States to accrue new arrears. The reliance on credits is not a 
sustainable practice as there may not be sufficient peacekeeping 
credits to address future shortfalls caused by the statutory cap.
    The gap between the actual U.S. assessment rate and the amount of 
the U.S. payment will deprive the United Nations of the full amount of 
funding that the General Assembly appropriated for peacekeeping 
missions. Reductions in U.S. payments can strain important U.N. 
peacekeeping operations or cause delays in reimbursements to troop 
contributing countries that can affect future troop rotations. Timely 
and full U.S. payment has helped to solidify the U.N.'s ability to 
attract and retain peacekeeping forces, strengthened U.S. leverage with 
troop contributing countries, and allowed us to more effectively shape 
and reform peacekeeping operations to deliver maximum impact. For 
example, in September 2015, President Obama convened the Leaders' 
Summit on Peacekeeping, which resulted in new and significant pledges 
of troops, police, and enabling capabilities to U.N. peacekeeping from 
over 50 countries and regional organizations. Paying late and accruing 
arrears undermines U.S. credibility and influence at the U.N., 
particularly on matters dealing with budget, finance, and management 
reform. In the past, this has affected world opinion regarding U.S. 
commitment to multilateral engagement and respect for the role of 
multilateral organizations, and has diminished U.S. influence even with 
our closest allies.


    Question 30. Roughly 10 percent, or $310 million, of State's 
Development Assistance program budget is going to support the Global 
Climate Change initiative (GCCI). With all of the development 
challenges in the world today, do you think it is appropriate to be 
spending 10 percent of the overall on climate change?

    Answer. Climate change represents a substantial threat to U.S. 
national security interests and development objectives. The 2014 
Quadrennial Defense Review (QDR) completed by the Department of Defense 
states that:


        Climate change poses another significant challenge for the 
        United States and the world at large. As greenhouse gas 
        emissions increase, sea levels are rising, average global 
        temperatures are increasing, and severe weather patterns are 
        accelerating. These changes, coupled with other global 
        dynamics, including growing, urbanizing, more affluent 
        populations, and substantial economic growth in India, China, 
        Brazil, and other nations, will devastate homes, land, and 
        infrastructure. Climate change may exacerbate water scarcity 
        and lead to sharp increases in food costs. The pressures caused 
        by climate change will influence resource competition while 
        placing additional burdens on economies, societies, and 
        governance institutions around the world. These effects are 
        threat multipliers that will aggravate stressors abroad such as 
        poverty, environmental degradation, political instability, and 
        social tensions--conditions that can enable terrorist activity 
        and other forms of violence.


    In late 2015, CIA Director John Brennan said the following while 
addressing the Center for Strategic and International Studies' Global 
Security Forum:


        Mankind's relationship with the natural world is aggravating 
        these problems and is a potential source of crisis itself. Last 
        year was the warmest on record, and this year is on track to be 
        even warmer. Extreme weather, along with public policies 
        affecting food and water supplies, can worsen or create 
        humanitarian crises. Of the most immediate concern, sharply 
        reduced crop yields in multiple places simultaneously could 
        trigger a shock in food prices with devastating effect, 
        especially in already-fragile regions such as Africa, the 
        Middle East and South Asia. Compromised access to food and 
        water greatly increases the prospect for famine and deadly 
        epidemics.


    U.S. leadership is essential to addressing these broad and wide-
reaching challenges. The Global Climate Change Initiative (GCCI) is the 
principal U.S. tool for providing technical assistance to developing 
countries confronting those challenges, and it serves a compelling U.S. 
national security interest. GCCI programs not only benefit our efforts 
to protect our climate system, they promote our broader development 
objectives. Virtually all GCCI programs have important benefits for 
food security, health, sustainability, economic development, poverty 
reduction, and regional stability, all of which benefit the U.S. and 
global economy.


    Question 31. Do you intend to come to Congress for a specific 
authorization of the Green Climate Fund? Do you believe it is 
appropriate for Congress to have oversight over U.S. participation in 
the Green Climate Fund?

    Answer. The Green Climate Fund (GCF) has been established as a 
multilateral trust fund--much like other multilateral funds, such as 
the Climate Investment Funds--and has approved its first round of 
projects. The Department issued a grant to support the GCF from 
resources provided in the Department of State, Foreign Operations, and 
Related Programs Appropriations Act, 2016 (Div. K, P.L. 114-113) 
(SFOAA). Specifically, in the SFOAA, Congress provided $4.3 billion in 
funding for the Economic Support Fund (ESF), an account that is used to 
fund environmental programs and many other foreign assistance programs. 
The ESF account is a primary account through which the administration 
requested funding to support the Green Climate Fund (GCF) in the 
President's FY 2016 budget request. While over one-half of the account 
is earmarked for specific programs or activities, the remainder is 
available for other programs to carry out the ESF authority in the 
Foreign Assistance Act. The administration is using a portion of those 
unallocated funds for the GCF under the ESF authority and section 
7060(c) of the SFOAA. While the SFOAA did not earmark funds 
specifically for the GCF, it also did not contain any restrictions on 
the use of FY 2016 funds for the GCF. Provision of ESF for 
environmental programs, including through grants to multilateral trust 
funds, is consistent with long standing practice.
    This administration takes its GCF oversight role seriously and we 
are working hard to ensure that GCF funding is used responsibly through 
our role on the GCF Board and our participation on two committees which 
oversee matters pertaining to oversight, the Ethics and Audit Committee 
and the Accreditation Committee. To that end, the GCF requires 
fiduciary standards and social and environmental safeguards that are 
among the strongest of all multilateral funds today. The Fund will have 
independent evaluation and integrity units, and Board proceedings and 
documents are among the most transparent of any multilateral mechanism.


    Question 32. I understand that USAID is often tasked with on-the-
ground implementation of certain State Department plans and 
initiatives, and in order for USAID to carry out these implementation 
efforts, State grants USAID a portion of its programmatic funding. 
However, these specific proportions transferred from State to USAID are 
not reflected in State's Congressional Budget Justification. As a 
matter of fact, in preparing for this hearing, I had to rely on 
``guess-timates'' from the Congressional Research Service on how much 
funding State transfers to USAID for different line items in the 
budget.


   In the interest of broader monitoring and evaluation, as well as 
        public transparency, why are these funds not clearly delineated 
        in either State or USAID's budget?


   Would it be feasible for State and USAID to begin disclosing these 
        amounts?


    Answer. The joint Department of State and USAID budget includes the 
resources needed by both agencies to advance national security 
priorities related to diplomacy and development. The Department and 
USAID work closely both in developing budget requests, and in 
implementing programs in the year of appropriation. Decisions about 
implementing mechanisms and implementing partners are made in the year 
of appropriation, based on assessed needs on the ground, evolving 
circumstances (which USAID and the Department monitor), priorities, 
implementation capacity, and available implementation mechanisms. There 
are times in the field where Department of State often relies on USAID 
to program and assist in planning the programming of resources, so the 
distinction of ownership over funding can play a relatively small role 
in how projects are designed and implemented.
    While there can be differences from year to year, historically 
USAID generally administers all of the Development Assistance, Global 
Health Programs-USAID, Food for Peace Title II, International Disaster 
Assistance, and Transition Initiatives accounts. In most years, USAID 
has fully administered funding in the Complex Crisis fund account as 
well. In addition, USAID fully implements the USAID Administrative 
Expense accounts: USAID Capital Investment Fund, USAID Development 
Credit Authority Admin Expenses, USAID Inspector General Operating 
Expenses, and USAID Operating Expenses accounts. USAID has historically 
administered 93 percent of the Economic Support Fund, 70 percent of 
Assistance for Europe, Eurasia, Central America, and 60 percent of the 
Global Health Program-State accounts.


    Question 33. As this administration contemplates the way forward in 
Afghanistan, I hope that we have learned the lessons of Iraq, and don't 
find ourselves with another power vacuum. The intelligence community 
testified earlier this month that, quote, ``Afghanistan is at serious 
risk of a political breakdown in 2016.''


   To what extent does the aid request (of $1.25 billion) for FY 2017 
        seek to prevent or mitigate the effects of such a potential 
        breakdown?

   What criteria will the administration use to determine whether the 
        Afghan government is meeting the conditions to receive the 
        total amount of the aid?


    Answer. The FY 2017 foreign assistance request and already-
appropriated resources at work in Afghanistan are essential to the 
success of our strategy to help Afghanistan build sustainable 
stability. At a strategic level, the Government of Afghanistan works 
closely with and greatly values the engagement and financial support 
provided by the international community. During the protracted election 
process in 2014, the United States, in coordination with our 
international partners, emphasized to Afghan leaders that continued 
financial and political support depended on a peaceful, constitutional 
handover of power from President Karzai to his democratically elected 
successor. Shortly after the formation of the Government, President 
Ghani and Chief Executive Officer Abdullah, presented their ``Realizing 
Self-Reliance'' strategy paper to international donors at a major 
conference on Afghanistan in London.
    As part of our policy to support Afghan reform and greater self-
sufficiency, the Department of State and USAID employ incentive 
programs linked to Afghan government actions in a wide array of policy 
areas. These incentive programs include conditions that the Afghan 
government must meet to receive additional on-budget assistance. 
President Ghani and CEO Abdullah encouraged the development of these 
programs, which include the U.S.-Afghan New Development Partnership 
(NDP), the counternarcotics-related Good Performers Initiative, and 
multilateral mechanisms like the Afghanistan Reconstruction Trust 
Fund's (ARTF) Incentive Program, as a means of demonstrating 
accountability for the performance of the Afghan government.
    In 2017, we expect to continue the innovative NDP that was 
initiated during the visit of President Ghani and Chief Executive 
Abdullah in 2015. The NDP reserves a portion of our appropriate 
assistance funds for Afghanistan, and links the provision of those 
funds to the Afghan Government's achievement of specific, pre-
determined reforms and development results. The NDP conditions the 
provision of U.S. assistance on Afghan government progress in 
addressing corruption, improving the government's fiscal sustainability 
and management, reducing poverty, and empowering women. Incentive funds 
are released only after the government has demonstrated that they have 
met pre-determined benchmarks established at the outset of the 
partnership.
    Each incentive program is continuously monitored and reviewed at 
least annually to determine if the program is having the intended 
reform results. For instance, under the terms of the NDP, U.S. and 
Afghan officials consult at least once a year to review progress on the 
current set of targets and to determine if changes need to be made to 
future targets. The NDP target results are focused on countering 
corruption, improving fiscal sustainability, reducing poverty, and 
empowering women. In 2015, the Afghan government achieved 90 percent of 
its annual reform targets and qualified for $180 million out of the 
$200 million available in on-budget assistance. The ARTF incentive 
program, which is partially funded by the United States, works 
similarly to the NDP and links the disbursement of on-budget assistance 
to Afghan government performance on revenue targets, and the 
implementation of policy reforms related to governance, civil service 
reform, public financial management, investment climate, and trade 
facilitation.
    To further sustainability and reinforce the reforms required, our 
assistance programs focus on improving the functioning and 
effectiveness of the Afghan government. For example, we are 
implementing programs focused on improving the Afghan government's 
delivery of education and health services, which has an immediate 
impact on all Afghans and impacts local perceptions of the credibility 
of the government. We are working in a similar fashion to improve the 
functioning of the Afghan justice and correctional systems.
    Our assistance helps build a constituency for a stable government 
by providing Afghans with improvements and services that meet the needs 
of citizens and de-legitimize extremism. For example:


   According to The Asia Foundation, in 2015, two-thirds of Afghans 
        were satisfied with the quality of education their children 
        received.

   On average, nearly one million people per month are treated at 
        USAID-supported facilities; of these, 76 percent are women and 
        children younger than five. USAID has and will continue to 
        support the Ministry of Public Health in their efforts to 
        provide access to basic health care across Afghanistan. Women 
        and children have particularly benefitted from USAID's decade 
        long commitment to Afghanistan's health sector. Since 2002, 
        USAID has trained more than 12,000 community health workers and 
        over 2,500 midwives - half of the entire population of midwives 
        in the country. Furthermore, the Government of Afghanistan--in 
        conjunction with the Department of State--reaches approximately 
        28,000 patients per year in more than 100 drug treatment 
        centers.

   In 2015, women held 28 percent of seats in Parliament and four 
        cabinet positions, and 165 judicial positions.

   In 2015, after years of targeted assistance from USAID, the Afghan 
        government successfully acceded to the World Trade 
        Organization, and the Parliament is on track to ratify the 
        accession agreement.

   USAID recently completed the last segment of paved highway in 
        eastern Afghanistan from Gardez to Khost. This road will link 
        to the Pakistan border and open a strategic trade route.


    Question 34. With the U.S. presence in Afghanistan diminishing, how 
is the use of U.S. economic assistance monitored?


   What programs have been most successful in promoting governance 
        reform and economic growth?

   How flexible are U.S. programs to augment those that are working 
        and phasing out those that are not?


    Answer. U.S. agencies recognize the importance of program 
monitoring in Afghanistan to ensure the appropriate and effective use 
of our assistance funding. Due to the especially difficult operating 
environment in Afghanistan, the Department of State, USAID, and others 
have developed an innovative, multi-tiered monitoring approach for 
civilian assistance programs that allows for real-time assessment of 
how programs are functioning and whether they are achieving their 
intended results.
    This monitoring program draws on information from multiple sources, 
using independent monitors and various communications technologies to 
query recipients, local governments, and civil society on program 
performance. This monitoring information allows the United States to 
expand programs that are working well and to terminate programs that 
are not achieving results. When appropriate, we have changed course to 
refocus resources on more productive programs that have a greater 
demonstrated impact on Afghanistan's development.
    Both the Department of State and USAID are contracting with 
independent, experienced organizations to verify program performance in 
areas of Afghanistan that are not regularly accessible to U.S. 
oversight officials. The organizations that monitor and verify the 
implementation of our programs employ mostly Afghan staff to operate in 
areas less accessible to foreigners.


   USAID has a Monitoring Support Program in place to monitor project 
        activities, and has also developed technical monitoring 
        contracts to help oversee programs that require specialized 
        expertise, such as construction. The Department of State is 
        implementing a Flexible Implementation and Monitoring Team 
        contract that will provide monitoring services in locations 
        around Afghanistan. In a number of cases, smaller implementing 
        partners have bought into monitoring contracts administered by 
        larger agencies to augment available oversight tools.


    Below are a few examples of progress in Afghanistan attributable to 
U.S. assistance. We continue to review and analyze our current and past 
programs to assess impact and sustainability to help ensure we are 
supporting the most successful programs in promoting governance reform 
and economic growth:


   After years of targeted assistance from USAID, the Afghan 
        government successfully acceded to the World Trade Organization 
        in December 2015, and the Afghan Parliament is on track to 
        ratify the accession agreement by summer 2016. WTO membership 
        will anchor Afghanistan in a rules-based trading system, and 
        foster regional trade.

   The U.S.--Afghan New Development Partnership has focused Afghan 
        government attention on tackling corruption, improving fiscal 
        sustainability, reducing poverty, and empowering Afghan women. 
        In the first year of the partnership, the Afghan government met 
        90 percent of its targets and qualified for $180 million of the 
        $200 million available for disbursement. Moreover, the 
        achievements under the program directly contributed to a 20 
        percent increase in government revenues, re-establishment of 
        the Afghan relationship with the International Monetary Fund, 
        anti-corruption measures in customs collection, and the 
        establishment of a new procurement review commission.

   The average number of years that Afghan children attend school has 
        risen from 2.5 years to 9.3 years since 2000, and 67 percent of 
        Afghans are satisfied with the education that their children 
        receive. In 2002, roughly 900,000 boys and zero girls were 
        enrolled in school; by 2014, nearly eight million children 
        attended school, with girls comprising one-third of the student 
        population.

   With help from USAID and other donors, the government provides 
        basic health services to 2.3 million Afghan citizens a month. 
        Since 2002, infant mortality has decreased 53 percent; child 
        mortality rate has decreased 62 percent; and maternal mortality 
        has decreased 77 percent. Furthermore, the Government of 
        Afghanistan--in conjunction with the Department of State--
        reaches approximately 28,000 patients per year in more than 100 
        drug treatment centers.

   Women hold 27 percent of seats in Parliament, three cabinet 
        positions, and 165 judicial positions.

   We have also helped the Afghan government and private sector spur a 
        communications revolution with nearly 90 percent of Afghan 
        households owning a cell phone, and fostered the birth of a 
        vibrant, free media.

   The Department of State helped the government establish the Counter 
        Narcotics Justice Center (CNJC), which tries all high-level and 
        government official narcotics cases. With support from 
        specialized enforcement units mentored by the Drug Enforcement 
        Administration, and operations and maintenance support from the 
        Department of State and the Government of Britain, the Afghan 
        government has arrested and the CNJC has successfully 
        prosecuted a U.S- designated drug king pin and provincial 
        officials implicated in the drug trade.


    The United States has established an innovative, multi-tiered 
monitoring approach for assistance programs in Afghanistan that draws 
on information from multiple sources (including implementing partners, 
the Government of Afghanistan, other international donors, Afghan civil 
society, and third-party monitors) and allows us to assess in real-time 
how our programs are functioning and whether they are achieving 
intended results. This monitoring information allows the United States 
to adjust programs when they are not achieving results. When necessary, 
we have changed course to refocus our resources on more productive 
programs or to have greater impact on Afghanistan's development. As we 
fine tune our development activities, we also recognize that progress 
on many issues takes long-term, sustained work, and we employ multi-
year, national-scale projects to maximize impact.
    The review and monitoring of individual programs feeds into a 
broader, bi-annual portfolio review that helps assess whether our 
developmental priorities support our broader objectives and are able to 
be implemented given budgetary and other operational and strategic 
constraints.
    The following are examples of when USAID/Afghanistan identified 
problems in implementation through monitoring and evaluation processes, 
and changed its programmatic approaches:


   Democracy and Governance in Afghanistan: Computer-based video calls 
        (e.g., Skype) are one of the tools USAID uses to remotely 
        monitor democracy and governance training activities in 
        Afghanistan. In 2015, USAID monitored over 600 events. Thanks 
        to this process, USAID has been able to observe events even 
        when not physically present and take quick action to resolve 
        any identified problems. For example, during one municipal 
        budget training activity, it was observed that no females were 
        involved in the training program. USAID discussed their 
        observation with the implementing partner, which led the 
        implementer to increase its efforts to include females in 
        training activities.

   Infrastructure in Afghanistan: USAID committed to building a 
        critical, 101-kilometer road from Gardez to Khost in Western 
        Afghanistan to enable the transport of goods between 
        Afghanistan and Pakistan. USAID originally contracted with an 
        international construction company on the project; however, 
        after monitoring efforts revealed the contractor was struggling 
        to build community support for the project, which was causing 
        delays, USAID turned the project implementation over to a local 
        firm. As a result, the project proceeded much faster and was 
        recently completed.

   Education in Afghanistan: In August 2013, USAID/Afghanistan signed 
        an implementation letter with the Ministry of Education to fund 
        a community-based education program. The budget for the program 
        was $56 million over five years; this funding was intended to 
        be direct government-to-government assistance, provided to the 
        ministry based on achievement of key milestones. However, as 
        the Ministry of Education did not meet key targets in the 
        beginning of implementation, USAID/Afghanistan did not disburse 
        these funds through the direct government-to-government 
        mechanism. Instead, USAID worked with UNICEF to implement the 
        program. UNICEF has since partnered with the Ministry of 
        Education, as well as provincial and district education 
        offices, to improve community-based education in Afghanistan.


    Question 35. We are seeing some troubling developments in Ukraine. 
Earlier this month, Ukraine's economic minister and his full team 
resigned citing ingrained corruption as their reason for stepping down. 
A major focus of our assistance to Ukraine has been centered around 
countering this rampant corruption.


   Are we failing in Ukraine? Is Ukraine making sufficient efforts to 
        fight corruption and enhance the rule of law? If so, how?


    Answer. The Ukrainian government is implementing an ambitious anti-
corruption and rule of law reform agenda. Although Kyiv has made 
tremendous progress, much more must be done to root out corruption and 
advance democratic reforms. Our highest priorities for rule of law 
reforms are focused on improving the effectiveness of the operations of 
the new anti-corruption institutions; reform of the prosecutorial and 
judicial system; and police reform.
    Regarding the new anti-corruption institutions, the National Anti-
Corruption Bureau (NABU) has been established, along with a special 
anti-corruption prosecutor under the umbrella of the Prosecutor 
General's Office (PGO), and the two entities are working together to 
conduct investigations.
    In 2015, the Rada passed legislation to reform judicial self-
governance, and to change the processes for appointments, discipline, 
qualifications, and training for judiciary members. Constitutional 
amendments required to bolster judicial independence are moving through 
the Rada now.
    The most visible and celebrated reform has been the establishment 
of the new openly recruited patrol police that replaced the notoriously 
corrupt traffic police. In 2016, the new patrol police will be expanded 
to all oblast capitals. Our efforts to support Ukraine as it addresses 
anti-corruption focuses on greater government transparency that will be 
enhanced by new laws on e-procurement, public officials' asset 
disclosures, and transparency on media companies' ownership.
    These reforms will be critical to Ukraine's future and have been 
valiantly fought for by ordinary Ukrainians. The United States will 
continue to work with the Ukrainian government, civil society, and 
media to encourage further reforms during this critical time in 
Ukraine's history.


    Question 36. Ukraine is still facing constant Russian aggression--
both militarily and via propaganda. Is U.S. aid helping Ukraine's armed 
forces enhance its capabilities? Is non-lethal aid sufficient to help 
deter Russian aggression, or is some level of lethal aid needed?

    Answer. Through the $266 million in training and equipment the 
United States has committed since the start of the crisis, we are 
helping Ukraine's forces enhance their capabilities to monitor and 
secure their borders, operate more safely and effectively, and defend 
Ukraine's sovereignty and territorial integrity. Our security 
assistance has saved lives while helping to build Ukraine's long-term 
defense capacity.
    We have delivered non-lethal defensive equipment, including 
counter-battery radars, secure communications equipment, Humvees and 
up-armored civilian SUVs, medical equipment, and many other related 
items to help Ukraine protect its forces while defending against 
Russian aggression. We have stood up a multinational joint commission 
to better understand Ukraine's defense requirements and have sent 
advisors to promote long-term defense reform. In November 2015, we 
completed a training program for Ukraine's National Guard and are now 
training its conventional and Special Forces to increase their defense 
capabilities and institutional training capacity.
    We continue to work closely with Ukraine to identify requirements 
for security assistance. With your support, we intend to continue our 
efforts in FY 2016 to increase the defense capacity of Ukraine's 
conventional and Special Operations forces, State Border Guard Service, 
and National Guard.
    We have not ruled out sending lethal weapons to Ukraine. The United 
States continues to believe that there is no military resolution to the 
crisis, but Ukraine has the right to defend itself. We remain committed 
to supporting full implementation of the Minsk agreements, and our 
diplomatic efforts focus on supporting discussions in the Normandy 
format and in the Trilateral Contact Group to expedite their full 
implementation. We have provided significant non-lethal security 
assistance to Ukraine to help address the crisis, but our current focus 
is on finding a diplomatic solution.


    Question 37. What is the U.S. doing to help Georgia to hold free 
and fair elections later this year? Are there concerns about Georgia's 
democracy and adherence to the rule of law?

    Answer. In FY 2015, the U.S. government allocated more than $20 
million to promote democracy in Georgia. Funded programs seek to 
advance democratic political processes, strengthen civic participation, 
bolster independent media, and support the rule of law.
    The October 2016 parliamentary elections will represent a key 
moment in the transformation and consolidation of Georgia's democracy, 
which has made significant progress since independence. We are 
currently assessing the electoral environment to identify any unmet 
needs in advance of the elections. We will fund observation missions by 
international and local NGOs and plan to contribute observers to the 
OSCE observation mission. Electoral reform and safeguarding media 
freedom, civil society and political pluralism during the election 
season will be a key focus of the upcoming U.S.-Georgia Democracy 
Working Group.
    In FY 2015, the U.S. government allocated more than $20 million to 
promote democracy in Georgia. Funded programs seek to advance 
democratic political processes, strengthen civic participation, bolster 
independent media, and support the rule of law in an effort to 
reinforce government transparency, accountability, and responsiveness.
    Georgia has made significant progress since independence towards 
becoming a fully democratic state and is unique in the region in its 
commitment to democracy. Its 2012 and 2013 national elections resulted 
in the first constitutional change of power in a post-Soviet state, 
with the exception of the Baltics. The October 2016 parliamentary 
elections will represent another key moment in the consolidation of 
Georgia's democracy. It will be important for Georgia to maintain media 
freedom, promote political pluralism, and ensure independence of the 
judiciary as it moves toward these elections.


    Question 38. Could you describe the department's public diplomacy 
strategies in countering Russian propaganda efforts in Europe?


   How do you measure the success or failure of these strategies?

   To what extent do the BBG's broadcasting efforts contribute to 
        their success?

   Is the budget request adequate to ensure the strategy's success?


    Answer. The Kremlin is rapidly disseminating disinformation, part 
of a concerted effort to undermine trust in Western institutions and 
erode freedom of the press. Research shows that despite Moscow's 
efforts and resources devoted to this objective, they have limited 
effectiveness abroad: less than a third of Europeans polled outside of 
Russia are confident that Putin will do the right thing in world 
affairs or see Russia favorably. In these same European countries, 
views of the United States are much more positive; 69 percent viewed 
the U.S. favorably.
    Capitalizing on this public goodwill, the Department of State is 
leading a coordinated effort to support the free flow of information, 
expand independent media, root out corruption, and refute Russian 
government disinformation. Our efforts extend across a range of 
diplomatic tools as we proactively amplify key U.S. Government 
messages, correct disinformation, engage opinion leaders, encourage 
independent voices, and forge and maintain people-to-people ties.
    The Department employs a combination of short-term messaging 
strategies with medium- and long-term programs to boost resilience and 
build capacity to recognize and reject Russian government 
disinformation. The Department of State supports our overseas posts in 
times of heightened Kremlin messaging. Armed with the facts, our 
missions abroad are able to adapt the content and materials we supply 
to their own audiences and rapidly amplify the truth. We have also 
increased our capacity to deliver our messages proactively in Russian 
by forming a cadre of Russian-speaking officers to engage with the 
media and introducing a Russian-language, policy-oriented Twitter 
handle. We augment this messaging activity by providing foreign 
audiences with opportunities to engage directly with experts, opinion 
leaders, and third party groups.
    The Department of State is implementing programs that support 
independent media and investigative journalists in countries throughout 
the region, including Azerbaijan, Georgia, Macedonia, Moldova, Serbia, 
Ukraine, and the Baltics. We have developed exchanges to encourage 
independent media voices, including workshops on digital skills and 
investigative journalism, and support for a Digital Communicators 
Network of more than 1,000 members who bring accurate, objective 
information to regional audiences.
    At the same time, we are supporting efforts to engage ethnic 
Russian populations by expanding our English language training programs 
and professional exchanges. These cost-effective programs create 
lasting educational and professional linkages and increase English 
proficiency of students and educators, helping remove language as a 
barrier for thought leaders to understand U.S. policy and culture.
    U.S. public diplomacy also includes NATO and U.S. military outreach 
and media engagement. These high visibility engagements help dispel the 
Russian government's anti-NATO messages and serve as opportunities to 
explain our security partnerships. Last year the Under Secretary for 
Public Diplomacy and Public Affairs provided a new fund to support 
embassy public affairs teams in developing new, innovative public 
outreach projects pegged to U.S. military exercises in Europe. These 
interactions between people are the cornerstone of our strategy and 
absolutely essential in refuting disinformation.
    We continue to use our public diplomacy tools to deepen people-to-
people ties in an admittedly challenging political environment. In the 
past year, the Department of State designed and implemented a range of 
programs in the region that build relationships based on common 
interests and perceptions. Based on participant feedback, we know these 
programs are having a positive net effect. In addition to anecdotal 
evidence, we also conduct evaluations of our programs to ensure impact.
    The Broadcasting Board of Governors (BBG) receives steady input 
from the Undersecretary of State for Public Diplomacy and Public 
Affairs, who serves on the BBG to ensure its strategic planning is 
aligned with broader U.S. foreign policy goals. The BBG is an active 
participant in an ongoing working group at State, through which it 
apprises the Department of its efforts and provides analysis of current 
media trends. In its own work, the BBG maintains a robust response to 
Russian disinformation through the combined work of Voice of America 
and Radio Free Europe/Radio Liberty, which employ flexible, innovative, 
and cross-platform programming around the world to counter the 
Kremlin's strident anti-American messaging with fact-based journalism.
    The bureaus undertaking this important work ensure that our limited 
resources are directed, in the most effective way, toward implementing 
priority programs focused on countering Russian government 
disinformation.


                               __________

            Responses to Questions for the Record Submitted 
                 to Hari Sastry by Senator David Perdue

    Questions 1-5. Based on our discussion, I would like to ask a few 
more questions on recent broader trends in the State Department's 
budget. Looking at your overall budget request for the International 
Affairs budget for FY 2017, it represents a 25 percent increase since 
FY 2008 in constant dollars.


   What accounts for this increase in the budget since FY 2008?

   What accounts caused this increase?

   What were your biggest drivers of increased spending?


    Overall, this budget request appears to have some shifting 
priorities since FY 2016. While the overall request has gone down by 
about 1 percent, the request for diplomatic engagement has gone up 4 
percent. However, the overall foreign assistance request has decreased 
by 3 percent.


   Is that the right direction we should be going in?

   How do you account for spending more here in Washington, D.C. and 
        less on foreign assistance?

    Answer. Increases in spending by the Department of State and USAID 
since 2008 are primarily due to a greater investments in humanitarian 
aid and the rising costs of maintaining the safety of our employees 
stationed overseas.
    The Department and USAID have expanded foreign assistance programs 
in recent years to address increasing global challenges, including 
addressing conflict and insecurity in Syria, Iraq, South Sudan, Central 
African Republic, the Democratic Republic of the Congo, and elsewhere. 
As part of this effort, humanitarian assistance needs have greatly 
increased, and we have responded robustly. In recent years, we have 
also expanded resources to address global health needs, the underlying 
causes of the migration crisis in Central America and to invest in 
Asia, as part of the administration's Asia Rebalance effort.
    The increase in the Diplomatic Engagement portion of the Department 
of State budget from FY 2008 to the FY 2017 request is largely 
attributable to an increase in funding for security projects over this 
timeframe. Authority for non-security spending has remained essentially 
flat, while security related spending has more than doubled.
    There are three major factors that have contributed to the increase 
in security related authority:


   The Department's priority on maintaining a presence in conflict 
        areas has required funding to protect our persons and assets in 
        those areas. The Department sees great value in having 
        Americans observing at the ground level in conflict areas 
        worldwide. This is true of our missions in Iraq, Afghanistan, 
        and Pakistan. It is also true of missions that the United 
        States maintained in conflict areas such as Libya and Yemen. 
        America needs a diplomatic presence in conflict areas to 
        counter terrorism, sectarian violence, and the spread of 
        conflicts beyond borders.

   The military draw-down in Iraq and Afghanistan has required that 
        security of American persons and assets be provided by 
        Department of State resources. As the military presence has 
        been reduced in these two vital missions, the Department has 
        taken on the role of maintaining a secure environment from 
        which United States government personnel can operate. The 
        security situation in these two countries is not only very 
        different now than it was in 2008, but the number of military 
        personnel is smaller than in 2008.

   Internal reorganizations have moved security related spending to a 
        handful of accounts, increasing these security accounts and 
        reducing the administrative accounts from which the funds were 
        moved. In FY 2008 much of the funding for Diplomatic Security 
        was in the Diplomatic and Consular Programs (D&CP) ongoing 
        operations account. Over time this funding has been moved to 
        the Worldwide Security Protection (WSP) account. Similarly, 
        security related funds in the Embassy Security, Construction, 
        and Maintenance (ESCM) account have moved into the Worldwide 
        Security Upgrades (WSU) account.


    The table below groups Diplomatic Engagement budget authority into 
four categories:

        FOUR CATEGORIES OF DIPLOMATIC ENGAGEMENT BUDGET AUTHORITY
D&CP Ongoing Operations           The non-security portions of the D&CP
                                   (19-0113) account
------------------------------------------------------------------------
Other Diplomatic Engagement       All other non-fee, non-security
                                   appropriated accounts except
                                   International Organizations (IO)
------------------------------------------------------------------------
Security Programs                 WSP, WSU, Protection of Foreign
                                   Missions and Officials
------------------------------------------------------------------------
International Organizations       Contributions to International
                                   Organizations (CIO), Contributions to
                                   International Peacekeeping Activities
                                   (CIPA)
------------------------------------------------------------------------


                      COMPARISON OF APPROPRIATED BUDGET AUTHORITY FOR DIPLOMATIC ENGAGEMENT
                    FY 2008 Actual Versus FY 2017 Request (Non-Adjusted Dollars in Millions)
----------------------------------------------------------------------------------------------------------------
                                                                                                  Percent Change
                                                      FY 2008         FY 2017     Percent Change     (Constant
                                                      Actual          Request          (Non-        Dollars)\1\
                                                                                     Adjusted)
----------------------------------------------------------------------------------------------------------------
Diplomatic and Consular Programs................          5,639           4,957            -12             -21
Other Non-Security Diplomatic Engagement........          1,439           1,852              29              16
----------------------------------------------------------------------------------------------------------------
Security Related Programs.......................          1,949           5,332             174             146
----------------------------------------------------------------------------------------------------------------
  Worldwide Security Protection.................          1,179           3,715             215             183
  Worldwide Security Upgrades...................            747           1,587             112              91
  Protection of Foreign Missions and Officials..             23              30              30              17
----------------------------------------------------------------------------------------------------------------
International Organizations.....................          3,473           3,932              13               2
----------------------------------------------------------------------------------------------------------------
  Contributions to International Organizations..          1,409           1,387             -2             -12
  Contributions to International Peacekeeping             2,064           2,545              23              11
   Activities...................................
================================================================================================================
    Total Administration of Foreign Affairs.....         12,500          16,073              29              15
----------------------------------------------------------------------------------------------------------------
\1\ Dollars adjusted using CPI-U BLS full year average for CY 2008 and OMB President's Budget FY 2017
  Assumptions for FY 2017.



    Questions 6, 7, and 8. Some U.S. policymakers, including some 
members of Congress, have disagreed with the U.S. peacekeeping 
assessment level set by the U.N. General Assembly. Since FY 1992, with 
few exceptions, Congress has enacted a cap on U.S. payments to U.N. 
peacekeeping at levels below the established U.N. assessment. Your 
budget request this year is based on the U.N. peacekeeping assessment 
for the U.S. of 28.56 percent, rather than the amount recognized by 
U.S. law, which is 27.14 percent.


   What is the administration's position on this issue?

   How has the cap impacted recent budget requests and appropriations?

   More broadly, what impact, if any, has this issue had on U.N. 
        peacekeeping operations?

    Answer. The U.S. role as a global leader demands that we continue 
to pay our U.N. peacekeeping assessments in full, at the rate assessed, 
so U.N. peacekeeping missions have appropriate resources available to 
carry out their life-saving mandates. While Congress passed legislation 
in 1994 (P.L. 103-236) capping our use of appropriated funds for 
peacekeeping assessments at a rate of 25 percent, Congress also raised 
the cap for calendar years 2001 through 2012 to authorize the use of 
appropriated funds to pay U.S. assessed peacekeeping expenses in 
full.The current U.S. peacekeeping assessment rate for calendar year 
2016 is 28.57 percent. However, the Department only has the authority 
for fiscal year 2016 to make payments from appropriated funds at the 
calendar year 2012 assessed rate of 27.14 percent. Because of the 
administration's commitment to paying U.S. treaty obligations in full 
and on-time, the President's request is based on the current U.N. 
peacekeeping assessment rate, and accordingly requests raising the 
statutory cap so that the United States can pay our assessments in 
full.
    If the funds are appropriated without an associated cap lift, the 
United Nations may apply U.N. peacekeeping credits to pay the 
difference, to the extent such credits are available. If there are not 
adequate credits to address the difference, the cap will cause the 
United States to accrue new arrears. The reliance on credits is not a 
sustainable practice as there may not be sufficient peacekeeping 
credits to address future shortfalls caused by the statutory cap.
    The gap between the actual U.S. assessment rate and the amount of 
the U.S. payment will deprive the United Nations of the full amount of 
funding that the General Assembly appropriated for peacekeeping 
missions. Reductions in U.S. payments can strain important U.N. 
peacekeeping operations or cause delays in reimbursements to troop 
contributing countries that can affect future troop rotations. Timely 
and full U.S. payment has helped to solidify the U.N.'s ability to 
attract and retain peacekeeping forces, strengthened U.S. leverage with 
troop contributing countries, and allowed us to more effectively shape 
and reform peacekeeping operations to deliver maximum impact. For 
example, in September 2015, President Obama convened the Leaders' 
Summit on Peacekeeping, which resulted in new and significant pledges 
of troops, police, and enabling capabilities to U.N. peacekeeping from 
over 50 countries and regional organizations. Paying late and accruing 
arrears undermines U.S. credibility and influence at the U.N., 
particularly on matters dealing with budget, finance, and management 
reform. In the past, this has affected world opinion regarding U.S. 
commitment to multilateral engagement and respect for the role of 
multilateral organizations, and has diminished our own U.S. influence 
even with our closest allies.


    Question 9. The world is facing unprecedented humanitarian crises 
where conflict and disaster have displaced millions of people. In June 
2015, the U.N. High Commissioner for Refugees (UNHCR) reported that 
worldwide, nearly 60 million persons were forcibly displaced--the 
highest number on record. Despite these record highs, the total U.S. 
humanitarian assistance request is $6.156 billion--that's 20 percent 
less than FY 2016. Further, the amount in the Migration and Refugee 
Assistance account in this year's request decreased by $267 million.


   What accounts for this significant decrease? Particularly when the 
        causes of this mass migration have yet to be solved?


    Answer. The administration remains dedicated to providing strong 
support for humanitarian programs worldwide. The President's FY 2017 
request reflects the administration's ongoing commitment to these 
programs. The FY 2017 request level includes $1.957 billion for the 
International Disaster Assistance Account, $1.35 billion for Food for 
Peace Title II, $2.799 billion for the Migration and Refugee Assistance 
Account, and $50 million for the Emergency Refugee and Migration 
Assistance Fund. The overall FY 2017 request for humanitarian 
assistance is $511 million higher than the FY 2016 request. In concert 
with FY 2016 resources, the request will enable the U.S. government to 
respond to the dire humanitarian situation resulting from the conflicts 
in Syria, South Sudan, Iraq, Ukraine, Yemen, as well as the 
humanitarian needs resulting from El Nino.
    Thanks to generous support from Congress, the U.S. government is 
the largest humanitarian donor in the world, including to the crisis in 
Syria. We plan to continue our robust support in FY 2016 and FY 2017 
while urging other donors, including the Gulf nations, to contribute to 
these ongoing emergencies. We will continue to ensure that we are using 
funds as efficiently as possible in order to meet current and 
unforeseen needs.


    Question 10. Is responding to humanitarian needs brought on by 
political crisis, such as in Syria and Iraq, different from those 
brought on by a natural disaster, such as the earthquake in Nepal or 
typhoon in Micronesia?

    Answer. In conflict-related humanitarian crises, parties to the 
conflict, which often include the government, may openly refuse access 
to humanitarian aid operations. By comparison, the most common barrier 
to access in natural disasters often involves bureaucratic bottlenecks. 
Governments closely coordinate relief activities with the international 
community in responding to natural disasters, while in conflict-related 
crises governments do not necessarily take the same approach. Conflict-
related crises may also result in protracted, long-term displacement, 
while displaced people in natural disasters tend to stay closer to home 
and have fewer barriers to return, necessitating different responses to 
these two types of crises.


    Question 11. Does the cause of the suffering come into play when 
the United States prioritizes recipients of humanitarian assistance?

    Answer. The United States prioritizes humanitarian assistance only 
on the basis of need, and does not consider the cause of suffering in 
determining assistance packages.


    Question 12. How do you respond to critics who argue that 
humanitarian assistance may actually prolong political crisis?

    Answer. The United States believes that provision of humanitarian 
assistance reduces the suffering caused by war. Humanitarian assistance 
is provided to non-combatants, is impartial and neutral, and provides 
no benefit to parties to a conflict.


    Question 13. How does the current allocation of foreign assistance, 
both regionally and by sector, reflect larger U.S. foreign policy 
priorities?

    Answer. The President's FY 2017 Request for the Department and 
USAID includes $34.0 billion for foreign assistance programs. This 
request supports key national security, foreign policy, and development 
mission objectives. Regionally, the request includes $4 billion to 
counter Da'esh, respond to the crisis in Syria, and support 
humanitarian needs in the region. It requests $750.6 million to bolster 
the U.S. Strategy for Engagement in Central America and $873.0 million 
to support economic development and security efforts as part of the 
Asia Rebalance effort. It also requests $7.1 billion to support our 
goals in Africa, including advancing democracy, health, education, 
economic growth and security throughout the region.
    As part of these regional efforts, the Department and USAID are 
also requesting funds to support important investments in critical 
sectors across the globe. The request includes $2.7 billion for 
democracy, human rights and governance programming, one of the core 
strategic goals of this administration. It also includes $983.9 million 
to support the Global Climate Change Initiative and $561.8 million for 
basic education. These are just examples of the important cross-cutting 
programs requested as part of the FY 2017 request. All of these 
investments, plus many others, are critical to ensuring the success of 
our broader foreign policy and development goals.


    Question 14. How could aid, as a tool for foreign policy, be 
allocated to more effectively address strategic priorities?

    Answer. The Department of State and USAID always work to ensure the 
funds are allocated to address strategic priorities. The development of 
the President's annual budget request for the Department of State and 
USAID begins at embassies and USAID missions around the world. These 
requests are based on country-specific priorities and strategies and 
are organized by mission objectives when they are submitted to the 
Department of State and USAID in Washington, DC. Department and USAID 
leadership then review the submissions from the embassies and missions 
overseas, and make tough decisions to ensure the request supports the 
most critical regional and global strategic priorities. In coordination 
with the Office of Management and Budget this results in a final budget 
request that advances the U.S. government's most important foreign 
policy, national security, and development objectives. The President's 
request reflects these priorities when it is submitted to Congress each 
year.
    Once an appropriation bill is passed, the allocation of funds must 
abide by funding directives included in the bill as well as the 
Statement of Managers, as required. Within these guidelines, the 
Department and USAID work to ensure the best allocation of resources in 
support of strategic foreign policy priorities.


    Question 15. How will you manage foreign assistance programs 
differently, if at all, in the absence of congressional directives?

    Answer. The Department of State and USAID have many shared 
priorities with Congress. While many congressional funding directives 
support these shared goals, including advancing democracy or education 
across the globe, we must be able to respond to changing circumstances 
and adapt as needed. Often times the world looks different from the 
time we submit our request until the time we receive our final 
appropriation. We need to remain nimble.
    In the absence of congressional directives, we would allocate 
funding according to the President's request, which sustains projects, 
programs, and activities supported by Congress, taking into account 
changing circumstances, prior year funding availability, and any new 
needs that have emerged since the request was submitted. This would 
reduce our dependence on transfer authorities, which, while incredibly 
valuable, can be time consuming to execute and thus hinder our ability 
to move funds and respond quickly.


    Question 16. The U.N. estimates that there are 13.5 million people 
in need of assistance inside Syria. Meanwhile, large parts of Syria are 
controlled by non-government forces, including ISIS, while other areas 
have controls put in place by the Assad government, limiting the 
delivery of humanitarian assistance.


   Can you describe State's strategies for delivering assistance to 
        these areas?


    Answer. Since the cessation of hostilities in Syria came into 
effect on February 27, humanitarian access has significantly improved 
for many of the hard-to-reach and besieged locations prioritized by the 
International Syria Support Group (ISSG).Interagency convoys have 
provided emergency relief assistance to over 200,000 people in besieged 
and hard-to-reach areas throughout the country. A year earlier, the 
U.N. had not been able to provide aid to any people in besieged areas.
    Approximately 500 U.N. interagency trucks crossed into northern 
Syria via the Bab al Salaam and Bab al Hawa border crossings, providing 
emergency relief supplies to people in Afrin, Azaz, and Mar'a sub-
districts in Aleppo, as well as Harim and Idlib sub-districts, Idlib 
Governorate. The Turkish Red Crescent, which facilitates non-
governmental organization (NGO) utilization of the humanitarian lanes 
at the borders, also reported an uptick in NGO cross-border deliveries, 
noting that an estimated 800 trucks passed through the Atmeh, Bab al 
Hawa, Bab al Salaam, Kobane, and Yamadiah border crossings in February.


    Question 17. Approximately, in what percentage of the country have 
State and USAID been able to operate?

    Answer. Non-humanitarian assistance provided through the Syria 
Transition Assistance Response Team (START) and the Southern Syria 
Assistance Platform (SSAP) reaches 10 of Syria's 13 provinces, 
including: Aleppo, Idlib, Lattakia, Hama, and Homs in the north/west 
and Suwayda, Damascus, Qunaytrah, and Dar'a in the south. Non-
humanitarian assistance has also been provided to al-Hasakeh province 
in east Syria.
    We cannot provide an exact percentage of Syria in which State and 
USAID can deliver assistance. However, we work closely with countries 
in the region, mainly Turkey and Jordan, the United Nations, and our 
NGOs partners to get assistance into Syria through all possible means. 
Approximately, half of the more than $5.1 billion of humanitarian 
assistance that we have provided has gone to humanitarian needs inside 
Syria.
    Our International Organization and NGO partners hope that the 
cessation of hostilities in Syria will allow for more systematic access 
to the besieged areas and hard-to-reach locations. As the cessation of 
hostilities holds we continue to work with the U.N. and members of the 
International Syria Support Group (ISSG), particularly Russia, to 
expand access and assistance to more priority areas inside the country


    Question 18. What requirements or specific policies does State and 
USAID have in place to vet volunteers or networks that assist in the 
delivery of this humanitarian aid?

    Answer. The Department of State and USAID vet beneficiaries of 
Syria assistance as part of our strategy to mitigate the risk that U.S. 
government non-lethal assistance could benefit groups or individuals 
associated with terrorism. Further, the vetting process is intended to 
ensure that U.S. government assistance is not provided to individuals 
or entities that are human rights violators:


   Vetting coordinators from each implementing office coordinate with 
        the intelligence community to identify derogatory or 
        potentially derogatory information.

   In addition to vetting, we closely monitor and evaluate our 
        assistance through a network of Syrian in-country monitors who 
        interface directly with beneficiaries to ensure assistance is 
        delivered, hand receipts, photographs, and tracking devices.


    Question 19. What types of monitoring activities do State and USAID 
implement to ensure accountability of assistance delivery?

    Answer. Department of State. There are unique challenges to working 
in Syria, given the ongoing conflict, range of actors on the ground 
including designated terrorist organizations and the lack of U.S. 
presence on the ground. However, we have a range of monitoring 
procedures in place to help mitigate the risk that assistance falls 
into the wrong hands and ensure that the assistance is used 
appropriately by recipients. These efforts include:


   Meetings with the recipients of Department of State assistance in 
        Turkey or Jordan to ensure they know the responsibilities of 
        accepting U.S. assistance.

   Having recipients sign a letter of assurance before receiving 
        support that details the responsibilities of accepting U.S. 
        assistance and declares that they will not use the assistance 
        for any other than its intended purpose or divert equipment to 
        DTOs.

   Follow up meeting with beneficiaries to assess the usefulness of 
        the assistance to further refine their needs assessments and 
        target the appropriate assistance.

    Survey reports from recipients via email/phone to report on the 
        use of the assistance.

   Syrian field monitors are contracted to observe and survey 
        beneficiaries for the provision of heavy equipment. When 
        security allows, photographs are taken of in kind assistance. 
        When the security situation cannot allow monitors, phone calls 
        are used to query the recipients on the current location and 
        status of equipment.


    USAID. USAID works closely with partners to ensure that our 
assistance is reaching the intended beneficiaries. We exercise 
considerable oversight over our programs, and our partners have 
developed a variety of multi-layered monitoring and tracking mechanisms 
to make sure that our assistance gets to those it is intended to reach.


   Partners are required to provide prompt, regular updates on the 
        progress of their activities and any security concerns. USAID 
        staff closely and systematically track the reports, are in 
        regular direct communication with partners, and immediately 
        follow up on any reported issues.

   USAID works closely with all its partners to collect performance 
        and situational data to monitor activities and gather enough 
        information from different sources to verify assistance is 
        reaching targeted areas and beneficiaries, including through 
        geo-tagged photos and videos of distributions, independent 
        field monitors, and feedback hotlines for beneficiaries. 
        Partners are required to provide regular program updates on the 
        progress of their activities and any security concerns, and we 
        require them to report any diversions, seizures, or losses 
        immediately, without exception, for immediate follow-up and 
        investigation.

   The USAID Disaster Assistance Response Team (DART) in Jordan and 
        Turkey meets regularly with partners to discuss programming, 
        issues that impede humanitarian activities, and partners' risk 
        mitigation mechanisms. The DART also meets with the broader 
        humanitarian community, and communicates directly and 
        indirectly with Syrian organizations that provide added layers 
        of ground-truth to partner reporting. The DART also attends 
        cluster and donor coordination meetings, which provide an 
        opportunity to triangulate information about partners' 
        performance.

   In addition, USAID utilizes a third-party monitoring system to 
        verify and provide independent confirmation of a number of 
        USAID programs. By providing independent, field-based 
        monitoring of activities and verification of outputs, as well 
        as monthly progress reporting, third party mechanisms supply 
        USAID with the level of assurance that comes from field visits 
        that are the basis of USAID monitoring in more stable 
        environments, but also contribute to program learning.

   USAID staff in Washington also maintains regular contact with all 
        humanitarian partners, including U.N. agencies, other 
        international organizations, and NGOs, concerning their 
        assistance activities in Syria. The U.S. government 
        humanitarian response inside Syria is coordinated by the Middle 
        East Crisis Response (MECHR) Management Team, which is 
        inclusive of both USAID's Office of Food for Peace and USAID's 
        Office of U.S. Foreign Disaster Assistance. USAID leadership 
        also regularly engages with U.N. agency emergency directors and 
        other senior U.N. staff in a variety of forums, including 
        Emergency Directors Group meetings, Syria Top Donor Group 
        meetings, and other events.

   As part of its mandate, the OIG write a quarterly Operation 
        Inherent Resolve (OIR) report detailing out events of the 
        quarter. The investigators explore a variety of issues to help 
        understand and review USAID/OFDA and USAID/FFP operating 
        principles, methods for ensuring accountability of funding, and 
        efficacy of programming.


    Question 20. What percentage of deliveries in Syria has been 
affected by fraud or diversion? How does the U.S. track this?

    Answer. Known losses comprise less than four percent of Department 
of State non-humanitarian assistance provided through the Syria 
Transition Assistance Response Team (START) and Southern Syria 
Assistance Platform (SSAP) platforms.
    To date, less than 0.05 percent of USAID program funds for the 
Syria humanitarian crisis response have been lost to fraud or 
diversion.
    Approximately .04 percent of total Office of Transition Initiatives 
funded non-humanitarian assistance is known to be lost or diverted.
    We take all battlefield losses of U.S.-provided equipment very 
seriously and have a range of risk mitigation steps in place to limit 
these losses. However, given that Syria is an active war zone, some 
losses are unavoidable. It is important that we maintain our commitment 
to supporting the moderate opposition in Syria as they seek to counter 
extremists and defend against the regime, with the goal of ultimately 
creating the conditions for a negotiated political solution. Losses 
accounting is a joint effort between START and SSAP, USAID and the 
Department of State, implementing partners, and grantees. As losses 
come to light, START and SSAP staff work closely with implementing 
partners and grantees to confirm all relevant details, which are then 
tracked in Washington.


    Question 21. ISIS's branch in Libya is expanding its reach across a 
broadening area of Africa. They are taking advantage of the chaos and 
security vacuum in Libya to expand territory, and grow. CIA Director 
John Brennan told the Senate earlier this month that quote, ``Libya has 
become a magnet for individuals not only inside Libya, but from the 
African continent as well as from outside,'' in terms of terrorist 
recruitment. This year's budget request focuses most of its counter-
ISIS measures at Iraq and Syria, as well as immediately neighboring 
countries like Jordan and Lebanon. While ISIS in Iraq and Syria is 
certainly the more immediate threat, we should work to prevent this 
emerging threat in Libya from getting out of hand.


   Could you outline for me what State plans to do to counter this 
        developing threat in Libya?


    Answer. The United States remains committed to supporting the 
Libyan people in their fight against Da'esh. We are actively supporting 
the U.N.-facilitated Libyan political process to finalize formation of 
the Government of National Accord, putting Libya on the path to 
regaining control of the country's ungoverned space. We and our 
international partners will work together with the Government of 
National Accord to counter the growing threat from Da'esh-aligned 
groups and other violent extremists and rebuild a national security 
force to restore stability in Libya. To that end, we are committed to 
providing the Government of National Accord technical, economic, 
humanitarian, security, and counter-terrorism assistance, as requested. 
We are pursuing our counterterrorism and governance efforts so that 
they proceed in parallel and are mutually reinforcing. A unified, 
capable national government is our best hope for a sustainable effort 
to counter Da'esh and other extremists.
    At the same time, we will not ignore immediate threats from Da'esh 
or other extremists. As President Obama has made clear, we will not 
hesitate when it comes to defending U.S. national security interests 
and to taking direct action when necessary. Actions like the U.S. 
strike on a Da'esh facility in Sabratha, Libya, which we announced on 
February 19, are part of our comprehensive approach to degrading and 
ultimately destroying Da'esh. Last November, the United States 
conducted an airstrike against Abu Nabil, an Iraqi, who was at the time 
the leader of Da'esh in Libya. These actions show our commitment to 
dislodging Da'esh from Libya.


    Question 22. Do you anticipate that the outbreak of the Zika virus 
in Latin America, which came to international attention after this 
budget request was formulated, will impact plans for global health 
assistance allocations in FY 2017?

    Answer. At this time, there are no changes to the FY 2017 Global 
Health request. The response to Zika requires immediate action. The FY 
2016 emergency supplemental appropriations request would be our primary 
response to Zika. We are also exploring additional authorities to use 
available funds, including remaining funds in the Ebola supplemental 
appropriations.
    We should not divert funding from other important Global Health 
challenges for Zika. This would undermine our ability to achieve 
important global goals, such as ending child and maternal deaths and 
protecting communities from infectious diseases, including completing 
the response to Ebola, building global health security capacity, and 
addressing tuberculosis. These issues currently claim millions of lives 
each year--and most of these deaths are preventable, and doing so has 
been a priority of the U.S. government for many years. The experience 
over the last several years with outbreaks of Ebola, SARS, MERS-CoV, 
avian influenza and Zika has underscored the point that infectious 
disease outbreaks will happen and they can have devastating impacts 
locally and globally if they are not prevented and mitigated. Ensuring 
effective prevention, detection and response of such outbreaks is at 
the heart of global health security. If Zika continues to spread around 
the world, and response needs exceed the emergency funding capacity we 
have requested, we will have to explore and review the options 
available to address the changing epidemic.


    Question 23. Budget documents suggest that the proposed boost in 
malaria program funding would come in part from unobligated emergency 
funds to counter Ebola, if authorized by Congress. Is that true?

    Answer. Yes, the President's budget for the Department of State and 
USAID in FY 2017 proposes to allocate approximately $129 million from 
unobligated Ebola funds as part of a $200 million increase for the 
President's Malaria Initiative (PMI) to fight malaria.
    Malaria globally is a dangerous infectious disease that kills over 
400,000 people annually, particularly children under five. Malaria 
remains a major cause of morbidity and mortality in sub-Saharan Africa, 
with a number of high burden countries in West and Central Africa.


    Question 24. Could you discuss the $1.3 billion in unobligated 
Ebola funds? What is the status of emergency Ebola funds?

    Answer. As of December 1, $1.2 billion in foreign assistance and 
$34.3 million in diplomatic engagement funding has been obligated for 
the Department of State ? USAID Ebola emergency response and recovery 
efforts. There is approximately $2.1 million unobligated diplomatic 
engagement Ebola funding and nearly $1.3 billion in unobligated foreign 
assistance. The bulk of this unobligated funding is, however, planned 
for critical ongoing Ebola response and recovery efforts in West 
Africa, including ensuring our ability to rapidly and effectively 
respond to new Ebola cases as well as addressing the needs of the 
survivor population, and activities to support the Global Health 
Security Agenda over the next five years.


                               STATE AND USAID EBOLA EMERGENCY FUNDING--BY ACCOUNT
                                              As of January 1, 2016
----------------------------------------------------------------------------------------------------------------
                                                                    Total
                                                                 Appropriated      Obligated       Unobligated
----------------------------------------------------------------------------------------------------------------
Foreign Assistance Funding
IDA..........................................................    1,436,273,000      893,841,504      542,431,496
GHP-USAID....................................................      312,000,000      164,024,524      147,975,476
ESF..........................................................      711,725,000      128,687,073      583,037,927
NADR.........................................................        5,300,000        5,300,000                0
OE...........................................................       19,037,000        3,873,012       15,163,988
OIG..........................................................        5,626,000        2,195,352        3,430,648
----------------------------------------------------------------------------------------------------------------
  Total......................................................    2,489,961,000    1,197,921,465    1,292,039,535
================================================================================================================
Diplomatic Engagement Funding
D&CP.........................................................       36,420,000       34,300,000        2,120,000
----------------------------------------------------------------------------------------------------------------
  Total......................................................       36,420,000       34,300,000        2,120,000
----------------------------------------------------------------------------------------------------------------



    Question 25. Why are these funds no longer needed to address Ebola?

    Answer. While the height of the Ebola epidemic is over, a majority 
of the unobligated Ebola funds are, in fact, still needed to sustain 
our ability to support Ebola recovery efforts and maintain our 
readiness to respond to flare-ups as they occur. While we do plan to 
maintain some resources to ensure we can meet ongoing Ebola needs, we 
anticipate some availability with remaining Ebola funds to address 
other critical health threats.


    Questions 26 and 27. If not necessary for Ebola programs, why did 
the Department choose not to apply them to addressing the Zika virus 
instead of seeking an emergency supplemental?


   Since the State Department has so much transfer authority, coupled 
        with the unobligated funds, is a Zika supplemental really 
        necessary?


    Answer. While we anticipate some availability with remaining Ebola 
funds to address other critical health threats, a majority of the funds 
are still needed to sustain our ability to support Ebola recovery 
efforts and maintain our readiness to respond to flare-ups as they 
occur. The FY 2016 Zika supplemental request of $376 million reflects 
our best estimate, given current information, of potential State and 
USAID needs for the Zika response at this time; however, there remains 
significant uncertainty around the scope of the Zika challenges we will 
face. As such, the President's FY 2017 Budget and the FY 2016 Zika 
supplemental request authority to use unobligated Ebola funds for other 
infectious diseases, such as Zika, in addition to Ebola. This authority 
would allow us to consider the use of Ebola funds to address Zika and 
other future infectious disease outbreaks, if needed, beyond the 
currently identified needs. We should not short-change our ability to 
address either of these important health challenges.
    We should not divert funding from other important challenges, 
particularly Global Health, for Zika. This would undermine our ability 
to achieve important global goals--such as ending child and maternal 
deaths and protecting communities from infectious diseases, including 
completing the response to Ebola, building global health security 
capacity, and addressing tuberculosis. These issues currently claim 
millions of lives each year--and most of these deaths are preventable, 
and doing so has been a priority of the U.S. government for many years. 
The experience over the last several years with outbreaks of Ebola, 
SARS, MERS-CoV, avian influenza and Zika has underscored the point that 
infectious disease outbreaks will happen and they can have devastating 
impacts locally and globally if they are not prevented and mitigated. 
Ensuring effective prevention, detection and response of such outbreaks 
is at the heart of global health security. If Zika continues to spread 
around the world, and response needs exceed the emergency funding 
capacity we have requested, we will have to explore and review the 
options available to address the changing epidemic.


    Question 28. Given the challenges the Ebola outbreak presented, how 
do you know that you've requested the right amount for the Zika virus 
response?

    Answer. The recent increase in Zika virus cases around the world 
has had a significant impact on the medical evacuation operations of 
the Department of State. There have been a number of health concerns 
surrounding the impact of the Zika virus on those infected. However, a 
key concern has been the protection of the unborn child in our pregnant 
employees or family members. The Office of Medical Services has spent a 
considerable amount of time reviewing the latest published medical 
literature on the subject and information sent out from the applicable 
Federal and International organizations. As a result of our review and 
in keeping with our mission statement to safeguard and promote the 
health of our population, a decision was made to offer voluntary 
departure from posts under the Centers for Disease Control and 
Prevention (CDC) level 2 travel advisory for Zika for women who are 
pregnant at any time during their pregnancy.
    The majority of additional funds requested are to support our 
medical evacuation program with a smaller amount needed to support 
additional full-time equivalent positions (FTEs) for our infectious 
diseases and epidemiology staff. The amount of additional funds 
requested was determined by using historical data on the number of 
obstetrical patients under the medical program for the past five years 
in the affected countries. A cost analysis was then undertaken to 
determine the projected amount of funds that would be required above 
and beyond normal operations to meet the medical evacuation needs of 
this population. We do not expect that all women who are authorized 
these funds will take advantage of the early medical evacuation option.
    However, we also expect that other countries in the near future 
will be added to those under this medical evacuation program. 
Therefore, we believe that the funds requested neither under or 
overestimate our additional funding needs. The nature of the Zika virus 
including its transmission, virulence and overall impact on an 
individual's health is quite different than the Ebola virus. Although 
there are lessons learned from the Ebola response, the approach to Zika 
and its impact on our population is quite different making it difficult 
to draw parallel approaches.


    Question 29. The State Department requested more funds than were 
actually needed for Ebola response in FY 2015, and my understanding is 
that some of those funds are still floating around the State 
Department.


   Isn't this the type of contingency that State should normally be 
        able to handle in your regular and OCO budgets?


    Answer. The Zika supplemental request reflects our best estimate 
given current information of potential needs to address Zika at this 
time, primarily in the Global Health Programs account. However, we 
continue to face significant uncertainty around the scope of the Zika 
challenges we will face.
    As such, the President's Budget and the Zika supplemental request 
expanded authority to use unplanned Ebola funds for ``other infectious 
diseases'' so we can consider the appropriateness of using Ebola 
contingency funds for Zika if needed beyond the needs 
identified.Similarly, Section 7058(c) of the Department of State, 
Foreign Operations, and Related Appropriations Act, 2015 (Div.J, 
P.L.113-235) potentially gives us another route to respond if Zika 
needs outpace what we have requested in the supplemental. But while we 
appreciate the flexible authority Congress provided to meet urgent 
health crises, we cannot keep diverting funds from other important 
health and development priorities to respond to outbreaks. We need to 
balance taking limited funds appropriated for other purposes with the 
needs of the current crisis.


    Question 30. In the fiscal year 2014 omnibus appropriations bill, 
Congress told the administration that no less than $2.85 billion 
dollars should be spent on democracy programs, yet when the actual 
totals came in, only $1.9 billion had been spent.


   Can you please explain why democracy programs were underfunded by 
        nearly one billion dollars in FY 2014?


    Answer. The U.S. government believes that Democracy, Human Rights 
and Governance (DRG) programs are essential to achieving and sustaining 
global development goals, as well as U.S. foreign policy objectives.
    As part of the annual budget process, and pursuant to Section 653a 
of the Foreign Assistance Act of 1961, USAID and the Department of 
State must provide a report to the Committees on Appropriations that 
details what our planning levels will be for all sectors and countries. 
Once there is agreement, the administration seeks to meet the 
Congressional directed requirements, while supporting administration 
and Congressional priorities. In the end, in FY 2014, it was not 
possible to meet all Congressional directives and still fulfill these 
shared priorities.
    There are several reasons why we did not meet the suggested level 
for DRG in FY 2014. First, the amount of funding in a number of 
Congressional directed sectors in the enacted bill were higher than 
requested, as such, tradeoffs were required to balance Congressional 
and administration priorities. Second, emerging opportunities or 
closing spaces required us to revise our planning and move some 
programming outside of where it was initially allocated or requested. 
Finally, there were account level reductions from the President's 
budget request and the FY 2013 enacted levels in FY 2014 that made it 
difficult to meet all of the shared priorities.
    The FY 2017 request for DRG programs for USAID is $2.3 billion, and 
we will continue to work towards meeting our highest priority goals in 
this sector, even when we face constraints.


    Question 31. Because democracy, human rights, and governance (DRG) 
funding was so hard hit in FY 2014 and again in FY 2015, Congress for 
the first time included a hard protection for DRG funding in the FY 16 
omnibus, stating that the administration ``shall'' spend no less than 
$2.308 billion on democracy programs. This was to prevent, for example, 
funds being diverted to clean water or climate programs that also 
happen to build good governance.


   How will the administration ensure that during the remainder of FY 
        16 the full amount of this funding truly goes to DRG programs 
        and is not used for other programs that have merely a secondary 
        democracy or governance benefit?


    Answer. USAID appreciates Congress's support of Democracy, Human 
Rights and Governance (DRG) programs, which are an essential aspect of 
U.S. foreign policy and sustainable, global development.
    The $2.3 billion earmark in FY 2016 will be allocated to core 
democracy, human rights and governance programs. In addition, USAID and 
the Department of State will continue to measure and invest in the 
integration of DRG principles and practices into programming outside of 
the DRG sector. This responds to USAID's commitment to improve 
development outcomes through the integration of DRG principles in the 
2015 Cross-Sectoral DRG Integration Action Plan and is responsive to 
the 2015 Quadrennial Diplomacy and Development Review (QDDR), which 
contends that ``accountable, democratic governance is the surest way to 
expand social and economic opportunities'' and ``societies that allow 
citizens a say and a stake in their success are more stable, 
prosperous, and secure.''
    For example, an agriculture project that uses a community-based 
development approach to engage historically marginalized groups in the 
design and implementation of community development 
plansintegratesDRGprinciples, but would not fall within theDRG earmark 
set by the FY 2016 appropriations bill.


    Questions 32 and 33 . In Africa, for example, DRG funding has 
decreased by almost 50 percent since FY 2012, and between FY 2012-FY 
2015, five countries (South Sudan, Liberia, DRC, Zimbabwe, and Kenya) 
received more than 60 percent of the DRG funding for the entire 
region.During this same time frame, in Latin America and the Caribbean, 
four countries (Mexico, Colombia, Cuba, and Haiti) received 58 percent 
of the region's total DRG funding. In South and Central Asia, 
Afghanistan and Pakistan receive 98 percent of this funding.


   In the FY 2017 budget request, which countries receive democracy, 
        human rights, and governance funding and which do not?

   Why were the countries that are not receiving DRG funding under 
        this budget excluded?


    Answer. The 81 countries that would receive Democracy, Human 
Rights, and Governance (DRG) funding in the FY 2017 request, in 
addition to central and regional allocations, are noted in the summary 
tables of the of the Congressional Budget Justification. Several 
factors are used to determine the countries that will receive DRG 
funding:


   We consider the need for DRG assistance in a country based on the 
        specific country context.

   We assess whether DRG programs are likely to be effective, 
        including the willingness of the host government to permit such 
        programs to operate.

   We factor in U.S. government foreign policy and development 
        priorities, and prioritize countries based on the availability 
        of assistance resources after taking into account legislative 
        directives. In some cases, regional DRG funding is considered 
        to be a more effective approach than bilateral funding.

   In most cases, countries where we do not request DRG funding are 
        places where the need for DRG assistance is lower than 
        elsewhere, where it may be more difficult to conduct programs; 
        or where the likelihood of having an impact is very low.


    Questions 34 and 35 . U.S. development assistance should foster 
long-term self-sufficiency andultimately support partner countries 
transition from foreign aid. The FY 16 Omnibus Appropriations bill 
included an important provision requiring all future country 
development strategies to include a plan for transitioning over time 
away from foreign assistance.


   How is the State Department approaching these transition plans?

   Have you considered developing clear, measurable, and realistic 
        benchmarks for country transition, such as benchmarks for 
        social and economic progress across social groups, public 
        sector capacity, or the enabling environment for civil society 
        and the private sector?


    Answer. Transition planning is being incorporated into USAID's 
Country Development Cooperation Strategies (CDCSs). During the first 
phase of CDCS development, decisions will be made regarding the 
necessary scope of transition planning for a particular mission, 
including the type of transition (e.g., phasing out of a particular 
sector, planning to transition assistance from programmatic to 
advisory, or phasing out of a country entirely) and over what time 
frame.
    Transition planning will be further developed and informed by 
analyses undertaken during subsequent phases of CDCS development. In 
the final phase of CDCS development, the Mission will complete a 
transition plan for inclusion in its CDCS submission. These decisions 
should be reflected in all CDCSs developed after January 1, 2016.
    Establishing goals for foreign assistance outcomes that would allow 
for USAID to transition its relationship with a country, and benchmarks 
towards achievement of those goals, is integral to USAID's approach to 
transition planning. Given the variety of contexts in which USAID 
works, and the range of U.S. government interests in those countries, 
USAID's approach is to develop broad guidelines for these benchmarks 
while preserving adaptability to local contexts so that our foreign 
assistance goals remain responsive to shifting realities.
    Benchmarks identified for transition may include indicators of 
democratic and socioeconomic progress as well as a consideration of 
levels of inequality and particular development needs or priorities 
(e.g., education, citizen security, etc.). Other benchmarks include 
major foreign policy and strategic considerations. Additionally, a 
Mission should identify resources and levels of capacity of local 
partners, host country government, the private sector and other donors 
to continue development progress once USAID transitions its role.
    One example of this approach has been USAID's transition out of 
development assistance in Croatia. In March 2007, the Europe and 
Eurasia Bureau's Monitoring Country Progress (MCP) team conducted a 
rigorous empirical analysis of Croatia's progress in its transition to 
a market-oriented democracy, with a focus on the country's prospects 
and timeline for transitioning from U.S. government assistance. The 
analysis centered on four MCP indices comparing economic reform, 
democratic reform, economic performance, and human capital trends in 
Croatia against those of several other key countries in the region 
whose degree of progress had earned them North Atlantic Treaty 
Organization membership and positive indication from Western Europe 
that European Union accession was likely.
    The MCP benchmarking exercise found that Croatia exceeded 
transition thresholds in most cases and particularly in terms of human 
capital, which takes into account per capita income, life expectancy, 
child mortality, secondary school enrollment, and public expenditures 
on education and health. Based on these findings, USAID determined that 
Croatia was soon likely to achieve a degree of progress upon which the 
path to political and economic reform had become irreversible.
    The decision to transition USAID/Croatia from a Mission to a non-
presence country soon followed on June 30, 2008. First approved by the 
Department of State/USAID Joint Policy Council in 2004, these MCP 
indices are still utilized and adapted to inform planning and strategic 
direction.


    Question 36. Roughly 10 percent, or $310 million, of State's 
Development Assistance program budget is going to support the Global 
Climate Change initiative (GCCI).


   With all of the development challenges in the world today, do you 
        think it is appropriate to be spending 10 percent of the 
        overall on climate change?

    Answer. Climate change represents a substantial threat to U.S. 
national security interests and development objectives. The 2014 
Quadrennial Defense Review (QDR) completed by the Department of Defense 
states that:


        Climate change poses another significant challenge for the 
        United States and the world at large. As greenhouse gas 
        emissions increase, sea levels are rising, average global 
        temperatures are increasing, and severe weather patterns are 
        accelerating. These changes, coupled with other global 
        dynamics, including growing, urbanizing, more affluent 
        populations, and substantial economic growth in India, China, 
        Brazil, and other nations, will devastate homes, land, and 
        infrastructure. Climate change may exacerbate water scarcity 
        and lead to sharp increases in food costs. The pressures caused 
        by climate change will influence resource competition while 
        placing additional burdens on economies, societies, and 
        governance institutions around the world. These effects are 
        threat multipliers that will aggravate stressors abroad such as 
        poverty, environmental degradation, political instability, and 
        social tensions--conditions that can enable terrorist activity 
        and other forms of violence.


    In late 2015, CIA Director John Brennan said the following while 
addressing the Center for Strategic and International Studies' Global 
Security Forum:


        Mankind's relationship with the natural world is aggravating 
        these problems and is a potential source of crisis itself. Last 
        year was the warmest on record, and this year is on track to be 
        even warmer. Extreme weather, along with public policies 
        affecting food and water supplies, can worsen or create 
        humanitarian crises. Of the most immediate concern, sharply 
        reduced crop yields in multiple places simultaneously could 
        trigger a shock in food prices with devastating effect, 
        especially in already-fragile regions such as Africa, the 
        Middle East and South Asia. Compromised access to food and 
        water greatly increases the prospect for famine and deadly 
        epidemics.


    U.S. leadership is essential to addressing these broad and wide-
reaching challenges. The Global Climate Change Initiative (GCCI) is the 
principal U.S. tool for providing technical assistance to developing 
countries confronting those challenges, and it serves a compelling U.S. 
national security interest. GCCI programs not only benefit our efforts 
to protect our climate system, they promote our broader development 
objectives. Virtually all GCCI programs have important benefits for 
food security, health, sustainability, economic development, poverty 
reduction, and regional stability, all of which benefit the U.S. and 
global economy.


    Questions 37 and 38 . Do you intend to come to Congress for a 
specific authorization of the Green Climate Fund?


   Do you believe it is appropriate for Congress to have oversight 
        over U.S. participation in the Green Climate Fund?


    Answer. The Green Climate Fund (GCF) has been established as a 
multilateral trust fund--much like other multilateral funds, such as 
the Climate Investment Funds--and has approved its first round of 
projects. As I stated during my testimony before the Senate Foreign 
Relations Committee, the Department issued a grant to support the GCF 
from resources provided in the Department of State, Foreign Operations, 
and Related Programs Appropriations Act, 2016 (Div. K, P.L. 114-113) 
(SFOAA). Specifically, in the SFOAA, Congress provided $4.3 billion in 
funding for the Economic Support Fund (ESF), an account that is used to 
fund environmental programs and many other foreign assistance programs. 
The ESF account is a primary account through which the administration 
requested funding to support the Green Climate Fund (GCF) in the 
President's FY 2016 budget request.
    While over one-half of the account is earmarked for specific 
programs or activities, the remainder is available for other programs 
to carry out the ESF authority in the Foreign Assistance Act. The 
administration is using a portion of those unallocated funds for the 
GCF under the ESF authority and section 7060(c) of the SFOAA. While the 
SFOAA did not earmark funds specifically for the GCF, it also did not 
contain any restrictions on the use of FY 2016 funds for the GCF. 
Provision of ESF for environmental programs, including through grants 
to multilateral trust funds, is consistent with long standing practice.
    This administration takes its GCF oversight role seriously and we 
are working hard to ensure that GCF funding is used responsibly through 
our role on the GCF Board and our participation on two committees which 
oversee matters pertaining to oversight, the Ethics and Audit Committee 
and the Accreditation Committee. To that end, the GCF requires 
fiduciary standards and social and environmental safeguards that are 
among the strongest of all multilateral funds today. The Fund will have 
independent evaluation and integrity units, and Board proceedings and 
documents are among the most transparent of any multilateral 
mechanism.Questions for the Record Submitted toDirector Hari Sastry 
bySenator David Perdue (#39)Senate Committee on Foreign RelationsMarch 
1, 2016


    Question 39. As this administration contemplates the way forward in 
Afghanistan, I hope that we have learned the lessons of Iraq, and don't 
find ourselves with another power vacuum. The intelligence community 
testified earlier this month that, quote, ``Afghanistan is at serious 
risk of a political breakdown in 2016.''


   To what extent does the aid request (of $1.25 billion) for FY 2017 
        seek to prevent or mitigate the effects of such a potential 
        breakdown?


    Answer. The FY 2017 foreign assistance request and already-
appropriated resources at work in Afghanistan are essential to the 
success of our strategy to help Afghanistan build sustainable 
stability. A main focus of our assistance programs is to improve the 
functioning of the Afghan government. It is in our interests that the 
Afghan government be able to meet the needs of the people who elected 
it. Our programming enhances the effectiveness of Afghan governance in 
many ways. For example, we are implementing programs focused on 
improving the Afghan government's delivery of education and health 
services, which has an immediate impact on all Afghans and impacts 
local perceptions of the credibility of the government. We are working 
in a similar fashion to improve the functioning of the Afghan justice 
and correctional systems.
    In 2017, we expect to continue the innovative New Development 
Partnership (NDP) that was initiated during the visit of President 
Ghani and Chief Executive Abdullah in 2015. The NDP will provide up to 
$800 million to the Afghan government through 2018 if it meets 
specific, pre-determined reforms and development results. The NDP 
conditions the provision of U.S. assistance on Afghan government 
progress in addressing corruption, improving the government's fiscal 
sustainability and management, reducing poverty, and empowering women. 
Incentive funds are released only after the government has demonstrated 
that they have met pre-determined benchmarks established at the outset 
of the partnership. In 2015, the government achieved most of the NDP 
result targets agreed upon for the calendar year and qualified for $180 
million of the $200 million that was available.
    Our assistance helps build a constituency for a stable government 
by providing Afghans with improvements and services that meet the needs 
of citizens and de-legitimize extremism. For example:

   According to The Asia Foundation, in 2015, two-thirds of Afghans 
        were satisfied with the quality of education their children 
        received.

   On average, nearly one million people per month are treated at 
        USAID-supported facilities; of these, 76 percent are women and 
        children younger than five. USAID has and will continue to 
        support the Ministry of Public Health in their efforts to 
        provide access to basic health care across Afghanistan. Women 
        and children have particularly benefitted from USAID's decade 
        long commitment to Afghanistan's health sector. Since 2002, 
        USAID has trained more than 12,000 community health workers and 
        over 2,500 midwives - half of the entire population of midwives 
        in the country. Furthermore, the Government of Afghanistan--in 
        conjunction with the Department of State--reaches approximately 
        28,000 patients per year in more than 100 drug treatment 
        centers.

   In 2015, women held 28 percent of seats in Parliament and four 
        cabinet positions, and 165 judicial positions.

   In 2015, after years of targeted assistance from USAID, the Afghan 
        government successfully acceded to the World Trade 
        Organization, and the Parliament is on track to ratify the 
        accession agreement.

   USAID recently completed the last segment of paved highway in 
        eastern Afghanistan from Gardez to Khost. This road will link 
        to the Pakistan border and open a strategic trade route.


    Question 40. What criteria will the administration use to determine 
whether the Afghan government is meeting the conditions to receive the 
total amount of the aid?

    Answer. As part of our policy to support Afghan reform and greater 
self-sufficiency, the Department of State and USAID employ incentive 
programs linked to Afghan government actions in a wide array of policy 
areas. These incentive programs include conditions that the Afghan 
government must meet to receive additional on-budget assistance. 
President Ghani and CEO Abdullah encouraged the development of these 
programs, which include the U.S.--Afghan New Development Partnership 
(NDP), the counternarcotics-related Good Performers Initiative, and 
multilateral mechanisms like the Afghanistan Reconstruction Trust 
Fund's (ARTF) Incentive Program, as a means of demonstrating 
accountability for the performance of the Afghan government.
    Each incentive program is continuously monitored and reviewed at 
least annually to determine if the program is having the intended 
reform results. For instance, under the terms of the NDP, U.S. and 
Afghan officials consult at least once a year to review progress on the 
current set of targets and to determine if changes need to be made to 
future targets. The NDP target results are focused on countering 
corruption, improving fiscal sustainability, reducing poverty, and 
empowering women.
    In 2015, the Afghan government achieved 90 percent of its annual 
reform targets and qualified for $180 million out of the $200 million 
available in on-budget assistance. The ARTF incentive program, which is 
partially funded by the United States, works similarly to the NDP and 
links the disbursement of on-budget assistance to Afghan government 
performance on revenue targets, and the implementation of policy 
reforms related to governance, civil service reform, public financial 
management, investment climate, and trade facilitation.


    Question 41. With the U.S. presence in Afghanistan diminishing, how 
is the use of USeconomic assistance monitored?

    Answer. U.S. agencies recognize the importance of program 
monitoring in Afghanistan to ensure the appropriate and effective use 
of our assistance funding. Due to the especially difficult operating 
environment in Afghanistan, the Department of State, USAID, and others 
have developed an innovative, multi-tiered monitoring approach for 
civilian assistance programs that allows for real-time assessment of 
how programs are functioning and whether they are achieving their 
intended results.
    This monitoring program draws on information from multiple sources, 
using independent monitors and various communications technologies to 
query recipients, local governments, and civil society on program 
performance. This monitoring information allows the United States to 
expand programs that are working well and to terminate programs that 
are not achieving results. When appropriate, we have changed course to 
refocus resources on more productive programs that have a greater 
demonstrated impact on Afghanistan's development.
    Both the Department of State and USAID are contracting with 
independent, experienced organizations to verify program performance in 
areas of Afghanistan that are not regularly accessible to U.S. 
oversight officials. The organizations that monitor and verify the 
implementation of our programs employ mostly Afghan staff to operate in 
areas less accessible to foreigners.
    USAID has a Monitoring Support Program in place to monitor project 
activities, and has also developed technical monitoring contracts to 
help oversee programs that require specialized expertise, such as 
construction. The Department of State is implementing a Flexible 
Implementation and Monitoring Team contract that will provide 
monitoring services in locations around Afghanistan. In a number of 
cases, smaller implementing partners have bought into monitoring 
contracts administered by larger agencies to augment available 
oversight tools.


    Question 42. What programs have been most successful in promoting 
governance reform and economic growth?

    Answer. Below are a few examples of progress in Afghanistan 
attributable to U.S. assistance. We continue to review and analyze our 
current and past programs to assess impact and sustainability to help 
ensure we are supporting the most successful programs in promoting 
governance reform and economic growth:


   After years of targeted assistance from USAID, the Afghan 
        government successfully acceded to the World Trade Organization 
        (WTO) in December 2015, and the Afghan Parliament is on track 
        to ratify the accession agreement by summer 2016. WTO 
        membership will anchor Afghanistan in a rules-based trading 
        system, and foster regional trade.

   The U.S.--Afghan New Development Partnership has focused Afghan 
        government attention on tackling corruption, improving fiscal 
        sustainability, reducing poverty, and empowering Afghan women. 
        In the first year of the partnership, the Afghan government met 
        90 percent of its targets and qualified for $180 million of the 
        $200 million available for disbursement. Moreover, the 
        achievements under the program directly contributed to a 20 
        percent increase in government revenues, re-establishment of 
        the Afghan relationship with the International Monetary Fund, 
        anti-corruption measures in customs collection, and the 
        establishment of a new procurement review commission.

   The average number of years that Afghan children attend school has 
        risen from 2.5 years to 9.3 years since 2000, and 67 percent of 
        Afghans are satisfied with the education that their children 
        receive. In 2002, roughly 900,000 boys and zero girls were 
        enrolled in school; by 2014, nearly eight million children 
        attended school, with girls comprising one-third of the student 
        population.

   With help from USAID and other donors, the government provides 
        basic health services to 2.3 million Afghan citizens a month. 
        Since 2002, infant mortality has decreased 53 percent; child 
        mortality rate has decreased 62 percent; and maternal mortality 
        has decreased 77 percent. Furthermore, the Government of 
        Afghanistan--in conjunction with the Department of State--
        reaches approximately 28,000 patients per year in more than 100 
        drug treatment centers.

   In 2015, women held 28 percent of seats in Parliament, four cabinet 
        positions, and 165 judicial positions.

   We have also helped the Afghan government and private sector spur a 
        communications revolution with nearly 90 percent of Afghan 
        households owning a cell phone, and fostered the birth of a 
        vibrant, free media.

   The Department of State helped the government establish the Counter 
        Narcotics Justice Center (CNJC), which tries all high-level and 
        government official narcotics cases. With support from 
        specialized enforcement units mentored by the Drug Enforcement 
        Administration, and operations and maintenance support from the 
        Department of State and the Government of Britain, the Afghan 
        government has arrested and the CNJC has successfully 
        prosecuted a U.S- designated drug king pin and provincial 
        officials implicated in the drug trade.


    Question 43. How flexible are U.S. programs to augment those that 
are working and phasing out those that are not?

    Answer. The United States has established an innovative, multi-
tiered monitoring approach for assistance programs in Afghanistan that 
draws on information from multiple sources (including implementing 
partners, the Government of Afghanistan, other international donors, 
Afghan civil society, and third-party monitors) and allows us to assess 
in real-time how our programs are functioning and whether they are 
achieving intended results. This monitoring information allows the 
United States to adjust programs when they are not achieving results. 
When necessary, we have changed course to refocus our resources on more 
productive programs or to have greater impact on Afghanistan's 
development. As we fine tune our development activities, we also 
recognize that progress on many issues takes long-term, sustained work, 
and we employ multi-year, national-scale projects to maximize impact.
    The review and monitoring of individual programs feeds into a 
broader, bi-annual portfolio review that helps assess whether our 
developmental priorities support our broader objectives and are able to 
be implemented given budgetary and other operational and strategic 
constraints.
    The following are examples of when USAID/Afghanistan identified 
problems in implementation through monitoring and evaluation processes, 
and changed its programmatic approaches:


   Democracy and Governance in Afghanistan: Computer-based video calls 
        (e.g., Skype) are one of the tools USAID uses to remotely 
        monitor democracy and governance training activities in 
        Afghanistan. In 2015, USAID monitored over 600 events. Thanks 
        to this process, USAID has been able to observe events even 
        when not physically present and take quick action to resolve 
        any identified problems. For example, during one municipal 
        budget training activity, it was observed that no females were 
        involved in the training program. USAID discussed their 
        observation with the implementing partner, which led the 
        implementer to increase its efforts to include females in 
        training activities.

   Infrastructure in Afghanistan: USAID committed to building a 
        critical, 101-kilometer road from Gardez to Khost in Western 
        Afghanistan to enable the transport of goods between 
        Afghanistan and Pakistan. USAID originally contracted with an 
        international construction company on the project; however, 
        after monitoring efforts revealed the contractor was struggling 
        to build community support for the project, which was causing 
        delays, USAID turned the project implementation over to a local 
        firm. As a result, the project proceeded much faster and was 
        recently completed.

   Education in Afghanistan: In August 2013, USAID/Afghanistan signed 
        an implementation letter with the Ministry of Education to fund 
        a community-based education program. The budget for the program 
        was $56 million over five years; this funding was intended to 
        be direct government-to-government assistance, provided to the 
        ministry based on achievement of key milestones. However, as 
        the Ministry of Education did not meet key targets in the 
        beginning of implementation, USAID/Afghanistan did not disburse 
        these funds through the direct government-to-government 
        mechanism. Instead, USAID worked with UNICEF to implement the 
        program. UNICEF has since partnered with the Ministry of 
        Education, as well as provincial and district education 
        offices, to improve community-based education in Afghanistan.


    Question 44. We are seeing some troubling developments in Ukraine. 
Earlier this month, Ukraine's economic minister and his full team 
resigned citing ingrained corruption as their reason for stepping down. 
A major focus of our assistance has been centered around countering 
this rampart corruption.


   Are we failing in Ukraine?


    Answer. With the help of U.S. and other international donor 
assistance, Ukraine continues to enact tough reforms, despite enormous 
challenges from continued Russian aggression in the east and occupation 
of Crimea, the difficulties of meeting the humanitarian needs of over 
one million internally displaced people, and the painful economic side 
effects of much-needed austerity measures.
    The U.S. government has provided approximately $760 million since 
the crisis began and $2 billion in loan guarantees. This includes a 
commitment of over $266 million in security training and equipment to 
help Ukraine's forces better monitor and secure their borders, operate 
more safely and effectively, and defend Ukraine's sovereignty and 
territorial integrity. U.S. assistance also helped advanced key anti-
corruption reforms by supporting the establishment of the new anti-
corruption institutions ensuring further reform of the Prosecutor 
General, and helping establish new patrol police in major cities 
throughout Ukraine, one of the most visible and publicly celebrated 
anti-corruption reforms so far. We will continue to dedicate funds to 
restructuring and professionalizing the entire police force, and to 
help ensure judicial and anti-corruption reforms continue.
    We also are working to help Ukraine confront Russian aggression as 
Russia arms, trains, finances, directs, and fights alongside 
separatists in eastern Ukraine and occupies Crimea. We have maintained 
unity with our European allies in imposing sanctions on Russia for its 
actions in Ukraine.
    These sanctions will remain until Russia fully implements the Minsk 
Agreements, restoring Ukrainian control over eastern Ukraine and its 
international borders. Crimea-related sanctions will remain in place 
until Russia ends its occupation of Ukraine's peninsula.We will 
continue to push for progress in diplomatic engagement, pressing Russia 
at the highest levels to honor the commitments it made when it signed 
the Minsk Agreements.


    Question 45. Is Ukraine making sufficient efforts to fight 
corruption and enhance the rule of law? If so, how?

    Answer. The Ukrainian government is implementing an ambitious anti-
corruption and rule of law reform agenda. Although Kyiv has made 
tremendous progress, much more must be done to root out corruption and 
advance democratic reforms. Our highest priorities for rule of law 
reforms are focused on improving the effectiveness of the operations of 
the new anti-corruption institutions; reform of the prosecutorial and 
judicial system; and police reform.
    Regarding the new anti-corruption institutions, the National Anti-
Corruption Bureau (NABU) has been established, along with a special 
anti-corruption prosecutor under the umbrella of the Prosecutor 
General's Office (PGO), and the two entities are working together to 
conduct investigations.
    In 2015, the Rada passed legislation to reform judicial self-
governance, and to change the processes for appointments, discipline, 
qualifications, and training for judiciary members. Constitutional 
amendments required to bolster judicial independence are moving through 
the Rada now.
    The most visible and celebrated reform has been the establishment 
of the new openly recruited patrol police that replaced the notoriously 
corrupt traffic police. In 2016, the new patrol police will be expanded 
to all oblast capitals. Our efforts to support Ukraine as it addresses 
anti-corruption focus on greater government transparency will be 
enhanced by new laws on e-procurement, public officials' asset 
disclosures, and transparency on media companies' ownership.
    These reforms will be critical to Ukraine's future and have been 
valiantly fought for by ordinary Ukrainians. The United States will 
continue to work with the Ukrainian government, civil society, and 
media to encourage further reforms during this critical time in 
Ukraine's history.


    Question 46. Is U.S. aid helping Ukraine's armed forces enhance its 
capabilities?

    Answer. Through the $266 million in training and equipment the 
United States has committed since the start of the crisis, we are 
helping Ukraine's forces enhance their capabilities to monitor and 
secure their borders, operate more safely and effectively, and defend 
Ukraine's sovereignty and territorial integrity. Our security 
assistance has saved lives while helping to build Ukraine's long-term 
defense capacity.
    We have delivered non-lethal defensive equipment, including 
counter-battery radars, secure communications equipment, Humvees and 
up-armored civilian SUVs, medical equipment, and many other related 
items to help Ukraine protect its forces while defending against 
Russian aggression. We have stood up a multinational joint commission 
to better understand Ukraine's defense requirements, which we have 
targeted for enhancement with subsequent security assistance, and have 
sent advisors to promote long-term defense reform. In November 2015, we 
completed a training program for Ukraine's National Guard and are now 
training its conventional and Special Forces to increase their defense 
capabilities and institutional training capacity.
    We continue to work closely with Ukraine to identify requirements 
for security assistance. With your support, we intend to continue our 
efforts in FY 16 to increase the defense capacity of Ukraine's 
conventional and Special Operations forces, State Border Guard Service, 
and National Guard.


    Question 47. Is non-lethal aid sufficient to help deter Russian 
aggression, or is some level of lethal aid needed?

    Answer. We have not ruled out sending lethal weapons to Ukraine. 
The United States continues to believe that there is no military 
resolution to the crisis, but Ukraine has the right to defend itself. 
We remain committed to supporting full implementation of the Minsk 
agreements, and our diplomatic efforts focus on supporting discussions 
in the Normandy format and in the Trilateral Contact Group to expedite 
their full implementation. We have provided significant non-lethal 
security assistance to Ukraine to help address the crisis, but our 
current focus is on finding a diplomatic solution.


    Question 48. What is the U.S. doing to help Georgia to hold free 
and fair elections later this year?

    Answer. In FY 2015, the U.S. government allocated more than $20 
million to promote democracy in Georgia. Funded programs seek to 
advance democratic political processes, strengthen civic participation, 
bolster independent media, and support the rule of law.
    The October 2016 parliamentary elections will represent a key 
moment in the transformation and consolidation of Georgia's democracy, 
which has made significant progress since independence. We are 
currently assessing the electoral environment to identify any unmet 
needs in advance of the elections. We will fund observation missions by 
international and local NGOs and plan to contribute observers to the 
OSCE observation mission. Electoral reform and safeguarding media 
freedom, civil society and political pluralism during the election 
season will be a key focus of the upcoming U.S.-Georgia Democracy 
Working Group.


    Question 49. Are there concerns about Georgia's democracy and 
adherence to the rule of law?

    Answer. In FY 2015, the U.S. government allocated more than $20 
million to promote democracy in Georgia. Funded programs seek to 
advance democratic political processes, strengthen civic participation, 
bolster independent media, and support the rule of law in an effort to 
reinforce government transparency, accountability, and responsiveness.
    Georgia has made significant progress since independence towards 
becoming a fully democratic state and is unique in the region in its 
commitment to democracy. Its 2012 and 2013 national elections resulted 
in the first constitutional change of power in a post-Soviet state, 
with the exception of the Baltics. The October 2016 parliamentary 
elections will represent another key moment in the consolidation of 
Georgia's democracy. It will be important for Georgia to maintain media 
freedom, promote political pluralism, and ensure independence of the 
judiciary as it moves toward these elections.


    Questions 50 to 53. Public diplomacy (PD) spending, including 
exchange programs, would see a 5.4 percent boost under the FY 2017 
request, to a total of $1.21 billion. Among the administration's PD 
priorities is countering Russian propaganda in Europe. The FY 2017 
request for the Broadcasting Board of Governors (BBG), an independent 
Federal agency responsible for all U.S. non-military international 
media programs (including Voice of America and the Office of Cuba 
Broadcasting), is for $0.78 billion, a 3.8 percent increase over FY 
2016 estimates. To counter Russian pressure, the requested funding 
would allow BBG to significantly increase Russian television and 
digital content.


   Could you describe the department's public diplomacy strategies in 
        countering Russian propaganda efforts in Europe?

   How do you measure the success or failure of these strategies?

   To what extent do the BBG's broadcasting efforts contribute to 
        their success?

   Is the budget request adequate to ensure the strategy's success?

    Answer. The Kremlin is rapidly disseminating disinformation, part 
of a concerted effort to undermine trust in Western institutions and 
erode freedom of the press. Research shows that despite Moscow's 
efforts and resources devoted to this objective, they have limited 
effectiveness abroad ? less than a third of Europeans polled outside of 
Russia are confident that Putin will do the right thing in world 
affairs or see Russia favorably. In these same European countries, 
views of the United States are much more positive; 69 percent viewed 
the U.S. favorably.
    Capitalizing on this public goodwill, the Department of State is 
leading a coordinated effort to support the free flow of information, 
expand independent media, root out corruption, and refute Russian 
government disinformation. Our efforts extend across a range of 
diplomatic tools as we proactively amplify key U.S. government 
messages, correct disinformation, engage opinion leaders, encourage 
independent voices, and forge and maintain people-to-people ties.
    The Department of State employs a combination of short-term 
messaging strategies with medium- and long-term programs to boost 
resilience and build capacity to recognize and reject Russian 
government disinformation. The Department supports our overseas posts 
in times of heightened Kremlin messaging. Armed with the facts, our 
missions abroad are able to adapt the content and materials we supply 
to their own audiences and rapidly amplify the truth. We have also 
increased our capacity to deliver our messages proactively in Russian 
by forming a cadre of Russian-speaking officers to engage with the 
media and introducing a Russian-language, policy-oriented Twitter 
handle. We augment this messaging activity by providing foreign 
audiences with opportunities to engage directly with experts, opinion 
leaders, and third party groups.
    The Department of State is implementing programs that support 
independent media and investigative journalists in countries throughout 
the region, including Azerbaijan, Georgia, Macedonia, Moldova, Serbia, 
Ukraine, and the Baltics. We have developed exchanges to encourage 
independent media voices, including workshops on digital skills and 
investigative journalism, and support for a Digital Communicators 
Network of more than 1,000 members who bring accurate, objective 
information to regional audiences.
    At the same time, we are supporting efforts to engage ethnic 
Russian populations by expanding our English language training programs 
and professional exchanges. These cost-effective programs create 
lasting educational and professional linkages and increase English 
proficiency of students and educators, helping remove language as a 
barrier for thought leaders to understand U.S. policy and culture.
    U.S. public diplomacy also includes NATO and U.S. military outreach 
and media engagement. These high visibility engagements help dispel the 
Russian government's anti-NATO messages and serve as opportunities to 
explain our security partnerships. Last year the Under Secretary for 
Public Diplomacy and Public Affairs provided a new fund to support 
embassy public affairs teams in developing new, innovative public 
outreach projects pegged to U.S. military exercises in Europe. These 
interactions between people are the cornerstone of our strategy and 
absolutely essential in refuting disinformation.
    We continue to use our public diplomacy tools to deepen people-to-
people ties in an admittedly challenging political environment. In the 
past year, the Department of State designed and implemented a range of 
programs in the region that build relationships based on common 
interests and perceptions. Based on participant feedback, we know these 
programs are having a positive net effect. In addition to anecdotal 
evidence, we also conduct evaluations of our programs to ensure impact.
    The Broadcasting Board of Governors (BBG) receives steady input 
from the Undersecretary of State for Public Diplomacy and Public 
Affairs, who serves on the BBG to ensure its strategic planning is 
aligned with broader U.S. foreign policy goals. The BBG is an active 
participant in an ongoing working group at the Department of State, 
through which it apprises the Department of its efforts and provides 
analysis of current media trends. In its own work, the BBG maintains a 
robust response to Russian disinformation through the combined work of 
Voice of America and Radio Free Europe/Radio Liberty, which employ 
flexible, innovative, and cross-platform programming around the world 
to counter the Kremlin's strident anti-American messaging with fact-
based journalism.
    The bureaus undertaking this important work ensure that our limited 
resources are directed, in the most effective way, toward implementing 
priority programs focused on countering Russian government 
disinformation.


                               __________

          Responses to Questions for the Record Submitted to 
                  Roman Napoli by Senator David Perdue


    Question 1. The world is facing unprecedented humanitarian crises 
where conflict and disaster have displaced millions of people. In June 
2015, the U.N. High Commissioner for Refugees (UNHCR) reported that 
worldwide, nearly 60 million persons were forcibly displaced--the 
highest number on record. Despite these record highs, the total U.S. 
humanitarian assistance request is $6.156 billion--that's 20 percent 
less than FY 2016. Further, the amount in the Migration and Refugee 
Assistance account in this year's request decreased by $267 million. 
What accounts for this significant decrease? Particularly when the 
causes of this mass migration have yet to be solved?

    Answer. In concert with FY 2016 resources, the President's Fiscal 
Year (FY) 2017 request will enable USAID specifically and the 
administration broadly to respond to the dire humanitarian situation 
resulting from the conflicts in Syria, South Sudan, Iraq, Ukraine, 
Yemen, as well as the humanitarian needs resulting from El Nino. The 
request reflects the administration's ongoing commitment to these 
programs. The FY 2017 request of $6.156 billion for humanitarian 
assistance includes $1.957 billion for the International Disaster 
Assistance Account, $1.35 billion for Food for Peace Title II, as well 
as $2.799 billion for the Migration and Refugee Assistance Account, and 
$50 million for the Emergency Refugee and Migration Assistance Fund 
managed by the U.S. Department of State. The overall FY 2017 request 
for humanitarian assistance is $511 million higher than the FY 2016 
request.
    Thanks to generous support from the U.S. Congress, the U.S. 
Government is the largest humanitarian donor in the world, including to 
the crisis in Syria. We plan to continue our robust support in FY 2016 
and FY 2017, while urging other donors, including the Gulf nations, to 
contribute to these ongoing emergencies. We will continue to ensure 
that we are using funds as efficiently as possible in order to meet 
current and unforeseen needs worldwide.


    Question 2. In 2015, the GAO reported on $1.7 billion in USAID 
assistance to Haiti and found a lack of planning for the sustainability 
of non-infrastructure projects in Haiti and a lack of USAID-wide 
guidance on how missions should plan for the sustainability of their 
infrastructure projects. What has USAID done to address the 
recommendations of GAO's report and to focus on improving the 
sustainability of its projects? Please be specific in describing the 
steps being taken.

    Answer. USAID has been working to address the recommendations set 
forth in the June 2015 GAO report (GAO-15-517).
    In its first recommendation, GAO instructed USAID/Haiti to perform 
sustainability analyses when designing non-infrastructure activities to 
ensure that the results to be achieved by a project will be sustainable 
after donor funding ends. These analyses include, for example, 
recurrent cost analysis, an identification of the source of future 
revenues, and an assessment of institutional capacity that should be 
put in place or developed through the project.
    Based on the GAO findings outlined in the draft report, USAID/Haiti 
began to incorporate sustainability analyses during the project design 
phase for education and health (nutrition) sector activities, and for a 
project to combat gender-based violence. USAID/Haiti also revised its 
Mission Order on Project Design to incorporate language requiring that 
sustainability analyses be conducted during the project design phase of 
the Program Cycle. This Mission Order reiterates Agency-wide guidance 
on sustainability analysis and is applicable to both infrastructure and 
non-infrastructure activities. Furthermore, USAID/Haiti made specific 
Agency tools available on the Mission's internal website to assist with 
sustainability analyses, such as a checklist of sustainability 
considerations and a menu of illustrative questions, issues and 
examples to help design teams think through the sustainability 
objectives of projects. This revised Mission Order was issued on 
October 8, 2015 and remains in effect.
    The second recommendation asked USAID to provide guidance for 
identifying capital assistance projects, including infrastructure 
activities, for which USAID Missions must certify sustainability, to 
ensure compliance with Section 611(e) of the Foreign Assistance Act of 
1961 as amended. The identification of infrastructure projects and 
follow-through on Section 611(e) requirements for capital investments 
are integral to USAID's Program Cycle, particularly at the design 
stage. Operating units identify infrastructure activities and confirm 
Section 611(e) requirements are met through completion of mandatory 
activity checklists and other planning requirements including initial 
environmental examinations.
    Nevertheless, USAID recognizes that, especially where 
infrastructure is not the primary objective of an activity, 
identification and sustainability planning can fall short of reasonably 
expected planning levels. The recently completed USAID Construction 
Assessment (November 2014) broadly recommends developing further 
policies "around successfully designing, implementing, and 
administering construction activities" in order to more effectively and 
efficiently manage investments and risk around capital projects. To 
this end, the Agency is already taking action to address Section 611(e) 
compliance as follows:


   Select operating units, including the USAID/Haiti Mission, have 
        already developed Mission Orders (operating unit specific 
        guidance) for construction activity management, including 
        compliance with Section 611(e) requirements.

   The Agency's Global Acquisition and Assistance System (GLAAS) was 
        modified to allow for a simple (check box) identification of 
        infrastructure activities in each active award. This 
        modification allows for a search of GLAAS data fields 
        (location, budget, contract value, etc.) for all activities 
        that include construction across the Agency's portfolio.

   A training program on Section 611(e) compliance and best practices 
        was delivered at the Agency's global infrastructure conference 
        held in Washington, DC in December 2014. Attendees at the 
        conference included Agency engineers and contracting officers. 
        Training on the 611(e) process is a part of USAID's five-day 
        Engineering and Construction Contracting Management course. In 
        the past 12 months, the Agency has trained over 100 USAID 
        staff.

   The Agency's Acquisition and Assistance Planning system now 
        includes a field to track construction activities in planned 
        upcoming awards. This allows the Agency to generate reports 
        that track construction activities by location, technical 
        sector, award value, anticipated award date, etc.


    The third recommendation seeks to ensure that USAID management has 
access to all information necessary to certify a host government's 
capability to maintain and operate a capital assistance project and 
provides guidance specifying the types of information that missions 
should include in 611(e) certifications.
    In USAID's effort to revise ADS 200 (Programming Policy), new 
language has been drafted to make the identification and screening of 
risk mandatory at the planning stage of all construction activities. 
Risk screening protocols are being piloted across USAID operating units 
at present. Sustainability is considered a significant category of risk 
for USAID construction. Risk screening protocols emphasize rigorous 
compliance with policy requirements, like 611(e), in order to achieve 
appropriate levels of risk management and mitigation. Guidance is 
expected to be completed and linked to the Agency's Automated Directive 
System in the next six to 12 months.


    Question 3. In February and March of 2015, USAID suspended two of 
the contractors that had worked on its flagship $30-plus million 
Caracol-EKAM housing project in Haiti due to faulty home construction 
and poor drainage that resulted in flooding of the site. New contracts 
were required to assess and make repairs to the project. What is the 
current status of these repairs, including the total expected cost? 
What steps has USAID taken to ensure that similar issues will not occur 
with implementing partners in the future?

    Answer. USAID/Haiti was deeply concerned to discover deficiencies 
detected in the housing and related site works constructed at the 
Caracol-EKAM site.
    The Agency is working to remedy deficiencies at the Caracol-EKAM 
housing site--starting with the hiring of a U.S. construction firm to 
address the most urgent deficiencies. USAID has already reinforced the 
nine individual footings that support a water tower on site. Planned 
repairs include: site storm drainage improvements, sanitation system 
upgrades, water system upgrades, strengthening of roof fasteners, and 
structural upgrades of house walls. The current total estimated cost of 
repairs and needed improvements to the Caracol-EKAM site includes an 
estimated $4.5 million for the assessment, the design to address the 
deficiencies, and the construction management to oversee the work; and 
an estimated $7.9 million for the actual repairs and improvements.
    USAID is committed to ensuring that American taxpayer dollars are 
used wisely, effectively, and for their intended purpose in every place 
we work, including Haiti. The two contractor companies that performed 
the deficient work are currently excluded from competing for most 
federal government construction contracts, thus protecting the USG and 
the U.S. taxpayer from future harm. The Agency can and does exclude 
vendors that do not perform, helping to ensure that the federal 
government does business only with responsible partners. In addition, 
in March and July 2015, USAID terminated for default two contracts that 
were held by the contractors who worked on housing construction at 
Caracol-EKAM.
    Finally, USAID's Office of the Inspector General routinely audits 
Agency programs, which is a standard practice for USAID programs 
worldwide. These audits help ensure proper financial and management 
control and give us the opportunity to make adjustments as warranted.


    Question 4. The U.N. estimates that there are 13.5 million people 
in need of assistance inside Syria. Meanwhile, large parts of Syria are 
controlled by non-government forces, including ISIS, while other areas 
have controls put in place by the Assad government, limiting the 
delivery of humanitarian assistance. Can you describe State's 
strategies for delivering assistance to these areas? Approximately, in 
what percentage of the country have State and USAID been able to 
operate?

    Answer. U.S. Government humanitarian assistance is provided based 
on need and the ability of our partners to access the populations in 
need of assistance. Over the past five years, the United States has 
contributed over $5 billion in humanitarian funds. We cannot provide a 
percentage of the country in which State and USAID have been able to 
operate in delivering humanitarian assistance, because it changes from 
week to week and month to month. However, our assistance reaches an 
estimated 5 million Syrians inside Syria and in neighboring countries 
every month, and U.S. Government-funded humanitarian assistance has 
reached all 14 governorates of Syria over the last four years. The 
greatest access challenges have been areas that are cut off by 
deliberate siege tactics--19 areas including the Damascus suburbs, 
Idlib, and Deir ez Zour--and areas controlled by ISIL in northern 
Syria, where it has become prohibitively difficult to deliver 
humanitarian assistance without interference.
    To reach as many people as possible, we are working through all 
channels, including across conflict lines and crossing borders. The 
besieged areas mentioned above have remained a leading concern for us, 
but recently, as part of the International Syria Support Group (ISSG) 
agreement, the United Nations has been able to deliver assistance to 
many of those areas. We continue to advocate that more needs to be done 
to ensure continuous access throughout the country.
    USAID exercises considerable oversight over our programs, and our 
partners have developed a variety of multi-layered monitoring and 
tracking mechanisms to make sure that assistance gets to those it is 
intended to reach. USAID works closely with all partners to collect 
performance and situational data to monitor activities and gather 
enough information from different sources to verify assistance is 
reaching targeted areas and beneficiaries. USAID staff closely and 
systematically track the reports, are in regular direct communication 
with partners, and immediately follow up on any reported issues. 
Partners are required to provide regular program updates on the 
progress of their activities and any security concerns, and we require 
them to report any diversions, seizures, or losses immediately, and 
halt activities as necessary, until the issue is resolved. Partners 
monitor programs through geo-tagged photos and videos of the 
distributions, multiple independent field monitors, and provide 
feedback hotlines for beneficiaries.


    Question 5. Due to restrictions in place in Syria, aid is often 
delivered using networks of volunteers. What requirements or specific 
policies does State and USAID have in place to vet volunteers or 
networks that assist in the delivery of this humanitarian aid? What 
types of monitoring activities do State and USAID implement to ensure 
accountability of assistance delivery? What percentage of deliveries in 
Syria has been affected by fraud or diversion? How does the U.S. track 
this?

    Answer. Diversion is never an acceptable cost of doing business. 
USAID takes the loss and diversion of assistance--no matter the 
modality--very seriously. USAID's Office of the Inspector General (OIG) 
has reported that, of the approximately $1.1 billion provided for the 
Syrian humanitarian response between FY 2015 and FY 2016 to date, 
roughly one-tenth of one percent has been lost to diversion.
    The operating environment in Syria and the extended response to 
this crisis have created complexities that we have never before seen. 
Thus, there is acknowledged risk, but also several learning 
opportunities that have already been realized and improvements 
institutionalized into processes to prevent future occurrences.
    USAID works closely with its partners to collect performance and 
situational data to monitor activities and gather information from 
different sources to verify that assistance is reaching targeted areas 
and beneficiaries. Agency staff closely and systematically tracks this 
information, and follows up promptly on any reported issues. Partners 
are required to provide regular program updates on the progress of 
their activities and any security concerns, and to report any 
diversions, seizures, or losses immediately. Additionally, the Agency 
uses a variety of approaches to verify that aid is reaching its 
intended beneficiaries, including geo-tagged photos and videos of 
distributions, multiple independent field monitors, and feedback 
hotlines for beneficiaries.
    The USAID Disaster Assistance Response Team (DART) in Jordan and 
Turkey meets regularly with partners to discuss programming, issues 
that impede humanitarian activities, and partners' monitoring and risk 
mitigation mechanisms. The DART also meets with the broader 
humanitarian community and communicates directly and indirectly with 
Syrian organizations that provide added layers of ground truth to 
partner reporting. The DART attends cluster and donor coordination 
meetings, which provide additional opportunities to triangulate 
information about partners' performance.
    In addition, USAID uses a third-party monitoring system to verify 
and provide independent confirmation of a number of USAID programs. 
Through independent, field-based monitoring of activities, verification 
of outputs and monthly progress reporting, the third party mechanisms 
supply USAID with an additional level of assurance--similar to the role 
field visits provide for USAID monitoring activities in more stable 
environments--while also contributing to program learning.
    The U.S. Government humanitarian response inside Syria is 
coordinated by the Middle East Crisis Response (MECHR) Management Team, 
which is inclusive of both USAID's Office of Food for Peace (USAID/FFP) 
and USAID's Office of U.S. Foreign Disaster Assistance (USAID/OFDA). 
USAID staff in Washington, D.C. also maintain regular contact with our 
humanitarian partners, including United Nations (U.N.) agencies, other 
international organizations, and NGOs, concerning their assistance 
activities in Syria. In addition, USAID leadership regularly engages 
with U.N. agency emergency directors and other senior U.N. staff in a 
variety of fora, including Emergency Directors Group meetings, Syria 
Top Donor Group meetings, and other events.
    As with diversion, USAID has a zero tolerance policy for fraud and 
abuse of American taxpayer resources and will take every measure at our 
disposal to recover misspent funds. USAID halted several humanitarian 
aid activities in Turkey based on information provided by an NGO 
implementer and USAID's OIG. Given that these investigations are 
ongoing, we refer you to the OIG for any further information on their 
findings.


    Question 6. What is the total amount of the FY 2017 request 
designated for assistance in Syria? How does that compare with the 
current funding level? How much of this is USAID anticipating on using 
for humanitarian assistance?

    Answer. In Fiscal Year (FY) 2017, the President's request includes 
$1.075 billion for USAID related assistance to Syria. The humanitarian 
assistance request includes $898 million in International Disaster 
Assistance (IDA)-Overseas Contingency Operations (OCO) funding for 
Syria--$69 million (8 percent) above the FY 2016 request, and $32 
million (5 percent) above the FY 2015 actual--in order to identify and 
respond to the most critical, life-saving humanitarian needs of 
displaced and conflict-affected families in Syria, prioritizing food 
assistance, basic health care, relief commodities, water, sanitation, 
and hygiene (WASH), and protection programming. These resources will 
also be used to provide emergency food assistance to Syrian refugees in 
Egypt, Iraq, Jordan, Lebanon, and Turkey.
    The Economic Support Fund request is $175 million--$15 million (9 
percent) above the FY 2016 request, and nearly $147 million (525 
percent) above FY 2015 actuals. Syria also received an additional $114 
million to augment the FY 2015 ESF allocation. The FY 2017 ESF request 
is $33 million (23 percent) above the total ESF allocation in FY 2015. 
These programs support moderate opposition by providing them the 
resources to restore essential services; improve local governance 
capacity through the ability to manage and deliver these essential 
services; support civil society organizations; and create livelihoods 
and other economic opportunities.
    Additionally, the Office of Transition Initiatives (OTI) has 
provided $2.2 million of FY 2015 Transition Initiative (TI) funds, and 
plans for $2.2m of FY 2016 TI funds in Syria, subject to change based 
on the evolving needs on the ground and availability of funds. OTI has 
managed $35.2m in non-TI in FY 2015, and currently plans for $14m in 
non-TI in FY 2016. Through USAID's Office of Transition Initiatives 
(USAID/OTI) Syria Regional Program, we support Syrians who are building 
inclusive, accountable, and responsive governance institutions that 
address community needs.
    Figures included in the request are estimated projections subject 
to change based on need. USAID humanitarian assistance, in particular, 
must retain flexibility in order to respond to humanitarian needs as 
they emerge, such as sudden mass displacement, infectious disease 
outbreaks, and potential deteriorations in food security.


    Question 7. Do you anticipate that the outbreak of the Zika virus 
in Latin America, which came to international attention after this 
budget request was formulated, will impact plans for global health 
assistance allocations in FY 2017?

    Answer. At this time, there are no changes to the FY 2017 Global 
Health request. The response to Zika requires immediate action. The FY 
2016 emergency supplemental appropriations request would be our primary 
response to Zika. We are also exploring additional authorities to use 
available funds, including remaining funds in the Ebola supplemental 
appropriations.
    We should not divert funding from other important Global Health 
challenges for Zika. This would undermine our ability to achieve 
important global goals--such as ending child and maternal deaths and 
protecting communities from infectious diseases, including completing 
the response to Ebola, building global health security capacity, and 
addressing tuberculosis. These issues currently claim millions of lives 
each year--and most of these deaths are preventable, and doing so has 
been a priority of the U.S. Government for many years. The experience 
over the last several years with outbreaks of Ebola, SARS, MERS-CoV, 
avian influenza and Zika has underscored the point that infectious 
disease outbreaks will happen and they can have devastating impacts 
locally and globally if they are not prevented and mitigated. Ensuring 
effective prevention, detection and response of such outbreaks is at 
the heart of global health security. If Zika continues to spread around 
the world, and response needs exceed the emergency funding capacity we 
have requested, we will have to explore and review the options 
available to address the changing epidemic.


    Question 8. What is the United States doing to help developing 
countries take on more of a leadership role in serving their own 
citizens, to make sure that the countries we are trying to help have 
all the tools they need to manage their way to an AIDS-free generation?

    Answer. USAID, as part of the President's Emergency Plan for AIDS 
Relief (PEPFAR), helps developing countries take on a leadership role 
in the HIV/AIDS response through developing capacity and ensuring 
sustainability, and advocating for domestic resource mobilization. 
USAID and PEPFAR measure progress toward sustainability in partnership 
with local stakeholders through the Sustainability Index and Dashboard 
(SID), which is required each year for bilateral programs starting in 
FY 2015. SID is made up of four domains: 1) Governance, Leadership, and 
Accountability; 2) National Health System and Service Delivery; 3) 
Strategic Investments, Efficiency, and Sustainable Financing; and 4) 
Strategic Information. Within each domain, there are indicators that 
are used to examine areas of strength and those in need of improvement. 
SID is completed through stakeholder meetings and consultations, which 
include civil society groups, a range of government ministries and 
officials, private sector representatives, multilateral partners and 
others, which ensures a wide range of country perspectives are 
reflected in the final SID findings.
    In combination with other data streams, SID sustainability data is 
used to target the U.S. Government HIV funding (and as relevant, other 
donor funding) in ways that both directly link to HIV outcomes and 
improve the health systems and capacity of local stakeholders for the 
long term.
    In a further effort to support developing country partner 
governments to take a leadership role in the HIV/AIDS response, USAID 
is leading efforts within PEPFAR around sustainable financing for HIV 
programs. In countries with growing economies, mobilizing domestic 
resources is critical to achieving a sustained response to the epidemic 
and promoting an AIDS-free generation. Under the Sustainable Financing 
Initiative, USAID aims to deliver an AIDS-free generation through 
shared financial responsibility with the partner country governments of 
Kenya, Tanzania, Uganda, Nigeria, Zambia, Vietnam, and Mozambique.
    The portfolio of Sustainable Financing Initiative interventions to 
raise local resources include: 1) economic and macro-fiscal data 
analysis and advocacy--use of evidence and in-country finance, costing 
and economic analyses to increase and sustain political will by host 
governments to commit more resources to health and HIV; 2) tax 
administration and policy reform/financial management --increasing tax 
revenues through improving the collection of existing taxes and/ or 
developing new taxes; public financial management and program-based 
budgeting; 3) efficiency--improving technical efficiency and resource 
allocation through optimizations in service delivery, supply chain 
systems, health insurance, and other management reforms to enable 
countries to avoid waste of essential resources and improve HIV and 
AIDS outcomes within the existing set of resources; and 4) private 
sector and innovative financing--increasing use of private health 
insurance and markets, innovative financing, and corporate social 
responsibility to facilitate greater private sector participation.


    Question 9. In the fiscal year 2014 omnibus appropriations bill, 
Congress told the administration that no less than $2.85 billion 
dollars should be spent on democracy programs, yet when the actual 
totals came in, only $1.9 billion had been spent. Can you please 
explain why democracy programs were underfunded by nearly one billion 
dollars in FY 2014?

    Answer. The U.S. government believes that democracy, human rights 
and governance (DRG) programs are essential to achieving and sustaining 
global development goals, as well as U.S. foreign policy objectives.
    As part of the annual budget process, and pursuant to Section 653a 
of the Foreign Assistance Act of 1961, USAID and the Department of 
State must provide a report to the Committees on Appropriations that 
details what our planning levels will be for all sectors and countries. 
Once there is agreement, the administration seeks to meet the 
Congressional directed requirements, while supporting administration 
and Congressional priorities. In the end, in FY 2014, it was not 
possible to meet all Congressional directives and still fulfill these 
shared priorities.
    There are several reasons why we did not meet the suggested level 
for DRG in FY 2014. First, the amount of funding in a number of 
Congressional directed sectors in the enacted bill were higher than 
requested, as such, tradeoffs were required to balance Congressional 
and administration priorities. Second, emerging opportunities or 
closing spaces required us to revise our planning and move some 
programming outside of where it was initially allocated or requested. 
Finally, there were account level reductions from the President's 
budget request and the FY 2013 enacted levels in FY 2014 that made it 
difficult to meet all of the shared priorities.
    The FY 2017 request for DRG programs for USAID is $2.3 billion, and 
we will continue to work towards meeting our highest priority goals in 
this sector, even when we face constraints.


    Question 10. Because democracy, human rights, and governance (DRG) 
funding was so hard hit in FY 2014 and again in FY 2015, Congress for 
the first time included a hard protection for DRG funding in the FY 
2016 omnibus, stating that the administration ``shall'' spend no less 
than $2.308 billion on democracy programs. This was to prevent, for 
example, funds being diverted to clean water or climate programs that 
also happen to build good governance. How will the administration 
ensure that during the remainder of FY 2016 the full amount of this 
funding truly goes to DRG programs and is not used for other programs 
that have merely a secondary democracy or governance benefit?

    Answer. USAID appreciates Congress's support of Democracy, Human 
Rights and Governance (DRG) programs, which are an essential aspect of 
U.S. foreign policy and sustainable, global development.
    The $2.3 billion earmark in FY 2016 will be allocated to core 
democracy, human rights and governance programs. In addition, USAID and 
State will continue to measure and invest in the integration of DRG 
principles and practices into programming outside of the DRG sector. 
This responds to USAID's commitment to improve development outcomes 
through the integration of DRG principles in the 2015 Cross-Sectoral 
DRG Integration Action Plan and is responsive to the 2015 Quadrennial 
Diplomacy and Development Review (QDDR), which contends that 
``accountable, democratic governance is the surest way to expand social 
and economic opportunities'' and ``societies that allow citizens a say 
and a stake in their success are more stable, prosperous, and secure.''
    For example, an agriculture project that uses a community-based 
development approach to engage historically marginalized groups in the 
design and implementation of community development plans integrates DRG 
principles, but would not fall within the DRG earmark set by the FY 
2016 appropriations bill.


    Question 11. How are determinations being made regarding which 
countries receive DRG funding and which do not? In Africa, for example, 
DRG funding has decreased by almost 50 percent since FY 2012, and 
between FY 2012-FY15, five countries (South Sudan, Liberia, DRC, 
Zimbabwe, and Kenya) received more than 60 percent of the DRG funding 
for the entire region. During this same time frame, in Latin America 
and the Caribbean, four countries (Mexico, Colombia, Cuba, and Haiti) 
received 58 percent of the region's total DRG funding. In South and 
Central Asia, Afghanistan and Pakistan receive 98 percent of this 
funding. In the FY 2017 budget request, which countries receive 
democracy, human rights, and governance funding and which do not? Why 
were the countries that are not receiving DRG funding under this budget 
excluded?

    Answer. The 81 countries that would receive Democracy, Human 
Rights, and Governance funding in the FY 2017 request, in addition to 
central and regional allocations, are noted in the summary tables of 
the of the Congressional Budget Justification.
    Several factors are used to determine the countries that will 
receive Democracy, Rights, and Governing (DRG) funding:


   We consider the need for DRG assistance in a country based on the 
        specific country context.

   We assess whether DRG programs are likely to be effective, 
        including the willingness of the host government to permit such 
        programs to operate.

   We factor in U.S. Government foreign policy and development 
        priorities, and prioritize countries based on the availability 
        of assistance resources after taking into account legislative 
        directives.

   In some cases, regional DRG funding is considered to be a more 
        effective approach than bilateral funding.

   In most cases, countries where we do not request DRG funding are 
        places where the need for DRG assistance is lower than 
        elsewhere, where it may be more difficult to conduct programs; 
        or where the likelihood of having an impact is very low.


    Question 12. What is USAID doing to help Georgia to hold free and 
fair elections later this year? Are there concerns about Georgia's 
democracy and adherence to the rule of law?

    Answer. In FY 2015, the U.S. government allocated more than $20 
million to promote democracy and rule of law in Georgia. This continues 
in FY 2016, where USG funded programs in Georgia will seek to advance 
democratic political processes, strengthen civic participation, bolster 
independent media, and support the rule of law in an effort to support 
government transparency, accountability, and responsiveness, and 
promote Georgia's integration into the Euro-Atlantic community.
    The October 2016 parliamentary elections will represent another key 
moment in the transformation and consolidation of Georgia's democracy. 
Georgia has made significant progress since independence towards 
becoming a fully democratic state and is unique in the region in its 
commitment to democracy. Its 2012 and 2013 national elections resulted 
in the first peaceful constitutional change of power in post-Soviet 
Georgia. It will be important for Georgia to maintain and strengthen 
media freedom, continue to promote political pluralism, and ensure 
independence of the judiciary as it moves toward parliamentary 
elections this fall.
    The U.S. government is currently assessing the electoral 
environment to identify any unmet needs in advance of this year's 
elections. In addition, the U.S. government is funding observation 
missions by the International Republican Institute, the National 
Democratic Institute, and local NGOs, and plans to contribute observers 
to the Organization for Security and Co-operation in Europe observation 
mission. Pursuing electoral reform and the importance of safeguarding 
media freedom, civil society and political pluralism during the 
election season will be a key focus of the U.S.-Georgia Democracy 
Working Group to be held in Tbilisi this summer.


    Question 13. U.S. development assistance should foster long-term 
self-sufficiency and ultimately support partner countries transition 
from foreign aid. The FY 2016 Omnibus Appropriations bill included an 
important provision requiring all future country development strategies 
to include a plan for transitioning over time away from foreign 
assistance. How is the State Department approaching these transition 
plans? Have you considered developing clear, measurable, and realistic 
benchmarks for country transition, such as benchmarks for social and 
economic progress across social groups, public sector capacity, or the 
enabling environment for civil society and the private sector?
    Transition planning is being incorporated into USAID's Country 
Development Cooperation Strategies (CDCSs). During the first phase of 
CDCS development, decisions will be made regarding the necessary scope 
of transition planning for a particular mission, including the type of 
transition (e.g., phasing out of a particular sector, planning to 
transition assistance from programmatic to advisory, or phasing out of 
a country entirely) and over what time frame. Transition planning will 
be further developed and informed by analyses undertaken during 
subsequent phases of CDCS development. In the final phase of CDCS 
development, the Mission will complete a transition plan for inclusion 
in its CDCS submission. These decisions should be reflected in all 
CDCSs developed after January 1, 2016.
    Establishing goals for foreign assistance outcomes that would allow 
for USAID to transition its relationship with a country, and benchmarks 
towards achievement of those goals, is integral to USAID's approach to 
transition planning. Given the variety of contexts in which USAID 
works, and the range of U.S. government interests in those countries, 
USAID's approach is to develop broad guidelines for these benchmarks 
while preserving adaptability to local contexts so that our foreign 
assistance goals remain responsive to shifting realities. Benchmarks 
identified for transition may include indicators of democratic and 
socioeconomic progress as well as a consideration of levels of 
inequality and particular development needs or priorities (e.g., 
education, citizen security, etc.). Other benchmarks include major 
foreign policy and strategic considerations. Additionally, a Mission 
should identify resources and levels of capacity of local partners, 
host country government, the private sector and other donors to 
continue development progress once USAID transitions its role.
    One example of this approach has been USAID's transition out of 
development assistance in Croatia. In March 2007, the Europe and 
Eurasia Bureau's Monitoring Country Progress (MCP) team conducted a 
rigorous empirical analysis of Croatia's progress in its transition to 
a market-oriented democracy, with a focus on the country's prospects 
and timeline for transitioning from U.S. government assistance. The 
analysis centered on four MCP indices comparing economic reform, 
democratic reform, economic performance, and human capital trends in 
Croatia against those of several other key countries in the region 
whose degree of progress had earned them North Atlantic Treaty 
Organization membership and positive indication from Western Europe 
that European Union accession was likely. The MCP benchmarking exercise 
found that Croatia exceeded transition thresholds in most cases and 
particularly in terms of human capital, which takes into account per 
capita income, life expectancy, child mortality, secondary school 
enrollment, and public expenditures on education and health. Based on 
these findings, USAID determined that Croatia was soon likely to 
achieve a degree of progress upon which the path to political and 
economic reform had become irreversible. The decision to transition 
USAID/Croatia from a Mission to a non-presence country soon followed on 
June 30, 2008. First approved by the State/USAID Joint Policy Council 
in 2004, these MCP indices are still utilized and adapted to inform 
planning and strategic direction.


    Question 14. I understand that USAID is often tasked with on-the-
ground implementation of certain State Department plans and 
initiatives, and in order for USAID to carry out these implementation 
efforts, State grants USAID a portion of its programmatic funding. 
However, these specific proportions transferred from State to USAID are 
not reflected in State's Congressional Budget Justification. As a 
matter of fact, in preparing for this hearing, I had to rely on 
``guess-timates'' from the Congressional Research Service on how much 
funding State transfers to USAID for different line items in the 
budget. In the interest of broader monitoring and evaluation, as well 
as public transparency, why are these funds not clearly delineated in 
either State or USAID's budget? Would it be feasible for State and 
USAID to begin disclosing these amounts? If no, why not?

    Answer. The joint Department of State (State) and USAID budget 
includes the resources needed by both agencies to advance national 
security priorities related to diplomacy and development. State and 
USAID work closely both in developing budget requests, and in 
implementing programs in the year of appropriation. Decisions about 
implementing mechanisms and implementing partners are made in the year 
of appropriation, based on assessed needs on the ground, evolving 
circumstances (which USAID and State monitor), priorities, 
implementation capacity, and available implementation mechanisms. There 
are times in the field where State Department often relies on USAID to 
program and assist in planning the programming of resources, so the 
distinction of ownership over funding can play a relatively small role 
in how projects are designed and implemented.
    While there can be differences from year to year, historically 
USAID generally administers all of the Development Assistance, Global 
Health Programs-USAID, Food for Peace Title II, International Disaster 
Assistance, and Transition Initiatives accounts. In most years, USAID 
has fully administered funding in the Complex Crises fund account as 
well. In addition, USAID fully implements the USAID Administrative 
Expense accounts: USAID Capital Investment Fund, USAID Development 
Credit Authority Admin Expenses, USAID Inspector General Operating 
Expenses, and USAID Operating Expenses accounts. USAID has historically 
administered 93 percent of the Economic Support Fund, 70 percent of 
Assistance for Europe, Eurasia, Central America, and 60 percent of the 
Global Health Program-State accounts.


                               __________

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
